<html>
<title> - DRIVING IN REVERSE: THE ADMINISTRATION'S ROLLBACK OF FUEL ECONOMY AND CLEAN CAR STANDARDS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                     DRIVING IN REVERSE: THE ADMINISTRATION'S 
                       ROLLBACK OF FUEL ECONOMY AND CLEAN 
                       CAR STANDARDS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CONSUMER PROTECTION AND COMMERCE

                                AND THE

             SUBCOMMITTEE ON ENVIRONMENT AND CLIMATE CHANGE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 20, 2019

                               __________

                           Serial No. 116-49
                       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                       


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov                        
                        
                               __________
                                    

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-609 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
                  
                   
                   
                   COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
            Subcommittee on Consumer Protection and Commerce

                        JAN SCHAKOWSKY, Illinois
                                Chairwoman
KATHY CASTOR, Florida                CATHY McMORRIS RODGERS, Washington
MARC A. VEASEY, Texas                  Ranking Member
ROBIN L. KELLY, Illinois             FRED UPTON, Michigan
TOM O'HALLERAN, Arizona              MICHAEL C. BURGESS, Texas
BEN RAY LUJAN, New Mexico            ROBERT E. LATTA, Ohio
TONY CARDENAS, California, Vice      BRETT GUTHRIE, Kentucky
    Chair                            LARRY BUCSHON, Indiana
LISA BLUNT ROCHESTER, Delaware       RICHARD HUDSON, North Carolina
DARREN SOTO, Florida                 EARL L. ``BUDDY'' CARTER, Georgia
BOBBY L. RUSH, Illinois              GREG GIANFORTE, Montana
DORIS O. MATSUI, California          GREG WALDEN, Oregon (ex officio)
JERRY McNERNEY, California
DEBBIE DINGELL, Michigan
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                                 ------                                

             Subcommittee on Environment and Climate Change

                          PAUL TONKO, New York
                                 Chairman
YVETTE D. CLARKE, New York           JOHN SHIMKUS, Illinois
SCOTT H. PETERS, California            Ranking Member
NANETTE DIAZ BARRAGAN, California    CATHY McMORRIS RODGERS, Washington
A. DONALD McEACHIN, Virginia         DAVID B. McKINLEY, West Virginia
LISA BLUNT ROCHESTER, Delaware       BILL JOHNSON, Ohio
DARREN SOTO, Florida                 BILLY LONG, Missouri
DIANA DeGETTE, Colorado              BILL FLORES, Texas
JAN SCHAKOWSKY, Illinois             MARKWAYNE MULLIN, Oklahoma
DORIS O. MATSUI, California          EARL L. ``BUDDY'' CARTER, Georgia
JERRY McNERNEY, California           JEFF DUNCAN, South Carolina
RAUL RUIZ, California, Vice Chair    GREG WALDEN, Oregon (ex officio)
DEBBIE DINGELL, Michigan
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Jan Schakowsky, a Representative in Congress from the State 
  of Illinois, opening statement.................................     2
    Prepared statement...........................................     3
Hon. Cathy McMorris Rodgers, a Representative in Congress from 
  the State of Washington, opening statement.....................     4
    Prepared statement...........................................     6
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     7
    Prepared statement...........................................     8
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................    10
    Prepared statement...........................................    11
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................    12
    Prepared statement...........................................    14
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................    15
    Prepared statement...........................................    17

                               Witnesses

Heidi King, Deputy Administrator, National Highway Traffic Safety 
  Administration, Department of Transportation...................    18
    Prepared statement...........................................    21
    Answers to submitted questions...............................   255
William L. Wehrum, Assistant Administrator, Office of Air and 
  Radiation, Environmental Protection Agency.....................    24
    Prepared statement...........................................    25
    Answers to submitted questions...............................   262
Mary Nichols, Chair, California Air Resources Board..............    74
    Prepared statement...........................................    77
Nicolas Loris, Deputy Director and Herbert & Joyce Morgan 
  Research Fellow, Roe Institute for Economic Policy Studies, The 
  Heritage Foundation............................................    80
    Prepared statement...........................................    82
    Answers to submitted questions...............................   267
Ramzi Hermiz, President and Chief Executive Officer, Shiloh 
  Industries, Inc................................................    90
    Prepared statement...........................................    92
David Schwietert, Interim President and Chief Executive Officer, 
  Alliance of Automobile Manufacturers...........................   102
    Prepared statement...........................................   105
    Answers to submitted questions...............................   272
Josh Nassar, Legislative Director, United Auto Workers...........   118
    Prepared statement...........................................   120
    Answers to submitted questions...............................   278
Jeffery Landry, Attorney General, State of Louisiana.............   127
    Prepared statement...........................................   129
    Answers to submitted questions...............................   283
Soshana M. Lew, Executive Director, Colorado Department of 
  Transportation.................................................   134
    Prepared statement...........................................   136
    Answers to submitted questions...............................   285
David J. Friedman, Vice President, Advocacy, Consumer Reports....   141
    Prepared statement...........................................   143
    Answers to submitted questions \1\...........................   291

                           Submitted Material

Report by S. William Becker and Mary D. Becker, ``The Devastating 
  Impacts of the Trump Proposal to Roll Back Greenhouse Gas 
  Vehicle Emissions Standards: `The Untold Story,''' submitted by 
  Mr. Tonko \2\
Report of the BlueGreen Alliance, Natural Resources Defense 
  Council, ``Supplying Ingenuity II: U.S.Suppliers of Key Clean, 
  Fuel-Efficient Vehicle Technologies,'' May 2017, submitted by 
  Mr. Tonko \2\
Research paper, ``Taking the High Road: Strategies for a Fair EV 
  Future,'' UAW, August 2018, submitted by Mr. Tonko \2\
Letter of June 6, 2019, from Aston Martin Lagonda, et al., to 
  Hon. Gavin Newsom, Governor, State of California, submitted by 
  Mr. Tonko......................................................   188
Letter of June 6, 2019, from Aston Martin Lagonda, et al., to 
  President Donald J. Trump, submitted by Mr. Tonko..............   190
Letter of June 19, 2019, from Carol Lee Rawn, Senior Director, 
  Transportation, Ceres, to Mr. Pallone and Mr. Walden, submitted 
  by Mr. Tonko...................................................   192
Memo, ``Proposal: Lobbying expenditures disclosure,'' General 
  Motors Corporation, submitted by Mr. Tonko.....................   196
Memo, ``Proposal #6: Lobbying Expenditures Disclosure,'' Ford 
  Motor Company, submitted by Mr. Tonko..........................   201
Letter of May 17, 2019, from BNP Paribas Asset Management, et 
  al., to Mary T. Barra, Chief Executive Officer, General Motors 
  Company, submitted by Mr. Tonko................................   206
Letter of October 26, 2018, from Robeco, et al., to Andrew 
  Wheeler, Administrator, Environmental Protection Agency, and 
  Heidi King, Deputy Administrator, National Highway Traffic 
  Safety Administration, submitted by Mr. Tonko..................   209
Letter of October 26, 2018, from Anne Kelly, Senior Director, 
  Policy and BICEP Network, Ceres, to Andrew Wheeler, 
  Administrator, Environmental Protection Agency, and Heidi King, 
  Deputy Administrator, National Highway Traffic Safety 
  Administration, submitted by Mr. Tonko.........................   214
Letter of June 20, 2019, from Letitia James, Attorney General of 
  New York, et al., to Ms. Schakowsky, et al., submitted by Mr. 
  Tonko..........................................................   217
Letter of June 20, 2019, from John Bozzella, President and Chief 
  Executive Officer, Association of Global Automakers, to Mr. 
  Pallone and Mr. Walden, submitted by Mr. Tonko.................   221
Letter of June 20, 2019, from Robbie Diamond, President and Chief 
  Executive Officer, Securing America's Future Energy, to Mr. 
  Pallone, el al., submitted by Mr. Tonko........................   225
Statement of the American Chemistry Council, June 20, 2019, 
  submitted by Mr. Tonko.........................................   230
Public Financial Disclosure Report for William L. Wehrum, Office 
  of Government Ethics, submitted by Mr. Tonko...................   240
Letter of June 20, 2019, from Sam Kazman, Competitive Enterprise 
  Institute, et al., to Mr. Pallone, et al., submitted by Mr. 
  Tonko \2\
Letter of June 13, 2019, from J. Douglas Sparkman, Chief 
  Operating Officer, BP Fuels North America, to Andrew Wheeler, 
  Administrator, Environmental Protection Agency, submitted by 
  Mr. Tonko......................................................   250

----------

\1\ Three supplemental documents submitted with Mr. Friedman's 
responses have been retained in committee files and also are available 
at https://docs.house.gov/meetings/IF/IF17/20190620/109670/HHRG-116-
IF17-Wstate-FriedmanD-20190620-SD004.pdf.
\2\ The information has been retained in committee files and also is 
available at https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=109670.
Letter of June 20, 2019, from Andrew Wheeler, Administrator, 
  Environmental Protection Agency, to Mrs. Rodgers and Mr. 
  Shimkus, submitted by Mr. Tonko................................   251
District fact sheets, Auto Alliance, submitted by Mr. Tonko \2\
Statement of Jack Gillis, Executive Director, Consumer Federation 
  of America, June 20, 2019, submitted by Mr. Tonko \2\
Proposed rule, Federal Register, Volume 83, Number 165, page 
  43,067, submitted by Ms. Blunt Rochester.......................   252
Letter of October 23, 2018, from Ken Paxton, Attorney General of 
  Texas, et al., to Elaine L. Chao, Secretary, Department of 
  Transportation, and Andrew Wheeler, Administrator, 
  Environmental Protection Agency, submitted by Mr. Duncan.......   253

----------

\2\ The information has been retained in committee files and also is 
available at https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=109670.

 
 DRIVING IN REVERSE: THE ADMINISTRATION'S ROLLBACK OF FUEL ECONOMY AND 
                          CLEAN CAR STANDARDS

                              ----------                              


                        THURSDAY, JUNE 20, 2019

                  House of Representatives,
   Subcommittee on Consumer Protection and Commerce
                             joint with the
    Subcommittee on Environment and Climate Change,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 10:01 a.m., in 
the John D. Dingell Room 2123, Rayburn House Office Building, 
Hon. Jan Schakowsky (chairwoman of the Subcommittee on Consumer 
Protection and Commerce) and Hon. Paul Tonko (chairman of the 
Subcommittee on Environment and Climate Change) presiding.
    Members present: Representatives Schakowsky, Tonko, 
DeGette, Matsui, Castor, McNerney, Lujan, Clarke, Cardenas, 
Ruiz, Peters, Dingell, Veasey, Kelly, Barragan, McEachin, Blunt 
Rochester, Soto, O'Halleran, Pallone (ex officio), Shimkus 
(Subcommittee on Environment and Climate Change ranking 
member), Rodgers (Subcommittee on Consumer Protection and 
Commerce ranking member), Upton, Burgess, Latta, Guthrie, 
McKinley, Johnson, Long, Bucshon, Flores, Mullin, Hudson, 
Carter, Duncan, Gianforte, and Walden (ex officio).
    Members present: Representatives Loebsack and Kuster.
    Staff present: Jeffrey C. Carroll, Staff Director; Adam 
Fischer, Policy Analyst; Lisa Goldman, Senior Counsel; Waverly 
Gordon, Deputy Chief Counsel; Daniel Greene, Professional Staff 
Member; Tiffany Guarascio, Deputy Staff Director; Caitlin 
Haberman, Professional Staff Member; Alex Hoehn-Saric, Chief 
Counsel, Communications and Consumer Protection; Zach Kahan, 
Outreach and Member Service Coordinator; Rick Kessler, Senior 
Advisor and Staff Director, Energy and Environment; Brendan 
Larkin, Policy Coordinator; Dustin J. Maghamfar, Air and 
Climate Counsel; Jon Monger, Counsel; Elysa Montfort, Press 
Secretary; Joe Orlando, Staff Assistant; Kaitlyn Peel, Digital 
Director; Alivia Roberts, Press Assistant; Tim Robinson, Chief 
Counsel; Chloe Rodriguez, Policy Analyst; Nikki Roy, Policy 
Coordinator; Andrew Souvall, Director of Communications, 
Outreach, and Member Services; Benjamin Tabor, Staff Assistant; 
Sydney Terry, Policy Coordinator; Jen Barblan, Minority Chief 
Counsel, Oversight and Investigations; Mike Bloomquist, 
Minority Staff Director; S. K. Bowen, Press Assistant; Jerry 
Couri, Minority Deputy Chief Counsel, Environment; Jordan 
Davis, Minority Senior Advisor; Justin Discigil, Minority Press 
Secretary; Margaret Tucker Fogarty, Minority Staff Assistant; 
Melissa Froelich, Minority Chief Counsel, Consumer Protection 
and Commerce; Theresa Gambo, Minority Financial and Office 
Administrator; Peter Kielty, Minority General Counsel; Bijan 
Koohmaraie, Minority Counsel, Consumer Protection and Commerce; 
Mary Martin, Minority Chief Counsel, Energy and Environment; 
Brandon Mooney, Minority Deputy Chief Counsel, Energy; Brannon 
Rains, Minority Legislative Clerk; Zach Roday, Minority 
Director of Communications; and Peter Spencer, Minority Senior 
Professional Staff Member, Energy and Environment.
    Ms. Schakowsky. The joint hearing of the Subcommittee on 
Consumer Protection and Commerce and the Subcommittee on 
Environment and Climate Change will now come to order.
    It is a pleasure to have this joint hearing with Chairman 
Tonko and ranking Republican Mr. Shimkus together, and it is a 
pleasure, of course, always to be with my ranking member, Mrs. 
McMorris Rodgers.
    And I will begin with an opening statement, and so I 
recognize myself for 5 minutes.

 OPENING STATEMENT OF HON. JAN SCHAKOWSKY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    So I want to begin by thanking our witnesses for being here 
with us today. We appreciate it very much.
    Today's hearing is about the Trump administration's 
proposed rollback of fuel economy and greenhouse gas standards 
for cars and light-duty trucks.
    In 2007, Congress directed the National Highway Traffic 
Safety Administration, NHTSA, to strengthen Corporate Average 
Fuel Economy, that is, CAFE standards for cars and light 
trucks, with the goal, at that time, of reducing U.S. 
dependency on imported oil by improving fuel efficiency. These 
standards have been a resounding success. Consumers have saved 
nearly $85 billion in fuel costs, and the clean-car industry 
supports nearly 288,000 jobs.
    But just 2 months after the Obama administration determined 
to continue improving CAFE standards through model year 2025, 
the Trump administration announced a change in course. In 
August 2018, EPA and NHTSA released a notice of proposed 
rulemaking known as the Safer Affordable Fuel Efficiency, SAFE, 
Vehicle Rule, freezing that standard at model year 2020 levels. 
Few proposals have been more blatantly misnamed than this.
    The SAFE Vehicle Rule is not safer. While the EPA and NHTSA 
claimed that the rule would reduce vehicle fatalities, 
independent analyses and even career EPA staff dispute the 
findings, and have said that the rule would actually result in 
more deaths.
    The rule is not affordable, that is the A. Hardworking 
families are projected to spend an additional $3,300 on gas 
over the life of their vehicles. And according to the EPA and 
NHTSA's own conclusions, the rule would eliminate 60,000 jobs 
in the United States automobile industry. Rolling back Clean 
Car Standards will damage the economy and put people out of 
work, which, by the way, will make it harder for them to buy 
cars.
    The rule is not more fuel efficient. That is the F in SAFE. 
Again, EPA and NHTSA's own analysis estimates that the rule 
will dramatically increase air pollution and increase fuel 
consumption by nearly 80 billion gallons. The fact that the 
Trump administration now seeks to dismiss policies that would 
reduce these emissions and make our environment cleaner is 
inexcusable.
    Climate change is the existential crisis of our time, and 
in 2018, 1 year of the Trump administration's policies, 
CO<INF>2</INF> emissions have jumped 2.6 percent, going in the 
wrong direction in the United States. The administration should 
abandon this proposal and end their assault on consumers, the 
environment, and safety.
    [The prepared statement of Ms. Schakowsky follows:]

               Prepared Statement of Hon. Jan Schakowsky

    Good morning, thank you for being here with us.
    Today's hearing is about the Trump administration's 
proposed rollback of fuel economy and greenhouse gas standards 
for cars and light-duty trucks.
    In 2007, Congress directed the National Highway Traffic 
Safety Administration (NHTSA) to strengthen Corporate Average 
Fuel Economy (CAFE) standards for cars and light-duty trucks, 
with the goal of reducing U.S. dependence on imported oil by 
improving fuel efficiency.
    These standards have been a resounding success. Consumers 
have saved nearly $85 billion in fuel costs and the clean car 
industry supports nearly 288,000 jobs.
    But just 2 months after the Obama administration determined 
to continue improving CAFE standards through model year 2025, 
the Trump administration announced a change in course.
    In August 2018, EPA and NHTSA released a notice of proposed 
rulemaking, known as the Safer Affordable Fuel-Efficient (SAFE) 
Vehicles Rule, freezing these standards at model year 2021 
levels.
    Few proposals have been more blatantly misnamed than this.
    The SAFE Vehicles Rule is not ``Safer.'' While the EPA and 
NHTSA claim that the rule would reduce vehicle fatalities, 
independent analyses and even career EPA staff dispute the 
findings and have said that the rule would result in more 
deaths.
    The rule is not ``Affordable.'' Hardworking families are 
projected to spend an additional $3,300 on gas over the life of 
their vehicle.
    And according to the EPA and NHTSA's own conclusions, the 
rule would eliminate 60,000 jobs in the U.S. automotive 
industry. Rolling back Clean Car Standards will damage the 
economy and puts people out of work, which by the way will make 
it harder for them to buy cars.
    The rule is not more ``Fuel-Efficient.'' Again, EPA and 
NHTSA's own analysis estimates that the rule will dramatically 
increase air pollutants, and increase fuel consumption by 
nearly 80 billion gallons.
    The fact that the Trump administration now seeks to 
dismantle policies that would reduce these emissions and make 
our environment cleaner is inexcusable.
    Climate change is the existential crisis of our time and in 
2018--1 year of Trump administration policies--CO<INF>2</INF> 
emissions jumped 2.6% in the U.S.
    The administration should abandon this proposal and end 
their assault on consumers, the environment, and safety.

    Ms. Schakowsky. So I thank you, and now I will yield the 
rest of my time to Congresswoman Matsui.
    Ms. Matsui. Thank you, Madam Chair.
    I want to thank you all for calling this important hearing 
on the Trump administration's reckless efforts to roll back 
auto fuel and clean air standards. Let's be clear. The Trump 
administration's actions hurt consumers, degrade our air 
quality, and contribute to climate change.
    This is also about American leadership. For decades, 
California has led the way in developing the gold standard for 
emissions. In my home State, we have long recognized the need 
for action. This has been particularly true under the 
exceptional leadership of Mary Nichols, chair of the California 
Air Resources Board. As a key regulator and negotiator on 
climate change and air quality, Mary is an obvious choice for 
this hearing.
    We should hear all perspectives side by side, but that will 
not be the case today. Mr. Wehrum and Ms. King have denied us 
that opportunity by refusing to testify in the same panel. If 
EPA and NHTSA are so confident this rule is safer and better 
for our country, I think they would welcome the opportunity to 
testify alongside Ms. Nichols. Instead, when confronted by 
experts and science, the Trump administration recoils and 
retreats, instead of defending their so-called SAFE vehicles 
rule, a disaster for our country. That is why we need to pass 
my bill, H.R. 978, the Clean and Efficient Cars Act, which 
reverses the Trump administration's attacks on forward-looking 
fuel efficiency and emissions standards, restoring Obama-era 
rules that protect consumers, the environment, and our public 
health.
    I am pleased to enjoy broad support on the Energy and 
Commerce Committee. With 24 Members supporting the measure, I 
am hopeful we can move this bill forward. We owe it to the 
people we serve to ask the tough questions and shine a light on 
this disastrous rule.
    It is my sincere hope that we get the answers about why the 
administration is putting our economy, health, and future at 
risk. And I yield back.
    Ms. Schakowsky. And I yield back my time.
    And the Chair now recognizes Mrs. Rodgers, ranking member 
of the Subcommittee on Consumer Protection and Commerce, for 5 
minutes for her opening statement.

      OPENING STATEMENT OF HON. CATHY McMORRIS RODGERS, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF WASHINGTON

    Mrs. Rodgers. Good morning, everyone. Good morning Madam 
Chair. I appreciate everyone being here today to discuss our 
Nation's fuel economy standards.
    In 1975, Congress established the Corporate Average Fuel 
Economy program, or the CAFE program, to be administered by 
National Highway Traffic Safety Administration, NHTSA. The goal 
of this program was to improve fuel economy, our vehicle fuel 
economy, reduce oil consumption, and secure the Nation's energy 
independence. At the time, Congress made clear that fuel 
economy should be regulated solely at the Federal level to 
achieve uniformity and to avoid a patchwork of different State 
laws regulating the same issue differently. Unfortunately, 
several forces have created an opposite effect--multiple 
conflicting programs undercutting the goals of the original 
program.
    When Congress established the CAFE program, the 
Environmental Protection Agency began regulating greenhouse gas 
emissions from new motor vehicles. On top of NHTSA and EPA 
programs, California has set a separate tailpipe emissions 
limits and a zero-emission vehicle mandate, both of which 
impact fuel economy, the auto industry, and consumers. Nine 
other States have followed California to include a zero-
emissions vehicle mandate. These mandates require automakers to 
produce a certain number of these vehicles, regardless of 
consumer demand, new technology, or the free market.
    Ten years ago, to address the regulatory overload, the 
Obama administration announced a national fuel efficiency 
policy known as the One National Program. The One National 
Program was intended to establish a consistent national 
standard across NHTSA, EPA, and California. There were many 
assumptions made by the Federal Government, the States, and the 
industry 10 years ago that were set to be revisited during the 
midterm review process.
    The assumptions they made haven't held up the test of time; 
assumptions like gas prices rising to $3, $4, and $5 per 
gallon, people buying more cars than trucks, and that electric 
vehicles would become more popular. Well, here is the reality 
today: Gas prices have stabilized, people want larger vehicles, 
and dealers are still having trouble selling hybrid vehicles. 
In my district, 83 percent of the vehicles sold in 2018 were 
crossovers, SUVs, trucks, and vans. My constituents are 
choosing internal combustion engines; 99 percent of the 
registered vehicles in eastern Washington are gas- or diesel-
powered. This is when they have more hybrid and electric 
options than ever before.
    On top of that, just days before President Trump's 
inauguration, the Obama EPA issued its final determination--
days before the inauguration, and that was for 2022 to 2025--
without consulting NHTSA, despite that being a requirement 
under the One National Program.
    So here we are, 10 years later. There is no uniformity. And 
rather than invest in R&D and consumer education, the car 
industry is paying massive fines or trying to figure out how to 
avoid them. There must be a new and better way forward.
    I am encouraged to see NHTSA and EPA working together for a 
true national standard that looks at the facts and the 
decisions people make when they buy a new car. The uncertainty 
in this space is hurting the market, threatening jobs and 
affordable prices for workers and families. The agencies expect 
the SAFE vehicles rule to save up to a thousand lives annually, 
create $2,300 in savings for people when they buy a new car, 
and create $500 billion in cost savings for the U.S. economy.
    In eastern Washington, the average vehicle on the road is 
15 years old, almost 4 years above the national average. By 
reducing the average cost of new vehicles, people who currently 
stay in their older, less-safe vehicles will be able to afford 
newer vehicles with technological advancements that save lives. 
I would like one myself. For their sake, I look forward to the 
productive conversation this morning about the current 
situation and what the path looks like forward so that we will 
have safer roads, newer vehicles, a cleaner environment, and 
more jobs.
    So thank you also to our second panel, and particularly for 
the witnesses who traveled to join us today for this important 
discussion.
    And I yield back.
    [The prepared statement of Mrs. Rodgers follows:]

           Prepared Statement of Hon. Cathy McMorris Rodgers

    Good morning and welcome to today's joint subcommittee 
hearing to discuss fuel economy standards.
    In 1975, Congress established the Corporate Average Fuel 
Economy program, or the CAFE program, to be administered by the 
National Highway Traffic Safety Administration. The goal of 
this program was to improve vehicle fuel economy, reduce oil 
consumption, and secure the Nation's energy independence.
    At the time, Congress made clear that fuel economy should 
be regulated solely at the Federal level to achieve uniformity 
and to avoid a patchwork of different State laws regulating the 
same issue differently.
    Unfortunately, several forces have created the opposite 
effect: multiple conflicting programs undercutting the goals of 
the original program. When Congress established the CAFE 
program, the Environmental Protection Agency began regulating 
greenhouse gas emissions from new motor vehicles.
    On top of the NHTSA and EPA programs, California has set 
separate tailpipe emissions limits and a zero-emission vehicle 
mandate . . . both of which impact fuel economy, the auto 
industry, and consumers.
    Nine other States have followed California to include a 
zero-emissions vehicle mandate.
    These mandates require automakers to produce a certain 
number of these vehicles regardless of consumer demand, new 
technology, or the free market.
    Ten years ago, to address the regulatory overload, the 
Obama administration announced a national fuel efficiency 
policy known as the One National Program.
    The One National Program was intended to establish a 
consistent national standard across NHTSA, EPA, and California.
    There were many assumptions made by the Federal Government, 
the States, and industry 10 years ago that were set to be 
revisited during the Midterm Review process.
    The assumptions they made haven't held up to the test of 
time . . . assumptions like gas prices rising to 3 . . . 4 . . 
. 5 dollars per gallon . . . people buying more cars than 
trucks . . . and electric vehicles becoming more popular. Well, 
here's the reality today. Gas prices stabilized. People want 
larger vehicles. And dealers are still having trouble selling 
hybrid vehicles.
    In my district, 83% of vehicles sold in 2018 were 
crossovers, SUVs, trucks, and vans.
    My constituents are choosing internal combustion engines--
99 percent of registered vehicles in Eastern Washington are gas 
or diesel powered. This is when they have more hybrid and 
electric options than ever before!
    On top of that, just days before President Trump's 
inauguration, the Obama EPA issued its final determination for 
2022 to 2025--without consulting NHTSA despite that being a 
requirement under the One National Program.
    So here we are, 10 years later. There's no uniformity . . . 
and rather than invest in R&D and consumer education, the car 
industry is paying massive fines or paying to avoid them. There 
must be a new and better path forward.
    I am encouraged to see NHTSA and EPA working together for a 
true national standard that looks at the facts and the 
decisions people make when they buy a new car.
    The uncertainty in this space is hurting the market, 
threatening jobs and affordable prices for workers and 
families.
    The agencies expect the SAFE Vehicles rule to save up to 
1,000 lives annually, create $2,340 in average savings for 
people when they buy a new car . . . and create $500 billion in 
cost savings for the U.S. economy.
    In Eastern Washington, the average vehicle on the road is 
over 15 years old, almost 4 years above the national average.
    By reducing the average cost of new vehicles, people who 
currently stay in their older, less safe vehicles will be able 
to afford newer vehicles with technological advancements that 
save lives.
    For their sake, I look forward to a productive conversation 
this morning about the current situation, and what the path 
forward looks like for safer roadways, newer vehicles, a 
cleaner environment, and more jobs.
    Thank you also to our second panel, particularly the 
witnesses who traveled to join us today for this important 
discussion.
    Thank you and I yield back.

    Ms. Schakowsky. The gentlewoman yields back, and the Chair 
now recognizes Mr. Tonko, who is the chair of the Subcommittee 
on Environment and Climate Change, for 5 minutes.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Madam Chair, and thank you for the 
opportunity to cohost this hearing, which is very important.
    Today we examine the Trump administration's proposal to 
freeze fuel economy standards at model year 2020 levels for 
years 2021 through 2026. This action would have lasting 
negative consequences for the American auto industry that needs 
certainty to compete and for consumers, who will pay more at 
the pump. This proposal will undermine American jobs throughout 
the auto supply chain. As we stand still, other nations will 
continue to race forward to develop the next generation of 
innovative vehicle technologies, ensuring that future 
investments will be made overseas, where markets for such 
products continue to grow.
    NHTSA's own analysis suggests thousands of United States 
jobs may be lost as a result of this rule. In fact, a large 
group of automakers has now registered opposition to this 
totally misguided proposal.
    While it is clear that this course of action will 
unnecessarily harm consumers and industry, it will also 
compromise our public health and the environment. EPA's 
tailpipe standards are the most important Federal climate 
policy currently on the books. This proposal takes us even 
farther backwards on climate and will increase oil consumption 
and U.S. CO<INF>2</INF> emissions significantly. Transportation 
is the largest contributor of domestic greenhouse gas 
emissions, and light-duty vehicles account for nearly 60 
percent of that sector's emissions.
    This proposed rollback ignores climate science and the 
evidence of the devastation already flooding and burning our 
communities. It is reckless climate denial of a kind we can no 
longer afford.
    These standards are not only important for climate action, 
they also reduce conventional air pollution. New York State 
adopted California's ZEV standards in the early 1990s, long 
before climate was the urgent priority we understand it to be 
today. This was done to improve poor air quality, which impacts 
disadvantaged communities first and foremost. States are 
investing hundreds of millions of dollars in incentives and 
infrastructure to achieve air pollution reduction targets, 
including important climate goals, and California standards are 
a critical part of that effort.
    Unfortunately, instead of upholding its mission of 
environmental protection, EPA seems eager to tie the hands of 
States that are working to deal with this pollution impact. 
Over and over we have heard this administration pay lip service 
to cooperative federalism. Apparently, that only applies to 
States pursuing deregulation. I was dismayed that the 
administration threatened to pull its participation in this 
hearing if seated on the same panel with their State partner. 
Like the rule itself, this behavior is bizarre.
    This administration has a responsibility to recognize 
California as a partner and coregulator in this process. I am 
pleased that we have Mary Nichols on the second panel, and we 
are grateful to have her here, and very interested in hearing 
her perspective on this issue.
    This EPA may not want California to be able to set its own 
standards, but if they do, not like the current process, they 
need to submit a proposal to Congress to amend the Clean Air 
Act because, on this matter, the law is clear: California has 
the right to seek waivers; EPA is required to err on the side 
of granting them; and 177 States are entitled to adopt 
California's standards.
    I would also remind everyone that we did, in fact, have a 
single national standard before the administration manufactured 
this crisis. Today we will have many questions on the 
development of this rule and its likely outcome, should it move 
forward.
    But the overreaching question to our administration 
witnesses needs to be this: What exactly are you hoping to 
accomplish? At best, it isn't clear, and a reasonable observer 
would be forgiven for seeing an administration so blinded by 
contempt for its predecessors and so willing to hurt consumers 
to support oil companies at any cost that it would defy science 
and common sense to move forward with the proposal with near 
universal condemnation from stakeholders.
    The administration's proposal is certainly destined for 
legal challenges, but my greater fear is that American 
consumers, businesses, and the environment will ultimately 
suffer the greatest consequences of the uncertainty caused by 
this reckless rule.
    [The prepared statement of Mr. Tonko follows:]

                 Prepared Statement of Hon. Paul Tonko

    Thank you, Madam Chair. Today we examine the Trump 
administration's proposal to freeze fuel economy standards at 
Model Year 2020 levels for years 2021 through 2026. This action 
would have lasting negative consequences for the American auto 
industry that needs certainty to compete and for consumers who 
will pay more at the pump.
    This proposal will undermine American jobs throughout the 
auto supply chain. As we stand still, other nations will 
continue to race forward to develop the next generation of 
innovative vehicle technologies, ensuring that future 
investments will be made overseas where markets for such 
products continue to grow.
    NHTSA's own analysis suggests thousands of U.S. jobs may be 
lost as a result of this rule. In fact, a large group of 
automakers has now registered opposition to this misguided 
proposal.
    While it is clear that this course of action will 
unnecessarily harm consumers and industry, it will also 
compromise our public health and the environment. EPA's 
tailpipe standards are the most important Federal climate 
policy currently on the books. This proposal takes us even 
farther backwards on climate and will increase oil consumption 
and U.S. CO<INF>2</INF> emissions significantly.
    Transportation is the largest contributor of domestic 
greenhouse gas emissions, and light-duty vehicles account for 
nearly 60% of that sector's emissions.
    This proposed rollback ignores climate science and the 
evidence of the devastation already flooding and burning our 
communities. It is reckless climate denial of a kind we can no 
longer afford.
    These standards are not only important for climate action. 
They also reduce conventional air pollution. New York State 
adopted California's ZEV standard in the early 1990s, long 
before climate was the urgent priority it is today. This was 
done to improve poor air quality, which impacts disadvantaged 
communities first and foremost.
    States are investing hundreds of millions of dollars in 
incentives and infrastructure to achieve air pollution 
reduction targets, including important climate goals, and 
California's standards are a critical part of that effort. 
Unfortunately, instead of upholding its mission of 
environmental protection, EPA seems eager to tie the hands of 
States that are working to deal with this pollution impact.
    Over and over we have heard this administration pay lip 
service to cooperative federalism; apparently that only applies 
to States pursuing deregulation.
    I was dismayed that the administration threatened to pull 
its participation in this hearing if seated on the same panel 
with their State partner. Like the rule itself, this behavior 
is bizarre. The administration has a responsibility to 
recognize California as a partner and coregulator in this 
process.
    This EPA may not want California to be able to set its own 
standards. But if they do not like the current process, they 
need to submit a proposal to Congress to amend the Clean Air 
Act. Because on this matter, the law is clear. California has 
the right to seek waivers, EPA is required to err on the side 
of granting them, and 177 States are entitled to adopt 
California's standards.
    I would also remind everyone that we did, in fact, have a 
single national standard before the administration manufactured 
this crisis.
    Today we will have many questions on the development of 
this rule, and its likely outcomes should it move forward. But 
the overarching question to our administration witnesses needs 
to be this: ``What exactly are you hoping to accomplish?''
    At best it isn't clear. And a reasonable observer would be 
forgiven for seeing an administration so blinded by contempt 
for its predecessors and so willing to hurt consumers to 
support oil companies at any cost that it would defy science 
and common sense to move forward with a proposal with near 
universal condemnation from stakeholders.
    The administration's proposal is certainly destined for 
legal challenges, but my greater fear is that American 
consumers, businesses, and the environment will ultimately 
suffer the greatest consequences of the uncertainty caused by 
this reckless rule.
    With that, I yield my remaining time to Mrs. Dingell.

    Mr. Tonko. With that, Madam Chair, I yield my remaining 
time to Representative Dingell.
    Mrs. Dingell. Thank you, Chairman Tonko.
    This hearing today is one of the most important hearings of 
my congressional career. The health and future of the auto 
industry matters to everybody in this country. Yet the industry 
is more fragile than ever right now, and policymakers cannot 
take its health for granted.
    It is also critical for the future of this planet that we 
have continued reductions in greenhouse gas emissions and 
improvement in fuel economy, which is why I believe we need all 
parties to come to the table and cut a deal on standards that 
increase year over year and balance the twin goals of 
environmental protection and affordability.
    And by the way, we shouldn't just be setting standards 
through 2025. We should be going to 2030 to provide greater 
certainty and demonstrate global leadership in this critical 
environmental issue.
    I am out of time, but I want to say this: We need 
California at the table. We need One National Program, one set 
of standards, and I do not believe this administration is 
dealing in good faith in doing that.
    I want to put into the record, Madam Chair, a copy of the 
letters that the industry is saying that we need to have one 
set of standards.
    [The information appears at the conclusion of the hearing.]
    And I know that when there is a will, there is a way, and I 
question the administration's sincerity in bringing everyone to 
the table and hope we can get there.
    Thank you.
    Ms. Schakowsky. The gentleman yields back all of his time.
    And now the Chair recognizes Mr. Shimkus, ranking 
Republican on the Subcommittee on Environment and Climate 
Change.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Madame Chairman. Let's all take 
some deep breaths.
    To my friends from California and New York, and I could be 
wrong, I thought it was the tradition and the protocol of this 
committee, going back to Chairman Dingell in his previous time, 
that executive branch witnesses would be on their own panel. So 
this fury over the CARB witness not being on this panel, I 
don't get it, unless we are going to throw out 40 years of how 
we operate on this committee.
    So I just think we all need to take a deep breath.
    I appreciate that we have called this hearing on this 
important subject, and it goes to the very heart of what we do 
in this committee, which is the Interstate Commerce Clause. We 
pride ourselves in going back to the Constitution and one of 
the few committees that goes back to the Founders. And what 
established the unity of this republic was the interstate 
commerce clause because we didn't want States going to war with 
States over taxation. That is why we are in this debate, and 
that is why we are in this room, and that is why we have such 
broad jurisdiction.
    So this debate about an automobile industry, I think, is 
pretty simple. We need to have one market. We want to have one 
standard, and we need to have that set at the Federal level. 
Now, if some States want to go off and do their own thing, I 
can appreciate their emotion and their desire, but for the 
unity of the republic, that is why we have Energy and Commerce 
Committee and that is why we have the Interstate Commerce 
Clause.
    We should not have a fractured marketplace driven by 
policies that cater to urban customers at the expense of 
customers and what they need in rural areas. I think my 
colleague from Washington State identified that most.
    In the automobile industry, we want to sell vehicles that 
people want to buy. And in rural America, we like big things. 
We like big trucks. We like big engines. We like to haul 
trailers, whether that is to go for recreational use or whether 
that is to haul horses, and feed, and hay, and all those things 
that have to happen in rural America.
    Finally, we should not have one State or region using 
official actions to exert market power in a way that 
reverberates outside of their own State lines.
    I think we should have CAFE economy standards that make 
sense and have the Supreme Court's mandated Clean Air Act's 
greenhouse gas efforts be reasonable. They should be informed 
by science and not be proxies for one another when it is policy 
convenient from a practical standpoint but not so much from a 
legal one. We must be clear-eyed about the impacts on all 
Americans of a policy, because that is what Article I of the 
Constitution requires us to do.
    I tried to do this in the last Congress. I went to the 
automobile industry and I said, ``How do we marry the best 
engine technology with the best fuel mix?'' And they came and 
they said, ``We need high compression engines, which means 
higher octane.'' And we went into numerous negotiations. Now, 
that wasn't driven by a State agency or a Federal agency 
saying, ``You have to do this.'' This was driven by those 
people in the marketplace trying to provide a product that 
consumers would buy. And actually we moved to a point where we 
had a hearing on that bill before the end of last Congress.
    Before I yield back my time, I want to join my colleagues 
in welcoming our witnesses, particularly Heidi King, to the 
committee. I look forward--Heidi served on the staff here and 
did terrific work for the committee. Welcome back.
    I look forward to hearing from all of our witnesses here 
today, and I hope that we will have constructive dialogues with 
one another that avoid political rhetoric and focus on policies 
that protect consumers, workers, and the environment.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared Statement of Hon. John Shimkus

    Thank you, Mr. Chairman, for the recognition for this 
opening statement.
    I appreciate that you have called this hearing on this 
important subject. For all the bluster generated today about 
who's right and who's not, who cares and who doesn't, this 
issue goes to the very heart of who we are as a committee and 
where we obtain our constitutional pedigree: the interstate 
commerce clause and the ability to have a regular marketplace 
across 50 States.
    We should not have a fractured marketplace driven by 
policies that cater to urban customers at the expense of 
customer need in rural areas. We also should not have policies 
that force consumers to pay more for the vehicles they NEED to 
offset the expense of high-priced vehicles others would LIKE--
and get tax credits to drive. Finally, we should not have one 
State or a region using official actions to assert market power 
in a way that reverberates well outside the borders of that 
State.
    I think we should have Corporate Average Fuel Economy 
standards that make sense and have the Supreme Court's mandated 
Clean Air Act's Greenhouse gas efforts be reasonable. They 
should be informed by science and not be proxies for one 
another when it is policy convenient from a practicality 
standpoint, but not so much from a legal one. We must be clear 
eyed about the impacts on all Americans of the policy we pass 
because that's what Article I of the constitution requires we 
do.
    I, for one, have been a believer that the best way to lift 
fuel economy across the board without State mandates is by 
setting a fuel octane standard for gasoline. Last Congress, the 
Environment Subcommittee learned that the internal combustion 
engine will dominate the market for at least another three 
decades. But a significant flaw in connecting our Nation's 
liquid fuels policy with our Nation's fuel efficiency standards 
is that standards for Corporate Average Fuel Economy and 
Greenhouse Gases and the Renewable Fuel Standard have never 
been fully coordinated with one another, the Renewable Fuel 
Standard doesn't necessarily give us the liquid fuel 
formulations that maximize energy efficiency, and Corporate 
Average Fuel Economy and Greenhouse Gas requirements don't 
necessarily result in the kinds of engines that make the best 
use of biofuel blends.
    High octane fuels can improve fuel economy in engines 
optimized for them. For automakers, it is a relatively low-cost 
tool to increase miles per gallon. And because ethanol is the 
cheapest source of octane currently available, it also may be a 
pathway to use at least as much if not more ethanol than under 
the Renewable Fuel Standard.
    We need to get the smart folks in both the car and fuel 
sectors together to have vehicle engines designed to squeeze 
out efficiencies and affordable fuels that can help them do 
that. Fortunately, there is research underway to better 
coordinate these two programs in a way that could benefit 
everyone from corn growers and biofuels producers, refiners, 
automakers, and most important of all, American consumers.
    Before I yield back my time, I want to join my colleagues 
in welcoming our witnesses, particularly Heidi King, to the 
committee. Heidi served on the staff here and did terrific work 
for our committee. I look forward to hearing from all our 
witnesses today, and I hope that we all will have constructive 
dialogues with one another that avoid political rhetoric and 
focus on policies that protect consumers, workers and the 
environment.

    Mr. Shimkus. And with that, Madam Chairman, I am going to 
yield back 17 seconds of my time.
    Ms. Schakowsky. Thank you.
    The Chair now recognizes Mr. Pallone, the chair of the full 
committee, for 5 minutes for his opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chair. It is fitting that the 
committee's first joint hearing of this Congress is being held 
by the subcommittees on Consumer Protection and Commerce and 
Environment and Climate Change, since we are here to examine 
one of this administration's most egregious assaults on 
American consumers, the U.S. economy, and the climate.
    Now let me just say you know I love John Shimkus, but when 
I heard him complain about the fact that we were trying to put 
a State representative on a Federal panel, I would just remind 
him of a hearing that was held on the Flint Water Crisis on 
April 13, 2016, was a joint hearing with the Environment and 
the Economy Subcommittee, which he chaired at the time, and the 
Health Subcommittee, and the first panel consisted of two 
witnesses from the United States Environmental Protection 
Agency, a witness from the U.S. Department of Health, and then 
the Director of the Michigan Department of Environmental 
Quality and the Director of the Michigan Department of Health 
and Human Services. So I don't know why----
    Mr. Shimkus. Would the gentleman yield just to set the 
record straight?
    Mr. Pallone. No, because I am just having fun with you.
    Mr. Shimkus. Well, the point was, we agreed to that.
    Mr. Pallone. I understand. I am just having fun.
    Mr. Shimkus. It was career witness. He wasn't a political 
appointee. He was a career witness.
    Mr. Pallone. Well, I can't help myself. Sorry.
    All right, the Unified Fuel Economy and Tailpipe Emission 
Standards adopted during the Obama administration were the 
result of unprecedented collaboration between EPA, NHTSA, and 
the State of California. The Clean Car Standards included 
ambitious increases in fuel efficiency and ambitious reductions 
in greenhouse gas emissions for cars and light trucks. This was 
an across-the-board win benefitting consumers, manufacturing, 
and the environment. They were our single most important action 
taken to combat climate change and a key part of our commitment 
to the Paris Agreement.
    So naturally, the Trump administration is trying to gut 
those standards as part of this reckless anticlimate agenda. 
And this harmful proposal comes from the same administration 
that insists the Government should not be in the business of 
picking winners and losers but this is exactly what this 
rollback does. It picks one winner, the oil industry, while 
everyone else loses. And that is why yesterday my committee 
launched an investigation into a secret social media campaign 
run by the oil industry that misled the American people about 
this rollback. And we intend to uncover whether the oil 
industry coordinated with the administration on this deceptive 
campaign.
    After a while, the oil industry will win. American 
consumers will lose in the form of less-efficient vehicles. 
Ultimately, their proposal would increase drivers' spending at 
the pump because cars would no longer be required to go further 
on a gallon of gasoline. And as fuel economy standards go down, 
costs to consumers go up.
    American manufacturing will also lose, especially 
automakers, parts suppliers, and workers, as the Trump 
administration cedes America's competitive edge to other 
countries that will develop and build the technologies of the 
future. And that is why just 2 weeks ago, 17 automakers called 
on the Trump administration to abandon its deeply flawed 
proposed rule and return to the negotiating table. According to 
the administration's own analysis, rolling back those standards 
would directly eliminate at least 60,000 jobs, and that is just 
a fraction of the half-million jobs that could be lost 
throughout the automotive supply chain.
    And public health and the environment will also lose. The 
administration readily admits the rule will lead to increased 
particle pollution and smog-forming sulfur dioxide. The 
proposal would revoke California's longstanding ability to set 
more protective vehicle standards, as well as other States' and 
Territories' ability to adopt those standards.
    My home State of New Jersey is one of 13 States, plus the 
District of Columbia, that follow California's lead to improve 
air quality, meet Clean Air standards, and improve the health 
of our communities. And the Trump administration, if it gets 
its way, will undermine those public health protections.
    The driving public will also lose. Independent experts and 
career professionals within the EPA have found that the Clean 
Car rollback will actually make our roads less safe, causing 
more deaths, and at the end of the day we will all lose because 
this rule would increase carbon pollution by more than 7 
billion metric tons.
    If my Republican colleagues are as serious about addressing 
climate change as they say--they now say they are--they should 
oppose this disastrous proposal.
    So I just wanted to--I know that--I think one of my 
colleagues wanted some time. Well, I guess that is not true. 
All right, I will finish.
    So the existing Clean Car Standards were a victory for 
consumers, manufacturers, and the environment. They created a 
single national program for getting more fuel-efficient cars on 
the road, providing the American auto industry with regulatory 
certainty, and spurred innovation.
    I just wanted to, unfortunately, say that throughout this 
entire process, EPA and NHTSA have made it clear that 
collaboration and transparency are not priorities, and as 
Administrator Wheeler testified before this committee in April, 
the only offer the Trump administration made to California was 
this proposed as-is, which would gut the existing standards, 
and the administration still walked away from the table. That 
is more of a holdup than a negotiation. The administration 
should come back to the negotiating table and work on 
establishing a meaningful, unified, Clean Car program. And I 
really hope that that is what comes out of this, that we see 
the administration come back to the table and renegotiate.
    [The prepared statement of Mr. Pallone follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    It's fitting that the committee's first joint hearing of 
this Congress is being held by the subcommittees on Consumer 
Protection and Commerce and Environment and Climate Change, 
since we're here to examine one of this administration's most 
egregious assaults on American consumers, the U.S. economy, and 
the climate.
    The unified fuel economy and tailpipe emissions standards 
adopted during the Obama administration were the result of 
unprecedented collaboration between EPA, NHTSA, and the State 
of California. The Clean Car Standards included ambitious 
increases in fuel efficiency and ambitious reductions in 
greenhouse gas emissions for cars and light trucks. This was an 
across the board win--benefitting consumers, manufacturing, and 
the environment. They were our single most important action 
taken to combat climate change, and a key part of our 
commitment to the Paris Agreement. So, naturally, the Trump 
administration is trying to gut those standards as part of its 
reckless anticlimate agenda.
    This harmful proposal comes from the same administration 
that insists the Government should not be in the business of 
picking winners and losers. But that is exactly what this 
rollback does. It picks one winner--the oil industry--while 
everyone else loses. That's why yesterday, my committee 
launched an investigation into a secret social media campaign 
run by the oil industry that misled the American people about 
this rollback. We intend to uncover whether the oil industry 
coordinated with the administration on this deceptive campaign.
    After all, while the oil industry will win, American 
consumers will lose, in the form of less-efficient vehicles. 
Ultimately the proposal would increase drivers' spending at the 
pump because cars would no longer be required to go further on 
a gallon of gasoline. As fuel economy standards go down, costs 
to consumers go up.
    American manufacturing will also lose--especially 
automakers, parts suppliers, and workers--as the Trump 
administration cedes America's competitive edge to other 
countries that will develop and build the technologies of the 
future. That's why just 2 weeks ago, 17 automakers called on 
the Trump administration to abandon its deeply flawed proposed 
rule and return to the negotiating table. According to the 
administration's own analysis, rolling back these standards 
would directly eliminate at least 60,000 jobs. And that's just 
a fraction of the half-million jobs that could be lost 
throughout the automotive supply chain.
    Public health and the environment will also lose. The 
administration readily admits the rule will lead to increased 
particle pollution and smog-forming sulfur dioxide. The 
proposal would revoke California's longstanding ability to set 
more protective vehicle standards, as well as other States' and 
territories' ability to adopt those standards. My home State of 
New Jersey is one of 13 States, plus the District of Columbia, 
that follow California's lead to improve air quality, meet 
clean air standards, and improve the health of our communities. 
The Trump administration, if it gets its way, would undermine 
those public health protections.
    The driving public will also lose. Independent experts and 
career professionals within the EPA have found that the Clean 
Car rollback will actually make our roads less safe, causing 
more deaths.
    And at the end of the day, we all lose, because this rule 
would increase carbon pollution by more than 7 billion metric 
tons. If my Republican colleagues are as serious about 
addressing climate change as they now say, they should oppose 
this disastrous proposal.
    The existing Clean Car Standards were a victory for 
consumers, manufacturers, and the environment. They created a 
single, national program for getting more fuel-efficient cars 
on the road, provided the American auto industry with 
regulatory certainty, and spurred innovation.
    The Trump administration rollback would abandon that 
historic agreement in favor of unmitigated chaos for the 
American automotive sector. It achieves nothing but 
destabilization of the industry and stifling of innovation. And 
it poses an existential threat to our climate and to the health 
and well-being of all Americans. All to benefit the bottom line 
of the oil industry.
    Before I yield, I'd like to take a moment to welcome Mary 
Nichols, chair of the California Air Resources Board (CARB). 
Her leadership has been instrumental in the fight against 
climate change and reducing air pollution across the country. 
Thank you for traveling from California to testify today. We 
look forward to hearing your perspective.
    I believe Ms. Nichols should be at the table alongside Ms. 
King and Mr. Wehrum, to give us the full picture of the 
proposed rule and have a robust discussion in front of this 
committee. But the Trump administration refused to appear today 
if EPA, NHTSA, and CARB testified on the same panel. Think 
about that. This administration literally refused to sit at the 
same table as California.
    Unfortunately, throughout this entire process, EPA and 
NHTSA have made it clear that collaboration and transparency 
are not priorities. As Administrator Wheeler testified before 
this committee in April, the only offer the Trump 
administration made to California was its proposed rule as-is, 
which would gut the existing standards. And the administration 
still walked away from the table. That is more of a hold-up 
than a negotiation. The administration should come back to the 
negotiating table and work on establishing a meaningful unified 
Clean Car program.
    Thank you, I yield back.

    Mr. Pallone. And with that, I yield back, Madam Chair.
    Ms. Schakowsky. The gentleman yields back, and now I am 
happy to recognize Mr. Walden, the ranking member of the full 
committee, for 5 minutes for his opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Good morning, Madam Chairman, and welcome to 
our witnesses and to folks in the audience as well.
    Having chaired the committee the prior 2 years and in 
talking with Chairman Upton, who was there the prior 6 years, 
it was the policy of the committee when administration--of both 
parties--that the appointees, such as we have today, were on 
their own panel, and I don't know why that is a big issue 
today. It has been the protocol and process of the committee in 
the past and probably will be going forward.
    So we are just glad you are here, and hopefully we can get 
all that nonsense behind us and get to the real topic, because 
we need to explore the regulation of fuel economy with the 
National Highway Traffic Safety Administration, the EPA, and 
stakeholders.
    This hearing touches on a prominent point of frustration 
for a lot of American consumers, and that is ineffective 
duplicative Government programs that increase costs and 
decrease their choices. Layered on top of consumer concerns is 
an unnecessarily complicated regulatory scheme disguised, until 
recently, as One National Program. What we are talking about 
are the differing fuel economy programs administered by NHTSA, 
the EPA, and California. That seems to be three.
    As I said last week, it is a mistake to assume that a clean 
environment or safety and efficiency are incompatible with 
economic growth and job creation. We can have both. We have 
proven that time and again. However, to succeed, we need 
commonsense regulations that protect the public without 
suffocating innovation or failing to consider the practical 
impact on American consumers and taxpayers. Consumer interests 
are best served by ensuring our automakers have the freedom to 
design, manufacture, and deliver products with the features 
consumers want and can afford, and which are safe and reliable.
    So I expect today we will hear about the various goals of 
the different programs, including the unique circumstances of 
certain States, but I would encourage all of us to refocus on 
the underlying statutory authority for the National Fuel 
Economy Program and the facts about the marketplace today.
    One fact that I have said time and again is that climate 
change is real but we need to be focused on innovative and 
achievable solutions that protect the public, support the 
economy and jobs, and don't take choices away from American 
consumers.
    So I look forward to hearing from Attorney General Landry 
and others on the panel about impact of existing conflicting 
programs on States outside of California and how costs have 
been driven up for consumers in those States. In fact, I was 
telling my colleagues yesterday, over the weekend I attended my 
niece's graduation from Cal Poly and paid $3.95 for a gallon of 
gasoline. So for those on the other side worried about the cost 
of gas, I was in California paying that, and that seemed to be 
about the highest I have ever paid.
    While we approach some of these issues from various 
perspectives, and you are going to hear that today, I believe 
it is important that regulations for achievable and affordable 
solutions that are commonsense, constitutionally permissible, 
and work for everyday Americans.
    Now, in my district, more than 66 percent of registered 
vehicles are crossover SUVs, pickups, and vans. Less than 
three-tenths of a percent of vehicles in my district are 
electric or plug-in hybrid, and less than 2 percent are 
hybrids, including one that I own. That means more than 98 
percent of the vehicles registered in my district are gas- or 
diesel-powered. We need to be sure to keep in mind the needs of 
our consumers for those types of vehicles in a rural area.
    It is also important to understand how we got here. So in 
the 1970s, Congress delegated authority to NHTSA for regulating 
fuel economy with clear statutory requirements in law. The 
Obama-era EPA decided to get involved and develop their own 
standards over at the EPA, while also granting California a 
waiver under the Clean Air Act to allow a third regulator in 
this space. In 2009, the Obama administration announced this 
regulatory bottleneck as the One National Program, but 
unfortunately the One National Program has not resulted in a 
single national standard, and today we are left with a system 
that does not work for the regulated industry and is based on 
assumptions we know are faulty.
    So, believe it or not, under this scheme, it is possible 
for automakers to be in full compliance with one Federal 
regulatory standard but be subject to massive penalties under 
another. This is an example of bureaucracy at its worst, and we 
need to fix it. Government should be working for the people, 
not creating regulations that increase costs and decrease 
choices for consumers and create a compliance catch-22.
    Per the commitments made by the Obama administration, NHTSA 
and EPA were supposed to jointly issue respective 
determinations on standards for model years 2022 through 2025 
in the spring of 2018. However, the Obama EPA abandoned its 
commitment, rushed through its final determination without 
coordinating with NHTSA or taking input from stakeholders in a 
meaningful way just 7 days--7 days before the Trump 
administration was sworn into office.
    To the Trump administration's credit, they are refocusing 
on the pre-2016 election commitments made under the prior 
administration, setting one national standard. And last August, 
NHTSA and EPA jointly issued a notice of proposed rulemaking 
for the Safer Affordable Fuel Efficiency Vehicle Rule, or SAFE 
Rule, which seeks to unify and amend the Federal standards for 
model years 2021 through 2026.
    So today we are going to learn more about it.
    Madam Chair, thanks for having this hearing, and I yield 
back.
    [The prepared statement of Mr. Walden follows:]

                 Prepared Statement of Hon. Greg Walden

    Today we will explore the regulation of fuel economy with 
the National Highway Traffic Safety Administration, the 
Environmental Protection Agency, and a number of stakeholders.
    This hearing touches on a prominent point of frustration 
for American consumers: ineffective, duplicative Government 
programs that increase costs and decrease their choices. 
Layered on top of consumers concerns is an unnecessarily 
complicated regulatory scheme, disguised until recently as One 
National Program. We are talking about the differing fuel 
economy programs administered by NHTSA, the EPA, and 
California.
    As I said last week: It is a mistake to assume that a clean 
environment, or safety and efficiency, are incompatible with 
economic growth and job creation. However, to succeed we need 
common sense regulations that protect the public without 
suffocating innovation or failing to consider the practical 
impact on American consumers and taxpayers.
    Consumer interests are best served by ensuring our 
automakers have the freedom to design, manufacture, and deliver 
products with the features consumers want and can afford, and 
which are safe and reliable.
    I expect today we will hear about the various goals of the 
different programs, including the unique circumstances of 
certain States, but I would encourage all of us to refocus on 
the underlying statutory authority for the national fuel 
economy program and the facts about the marketplace today. One 
fact that I have said time and again is that climate change is 
real. But we need to be focused on innovative and achievable 
solutions that protect the public, support the economy and 
jobs, and don't take choices away from American consumers.
    I look forward to hearing from Attorney General Landry and 
others on the panel about the impact of the existing 
conflicting programs on States outside of California, and how 
costs have been driven up for consumers in those States. While 
we approach some of these issues from various perspectives, I 
believe it is important to have regulations for achievable and 
affordable solutions that are commonsense, constitutionally 
permissible, and that work for everyday Americans.
    In my district, more than 66 percent of registered vehicles 
are crossovers, SUVs, pickups, and vans. Less than 0.3 percent 
of vehicles in my district are electric or plug-in hybrid. Less 
than 2 percent are hybrids. That means more than 98 percent of 
vehicles registered in my district are gas or diesel powered. 
We need to be sure we are keeping the consumer in mind.
    It is also important to understand how we got here. In the 
1970s, Congress delegated authority to NHTSA for regulating 
fuel economy with clear statutory requirements. But, the Obama-
era EPA decided to get involved and developed their own 
standards, while also granting California a waiver under the 
Clean Air Act to allow a third regulator in this space.
    In 2009, the Obama administration announced this regulatory 
bottleneck as the ``One National Program.'' Unfortunately, the 
One National Program has not resulted in a single national 
standard, and today we are left with a system that does not 
work for the regulated industry and is based on assumptions 
that we now know are faulty.
    Believe it or not, under the current scheme it is possible 
for automakers to be in full compliance with one Federal 
regulatory standard but be subject to massive penalties under 
the other. This is an example of bureaucracy at its worst. 
Government should be working for the people. Not creating 
regulations that increase costs and decrease choices for 
consumers and create a compliance catch-22 for manufacturers.
    Per the commitments made by the Obama administration, NHTSA 
and EPA were supposed to jointly issue respective 
determinations on standards for model years 2022-2025 in the 
spring of 2018.
    However, the Obama EPA abandoned its commitment and rushed 
through its final determination--without coordinating with 
NHTSA or taking input from stakeholders in a meaningful way--
just 7 days before President Trump was sworn into office.
    To the Trump administration's credit, they are refocusing 
on the pre-2016 election commitments made under the prior 
administration--setting one national standard. Last August, 
NHTSA and EPA jointly issued a notice of proposed rulemaking 
for the Safer Affordable Fuel-Efficient Vehicles Rule, or the 
SAFE Vehicles Rule, which seek to unify and amend the Federal 
standards for model years 2021 through 2026.
    Duplicative and conflicting Federal programs do nothing to 
help the American people. As policymakers, it is our job to 
ensure that our laws and the implementation of them advance 
public policy goals that benefit Americans.
    I would like to thank all of our witnesses for joining us 
today and I yield back.

    Ms. Schakowsky. The gentleman yields back, and the Chair 
would like to remind Members that, pursuant to committee rules, 
all Members' written opening statements shall be made part of 
the record.
    And now I would like to introduce our first panel of 
witnesses for today's hearing and thank them very much for 
coming. Heidi King is the Deputy Administrator of the National 
Highway Traffic Safety Administration, and Mr. William Wehrum, 
Assistant Administrator for the Environmental Protection 
Agency's Office of Air and Radiation.
    I think you are probably both familiar with the lights in 
front of you. You know that they will turn yellow, from green 
to yellow, when there is 1 minute. So I hope you will begin to 
wrap up as close as you can to the red light after 5 minutes.
    And so first, I would like to welcome the opening statement 
for Ms. King, and you are recognized for 5 minutes.

   STATEMENTS OF HEIDI KING, DEPUTY ADMINISTRATOR, NATIONAL 
     HIGHWAY TRAFFIC SAFETY ADMINISTRATION, DEPARTMENT OF 
TRANSPORTATION, AND WILLIAM L. WEHRUM, ASSISTANT ADMINISTRATOR, 
  OFFICE OF AIR AND RADIATION, ENVIRONMENTAL PROTECTION AGENCY

                    STATEMENT OF HEIDI KING

    Ms. King. Thank you very much, Chairwoman Schakowsky, 
Chairman Tonko, Ranking Member Rodgers, Ranking Member Shimkus, 
and all of the members of this very esteemed committee, which 
it was my honor--my great honor--to serve years ago.
    Last year, NHTSA and EPA together proposed the Safer 
Affordable Fuel Efficient Vehicles Rule--the SAFE vehicles 
rule, we will call it today--to establish new fuel economy and 
greenhouse gas standards for model years 2021 to 2026 passenger 
cars and light trucks sold to consumers. These standards are 
important because they determine what new passenger cars and 
light trucks will be available to carry our neighbors, our 
friends, consumers, families, to work and to school, to haul 
goods on our farms and ranches, to travel across this great 
country's mountains and its cities in good weather and in bad.
    This action responds to NHTSA's commitment in 2012 in the 
prior rulemaking to provide a totally fresh consideration of 
all relevant consideration of all relevant information and a 
fresh balancing of statutory factors given to us by Congress to 
determine the maximum feasible standards and to perform a 
midterm evaluation of the greenhouse gas standard for model 
years 2022 through 2025.
    That fresh consideration of relevant information has caused 
the agencies to find that many of the predictions made, many of 
the forecasts made years ago were incorrect. Current 
information suggest that the standards previously set for model 
year 2021 are unlikely to be maximum feasible and that the 
greenhouse gas standards previously set for 2021 are unlikely 
to be appropriate under the Clean Air Act. The agencies sought 
comment on a range, a very broad range, of potential standards 
for model years 2021 through 2026.
    Now, this hearing today is important. These rules can be 
complicated, and it is important to make sure that we all 
understand congressional direction and how the agencies are 
executing on that congressional direction. In the Energy Policy 
Conservation Act, EPCA, Congress directs NHTSA to determine the 
maximum feasible level of fuel economy standards for each model 
year considering four statutory factors: technological 
feasibility, economic practicability, the effect of other motor 
vehicle standards of the Government on fuel economy, and the 
need of the United States to conserve energy.
    NHTSA and EPA are working together to ensure that this 
important rule will rely on the best possible engineering and 
the best possible economic information, data, and science and 
that we review the comments thoroughly in order to assure that 
when we do produce a final rule, that final rule is reasonable, 
appropriate, transparent, and consistent with the law, given 
current facts and current conditions.
    I must assure that the SAFE vehicles rule will establish a 
maximum feasible standard and would not prevent any auto 
manufacturer from designing and building Next Generation highly 
fuel-efficient vehicles. That includes hydrogen fuel cell 
vehicles, battery electric vehicles, hybrids, plug-in hybrids, 
or anything that the market demands that is more fuel efficient 
than the maximum feasible standard in response to market 
demands. In fact, I personally, as someone who works in 
innovation, am very excited, we are all excited to witness the 
expansion of diverse designs and power trains, providing more 
choice for diverse consumers across the Nation.
    Now, we all know that newer cars are safer and cleaner than 
older cars. We also know that consumers can choose whether to 
keep their older cars or purchase newer, safer, cleaner cars. 
That is particularly relevant because there are more cars than 
there are adults in this Nation. There are more cars than there 
are licensed drivers.
    Standards that increase the price of a new car, therefore, 
can hinder safety by discouraging people from replacing their 
older car with a cleaner, safer, newer car. Today, we are 
facing an affordability crisis in the new car market. The 
average price of a new vehicle exceeds $37,000, and new vehicle 
prices have risen 29 percent in just the past decade, while 
median family income grew only 6 percent during that period. As 
fuel economy improves, the incremental gains to consumers 
diminish. That means that each additional fuel economy 
improvement becomes much more expensive, lower-cost 
technological improvements are deployed, and there is less gain 
to the consumer from saving fuel, but it is more expensive.
    So today, automakers are struggling to meet the existing 
standards. EPA's latest trends report showed that, despite 
record fuel economy gains, all but three of 13 major automakers 
failed to meet performance targets for 2017 model year.
    Newer cars are safer. Newer cars are cleaner than older 
cars. Consumers are more likely to driver newer, safer, cleaner 
cars if regulations don't increase the prices beyond consumers' 
means.
    Thank you for hosting this very important hearing. I look 
forward to your questions and to a very open dialogue today. 
Thank you.
    [The prepared statement of Ms. King follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Ms. Schakowsky. Thank you, Ms. King.
    Mr. Wehrum, you are recognized for 5 minutes.

                 STATEMENT OF WILLIAM L. WEHRUM

    Mr. Wehrum. Thank you very much. I appreciate the 
opportunity to be here this morning.
    Chairwoman Schakowsky, Chairman Tonko, Ranking Members 
Rodgers and Shimkus, members of both subcommittees, thanks for 
the opportunity to testify with Deputy Administrator King today 
on the proposed SAFE vehicles rule.
    This rule is the next generation of Corporate Average Fuel 
Economy and Light-Duty Vehicle Greenhouse Gas Emission 
standards. The proposal would revise the existing national 
automobile fuel economy and greenhouse gas emission standards 
to give the American people greater access to safer, more 
affordable vehicles by setting new 2021 to 2026 model year 
standards that must be achieved by each automaker for its car 
and light-duty truck fleet.
    Through this rulemaking, we are delivering on President 
Trump's promise to the American public that this administration 
would address and fix the current fuel economy and greenhouse 
gas emission standards. The proposal aims to strike the right 
regulatory balance, based on the most recent information, that 
will enable more Americans to afford newer, safer vehicles.
    It is important to note that the cost of new automobiles 
has risen to more than $35,000, which is out of reach for many 
American families. Current standards have contributed to these 
costs. Compared to the preferred alternative, our proposal 
estimates that keeping in place the standards finalized in 2012 
would add $2,800 to the cost of owning a new car and reduce 
billions in societal costs over the lifetime of vehicles 
through model year 2030.
    In the proposal, NHTSA and EPA sought comment on a wide 
range of regulatory options, including the preferred 
alternative that locks in model year 2020 standards through 
2026, providing much-needed relief from further costly 
increases. The agencies' preferred alternative reflects a 
balance of safety, economics, technology, fuel conservation, 
and pollution reduction.
    The joint proposal initiates a process to establish new 50-
State fuel economy and tailpipe carbon dioxide emission 
standards for passenger cars and light trucks covering model 
years 2021 through 2026. The proposal estimates that the 
preferred alternative will prevent thousands of on-road 
fatalities and injuries, as compared to the standards set forth 
in the 2012 final rule, as more people can afford safer new 
cars.
    EPA has worked with NHTSA throughout the rulemaking 
process. Deputy Administrator King and I and our technical 
teams have regular meetings and will continue to do until the 
rule is finalized. Given the importance of these regulations, 
both agencies are fully dedicated to getting the rule out as 
soon as possible.
    Again, I appreciate the opportunity to be here today. I 
look forward to any questions you may have on the proposal.
    [The prepared statement of Mr. Wehrum follows:]
    [GRAPHIC] [TIFF OMITTED] T0609.132
    
    [GRAPHIC] [TIFF OMITTED] T0609.133
    
    Ms. Schakowsky. All right, thank you.
    Now we have concluded the witness testimony and their 
opening statements for our first panel. We will now move to 
Member questions. Each Member will have 5 minutes to ask 
questions of our witnesses, and I will start by recognizing 
myself for 5 minutes.
    The key to good decisionmaking is good information, and I 
am concerned because the safety information supporting the 
Trump administration's flawed Clean Car rollback is based, I 
believe, on sham science and false assumptions. The result: a 
remarkable overstatement of safety benefits that cannot 
withstand public scrutiny.
    Before the proposed rule was released, EPA officials within 
the Office of Transportation and Air Quality transmitted a 
letter, a lengthy memo to the White House, calling portions of 
NHTSA's safety analysis, quote, ``clearly wrong,'' unquote, and 
quote, ``driving incorrect fatality estimates.'' EPA's analysis 
found that the new standards could actually increase automobile 
fatalities.
    And it appears to me that political appointees at the EPA 
and at the White House overrode the safety analysis of career 
EPA employees, who analyze this kind of data for a living.
    And so I wanted to ask you, Mr. Wehrum, do you agree with 
the EPA's Office of Transportation and Air Quality that the 
administration's Clean Car rollback could actually increase 
auto fatalities?
    Mr. Wehrum. Thank you, Chairwoman.
    Let's start by taking a step back. These are really 
complicated issues, and a lot of what we do is complex from a 
rulemaking standpoint, and this is particularly complex. It has 
to do a lot of inquiry into advanced technology, a lot of 
inquiry into things like consumer choice, predictions about 
gasoline prices, and it is doubly difficult for us to do this, 
with all due respect, because we are joined at the hip with our 
sister agency, NHTSA, here.
    Ms. Schakowsky. So----
    Mr. Wehrum. So, it is not surprising at all, Chairwoman, 
that on this range of complex issues, even among experts, there 
are disagreements as to, you know, the right approach.
    Ms. Schakowsky. I am asking you if you disagree with the 
EPA's own Office of Transportation and Air Quality, roughly 400 
employees solely dedicated to the development of pollution 
standards for our vehicles. So are you disagreeing with their 
conclusion?
    Mr. Wehrum. Chairwoman, with all due respect, they is us. I 
mean, that office is part of my office.
    Ms. Schakowsky. Yes, exactly. Exactly.
    Mr. Wehrum. And I can tell you that we have spent hours 
since I have been at U.S. EPA delving very, very deeply into 
these issues. And the great thing about the rulemaking process 
is--and something we encourage internally--is people should 
express their diverse opinions. That is what makes our rules 
good. That is what makes our rules strong and----
    Ms. Schakowsky. But at the end of the day, we have to----
    Mr. Wehrum [continuing]. We are only at a proposed rule 
process.
    Ms. Schakowsky. But at the end of the day, we have to come 
to a conclusion. And so I am asking you if this Office of 
Transportation and Air Quality said that aspects of the 
administration's safety model are indefensible and based on 
unrealistic assumptions.
    So, are you disagreeing with that?
    Mr. Wehrum. We are looking--Chairwoman, no final decisions 
have been made. We are looking at a wide range of issues. 
Hundreds and hundreds of issues go into how the CAFE model 
runs, how this analysis goes, and the safety issues that we are 
talking about here are one of many, many things that we 
continue to talk about.
    Let me give you an example. You know one important element 
that goes into the analysis is so-called rebound. You know when 
people buy new, more fuel-efficient cars, they drive them more. 
They like to drive their cars. They are more fuel-efficient. 
They are cheaper to run. They drive them more. That is well-
established in the science. But what scientists don't agree is 
how much more they drive them.
    And there is a body of science out there, and some of the 
scientists say a couple percent more, sometimes they say 40 or 
50 percent more. So how do we decide?
    Historically, my office has assumed 10 percent. NHTSA has 
assumed 20 percent. So we come to this rule with an immediate 
difference of opinion as to what the right number is, and it is 
a scientific inquiry. And that is one of many, many issues that 
we continue to deliberate, and we are working very hard to get 
it as right as we can get it so that, when we issue the final 
rule, it is defensible as it can be.
    Ms. Schakowsky. With all due respect, I would say that the 
information that is fed in has to be good if the information 
coming out is to be good. You have heard the old expression 
``garbage in, garbage out.''
    I yield back and recognize now the ranking member.
    Mrs. Rodgers. Thank you, Madam Chair.
    The midterm evaluation put in place by the Obama 
administration was intended for the agencies to evaluate the 
assumptions that were built into the model year 2022 through 
2025 standards and to adjust those standards, if necessary.
    Administrator King, can you please highlight which 
assumptions of the market behavior have proven to be incorrect, 
requiring you to adjust those projected standards, was the 
driving force behind your decision--was that your driving force 
behind your decision to start the SAFE Vehicles Rule rulemaking 
process?
    Ms. King. Thank you very much for that question. The 
factors that have changed are largely driven by markets, and 
they are out of the control of the regulating agencies. One of 
them is that there has been a change in the fuel position of 
the United States. There has been, I think as recently as 
November 2018, the United States was for a single week a net 
exporter. That has manifested a change in fuel prices.
    In our 2012 rulemaking together, EPA and NHTSA had 
forecasted that fuel prices would be $3.63 in 2017, when 
actually they were $2.16, 40 percent less than forecast. So, 
very, very important inputs to the modeling were 40 percent 
less than forecast in the 2012 rulemaking.
    Another, as we have referenced earlier, consumer 
preferences towards trucks. The two agencies together, doing 
very fine work and doing their best possible work predicting 
into the future, anticipated that truck purchases would go down 
year over year, and consumers would prefer to buy passenger 
vehicles. In fact, what we saw was the opposite. Again, we had 
forecast, the two agencies, in 2017 the agencies thought 64.6 
percent of new car purchases would be passenger automobiles. 
What actually occurred in 2017 was that only 52.5 percent, that 
is almost 20 percent lower, I think it is 18.5 percent lower 
than forecast.
    So very critical assumptions, what consumers will buy and 
fuel prices, how they will make those decisions and how they 
will drive, caused both agencies to recognize the importance of 
updating the analysis to make sure we are protecting American 
consumers going forward.
    Mrs. Rodgers. Thank you.
    Under the Obama administration, EPA and NHTSA agreed to 
jointly determine whether the fuel economy standards for model 
years 2022 through 2025 were appropriate, but then the Obama 
EPA decided to act on its own.
    Administrator King, can you please explain how this last-
minute move undermined the One National Program and why 
coordination and consistency across Federal programs is 
critical?
    Ms. King. Well, of course, the two agencies were to act 
together in the midterm evaluation. Although I was not employed 
by the administration at that time, the end of the Obama 
administration, there was only one agency that acted, and that 
was the Environmental Protection Agency.
    So when the new administration came in, the two agencies, 
together, decided to make sure that all relevant information 
could inform this very important decision, including the 
information available to NHTSA. So the two agencies began to 
work together.
    Mrs. Rodgers. Did NHTSA consult with California prior to 
releasing the notice of proposed rulemaking on the SAFE Vehicle 
Rule?
    Ms. King. Yes, for nearly a year. I believe my first 
meeting with California occurred on the third day of my 
employment at NHTSA. And as I recall, Bill's was on--good 
grief, was it your first day or second day?
    So we immediately, upon taking office and working on this 
very important rulemaking, began meetings with California. And 
I certainly met both in Washington, I also flew to California, 
had repeated meetings and also conference calls, 
teleconference.
    Mrs. Rodgers. It is clear that safety is a priority for you 
and a major consideration with the proposed SAFE Vehicles Rule.
    Did the Obama administration focus on safety when they were 
setting fuel economy standards?
    Ms. King. That is a very interesting question. At the time, 
as you may be aware, I was career staff in the White House at 
the Office of Management and Budget, and we were keenly aware 
that certain questions were raised about the safety impacts of 
the rulemaking. The two agencies, at that time working 
together, had different assumptions and different conclusions.
    It is difficult, as my colleague mentioned, to have two 
agencies with a different set of scientists come to consensus. 
At the proposed rule in, I believe, 2009-2010, there were 
different conclusions about the potential safety impacts. The 
two agencies worked together, and I believe the direction was 
to assume no safety impacts before the rule was finalized.
    So, because of that very important dialogue, because of 
guidance we received previously from National Academies of 
Science, we want to make sure that we don't sweep safety 
impacts under the rug, but that we give adequate scrutiny.
    We have had 2 years of historic increases in traffic 
fatalities in the United States. Although we had good news that 
it seems to be trending down last year, when I came into office 
at NHTSA, 2 years of the largest proportionate increases in 
traffic fatalities in my lifetime, and I am more than half a 
century old.
    So we felt very strongly that we needed to, on behalf of 
the American people, pause and think about safety before we 
move forward to make sure that we were doing the best thing, 
considering the statutory factors Congress has directed us.
    Mrs. Rodgers. Thank you. Well, I appreciate today's 
hearing, where we can look at safety, affordability, and the 
high environmental standards that we have in this country. 
Thank you.
    Ms. Schakowsky. The gentlewoman yields back.
    And the Chair now recognizes Mr. Tonko, subcommittee chair 
of the Environment and Climate Change Subcommittee.
    Mr. Tonko. Thank you, Madam Chair.
    Administrator Wehrum, EPA has extensive experience in 
developing greenhouse gas emission standards for vehicles. In 
fact, a GAO report noted EPA's expertise in this area and 
stated, and I quote, ``NHTSA cannot be expected to have the 
same level of in-house expertise related to vehicle power train 
design and environmental issues as EPA.''
    Is it correct that EPA's Office of Transportation and Air 
Quality was created with the purpose of supporting development 
of pollution standards for vehicles under the Clean Air Act? 
Yes or no?
    Mr. Wehrum. Thank you, Congressman. I will just--I am going 
to give not a yes or no answer and just say I think my staff 
and the Office of Transportation and Air Quality are terrific. 
They are----
    Mr. Tonko. Well, that is not the question.
    Mr. Wehrum. Well, but----
    Mr. Tonko. Is it correct that it was set up to----
    Mr. Wehrum. No, but they are true experts in automotive 
vehicle technology. We regulate tailpipe emissions from 
engines. We regulate characteristics of fuel. We look now at 
other vehicle----
    Mr. Tonko. So I am hearing that they were set up to develop 
expertise to engage the appropriate standards and address 
pollution coming from our vehicles.
    Mr. Wehrum. That is absolutely true, and I will also say--
--
    Mr. Tonko. OK, I want to move on. I don't want you to carry 
on any further than we need.
    Documents added to the rulemaking docket late in the 
process suggested that EPA technical staff had little role in 
the process, a role that should have included a review of and 
input into the modeling assumptions, the cost projections, 
technology evaluations, and environmental performance and 
effects of the program alternatives.
    So Administrator Wehrum, is this accurate?
    Mr. Wehrum. Just to finish my prior answer----
    Mr. Tonko. Is this accurate?
    Mr. Wehrum [continuing]. I have worked with NHTSA a lot 
over the course of this rulemaking and just want to give them 
some kudos, too. They have a tremendous amount of expertise----
    Mr. Tonko. OK, but is this accurate?
    Mr. Wehrum [continuing]. Related to vehicle technology, and 
the combination of the teams is a very powerful combination.
    Mr. Tonko. But is it accurate that they had little 
involvement in the process?
    Mr. Wehrum. Through the course of this rulemaking, EPA has 
had a substantial amount of involvement and----
    Mr. Tonko. OK, then----
    Mr. Wehrum [continuing]. As I said a second ago, Chairman--
Mr. Congressman, no final decisions have been made----
    Mr. Tonko. OK, but let----
    Mr. Wehrum [continuing]. And the goal of the proposed rule 
was to put out a wide range of alternatives and a wide range of 
information.
    Mr. Tonko. Sir, you are using up my time.
    Why then did EPA staff request that EPA's name and logo be 
removed from one or more of the regulatory documents?
    Mr. Wehrum. That was--I believe that was the Regulatory 
Impact Analysis, and that was a document drafted by NHTSA. It 
wasn't drafted by us. So that was purely an indication of----
    Mr. Tonko. But why did staff request that their name and 
logo be removed?
    Mr. Wehrum. Well, as I said, because that was a document 
drafted by NHTSA and not by EPA.
    Mr. Tonko. OK, let's move on.
    Is it correct that, until this rulemaking, EPA had used its 
OMEGA model to estimate the cost of complying with every set of 
vehicle standards proposed by the Agency?
    Mr. Wehrum. That, I don't know, but what I do know is very 
early in this process----
    Mr. Tonko. Well can you--you don't know. So can you get 
back to us with an answer?
    Mr. Wehrum. Well, what I don't know is how long ago OMEGA 
was developed. So it certainly has been used for the last few 
EPA tailpipe standards, but----
    Mr. Tonko. Can you get back to us with an answer?
    Mr. Wehrum. I would be happy to.
    Mr. Tonko. Thank you. Is it correct that, in this 
rulemaking, the model NHTSA created to estimate the cost of 
complying with fuel economy regulations, the CAFE model, has 
been used to estimate the cost of complying with EPA's 
greenhouse gas standards?
    Mr. Wehrum. I am sorry, Congressman. I didn't understand 
that question. Will you please repeat it?
    Mr. Tonko. Is it correct that, in this rulemaking, the 
model NHTSA created to estimate the cost of compliance with 
fuel economy regulations has been used to estimate the cost of 
complying with EPA's greenhouse gas standards?
    Mr. Wehrum. If I understand your question, the answer is 
yes, we are using----
    Mr. Tonko. OK, thank you. The answer is yes.
    Mr. Wehrum [continuing]. A single model. A decision had to 
be made early on, are we going to run two models or are we 
going to run one model----
    Mr. Tonko. OK. Sir. Sir, I only have 5 minutes so I want to 
use them well.
    Mr. Wehrum. Well, you are asking complex questions, 
Congressman, and they are not solely yes-or-no answers.
    Mr. Tonko. They require yes-or-no answers.
    Interagency review documents released around the time of 
the proposed rule show that EPA staff using the OMEGA model 
found compliance costs that were half those found by the NHTSA 
model. Has EPA considered its own results in developing the 
greenhouse gas standards?
    Mr. Wehrum. As I said a second ago, a decision was made 
early on that we would rely on a single model instead of having 
two sets of books. So the CAFE model, which was developed by 
NHTSA, is the model that we are using for this regulation, and 
we will rely on the results of that model when we take final 
action.
    Mr. Tonko. Then why is there no discussion of these results 
in the proposal's regulatory impact analysis?
    Mr. Wehrum. Well, we are relying on the CAFE model, and 
there is a lot of discussion of the results from the CAFE model 
in the record.
    Mr. Tonko. If EPA was not involved in developing the 
technical analysis supporting the EPA standards, how has EPA 
satisfied its own obligations under the Clean Air Act to 
develop greenhouse gas pollution standards for vehicles?
    Mr. Wehrum. We had been involved and we will continue to be 
involved until this rule is signed.
    Mr. Tonko. It sounds to me like there is professional 
staff, expertise that suggests that they were not as involved 
as they ought to be, and it bothers me with an administration 
that calls climate change, climate science a hoax and also 
rejects science to kind of go forward with this operation that 
creates this proposed rule.
    And with that, Madam Chair, I yield back.
    Ms. Schakowsky. Thank you.
    The Chair now recognizes Mr. Shimkus, the Subcommittee on 
Energy, Environment, and Climate Change ranking member.
    Mr. Shimkus. Thank you, Madam Chairman.
    Mr. Wehrum, can you please walk me through what processes 
are legally required of the Agency, such as a public hearing, 
in order to lawfully issue a new rule?
    Mr. Wehrum. I would be happy to.
    The rulemaking process is important to us. It is a very 
public way in which we make decisions under our authority that 
Congress gives us to establish legally binding regulations. And 
the whole goal of the rulemaking process is to create an open 
public record that includes all of the information that we rely 
on justifying our final rule.
    So that begins well before our proposed rule is issued. We 
create a docket. We put in all of the information, and modeling 
results, and policy justification of what we are doing. We 
publish a proposed rule in the Federal Register. We provide an 
opportunity for the public to provide written comments. If 
anyone asks, we will hold a public hearing and we will hold the 
comment period open after the public hearing for a period of 
time for comments, in light of what is heard in the public 
hearing.
    And then we will do that all over--well, most of that all 
over again. We will take consideration of the comments and 
additional information. We will formulate our final decision. 
We will document that decision in the docket, and then we will 
publish that in the Federal Register, and that represents the 
final Agency action.
    Mr. Shimkus. In this particular case, have you done--have 
you met these requirements, so far, as you laid them out?
    Mr. Wehrum. I believe we have not only met, we have 
exceeded what is necessary under the law, sir.
    Mr. Shimkus. During your comment period, have you received 
comments from all stakeholders, including public interest, 
environmental, and industry groups?
    Mr. Wehrum. We have received hundreds of thousands of 
comments from all different perspectives, including all of the 
groups that you mentioned.
    Mr. Shimkus. Under Clean Air Act Section 307(d), are you 
required to review each of these comments?
    Mr. Wehrum. We review all of the comments that are 
submitted, and part of our obligation in creating a record of 
the final rule is to respond to all substantive comments on the 
proposed rule, which we have.
    Mr. Shimkus. Under the same Clean Air Act subsection, is 
there a response required for any significant comments, new 
data, criticism, and oral and written presentations?
    Mr. Wehrum. You said it better than I did a second ago. 
That is absolutely true.
    Mr. Shimkus. Good staff work behind me. So I appreciate 
that.
    Would a final rule be subject to review and potentially be 
overturned if the Agency failed to do these things?
    Mr. Wehrum. Absolutely true. All of our final rules, 
nationally applicable final rules, are directly reviewable in 
the DC Circuit Court of Appeals.
    Mr. Shimkus. What actions are planned to comply with this 
requirement?
    Mr. Wehrum. Well, we are working on the final rule right 
now. We are working on completing the docket supporting our 
decision. We are working on making final decisions. And once we 
complete that work, we will publish it in the Federal Register, 
and then we will wait to see if anyone chooses to challenge 
that.
    Mr. Shimkus. As I mentioned in my opening statement, our 
current Federal transportation fuel standards, namely, the RFS, 
doesn't necessarily give us liquid fuel formulations that 
maximize energy efficiency. Likewise, CAFE and greenhouse gas 
requirements don't necessarily result in the kinds of engines 
that would make the best use of available fuel formulations.
    Without asking you to endorse any specific proposal or 
legislation, do you think consumers would benefit from a more 
holistic or harmonious Federal approach to fuels and fuel 
economy standards?
    Mr. Wehrum. Yes, I agree with that, sir.
    Mr. Shimkus. Could raising the octane levels of regular 
gasoline increase fuel economy in vehicles designed to use 
higher octane fuel?
    Mr. Wehrum. It certainly could. Higher octane allows for 
higher compression ratios, and higher compression ratios allow 
for more efficient engines. So, it certainly could have that 
effect.
    Mr. Shimkus. Thank you all for being here.
    And with that, Madam Chairman, I yield back.
    Ms. Schakowsky. The Chair now recognizes Congresswoman 
Diana DeGette for 5 minutes.
    Ms. DeGette. Thank you so much, Madam Chair, for holding 
this really important hearing.
    Last week, I chaired a hearing of the Oversight and 
Investigations Subcommittee on the mission of the EPA. And we 
had four former EPA Administrators, who served both under 
Democratic and Republican Presidents going all the way back to 
the Reagan administration. And all four of them expressed 
serious concerns about the mission of the EPA under the Trump 
administration.
    Governor Christine Todd Whitman, for example, who was the 
Administrator under George W. Bush, testified that the EPA's 
current leadership is hostile to its own mission. She told us, 
quote, ``by all accounts, industry has captured EPA's 
regulatory process. This is a disaster for the Agency, the 
environment, and public health.'' End quote.
    The other Administrators, all three of them, leveled 
similar criticisms. So I want to ask you a couple of questions 
against that backdrop, Mr. Wehrum.
    Prior to your current tenure in the EPA's Air Office, you 
were an attorney in private practice. Is that correct?
    Mr. Wehrum. Correct.
    Ms. DeGette. And you provided legal services to a number of 
industrial companies and trade associations. Is that correct?
    Mr. Wehrum. Correct.
    Ms. DeGette. And so I have got here your financial 
disclosure report that you submitted, and according to this 
financial disclosure report, your previous clients included the 
American Petroleum Institute and the American Fuel and 
Petrochemical Manufacturers. Is that correct?
    Mr. Wehrum. Yes, and actually, a----
    Ms. DeGette. Thank you.
    Mr. Wehrum [continuing]. Full list of clients is in----
    Ms. DeGette. Excuse me, sir.
    Mr. Wehrum. Just my recusal----
    Ms. DeGette. No, no, excuse me, sir.
    So, Madam Chair, I would ask unanimous consent to submit 
Mr. Wehrum's public financial disclosure report for the record.
    Ms. Schakowsky. Without objection, so moved.
    [The information appears at the conclusion of the hearing.]
    Ms. DeGette. Thank you.
    Now, sir, since coming to the EPA, I would like to ask you, 
have you met with the American Petroleum Institute?
    Mr. Wehrum. Not that I recall.
    Ms. DeGette. And have you met with the American Fuel and 
Petrochemical Manufacturers to discuss fuel economy, greenhouse 
gas, tailpipe standards, or any aspect of the SAFE Vehicle 
Rule?
    Mr. Wehrum. Not that I recall, no.
    Ms. DeGette. Do you know if any member of your staff has 
met with either of these organizations?
    Mr. Wehrum. It is possible. We----
    Ms. DeGette. Are you aware of it? Are you aware of it?
    Mr. Wehrum. I am virtually certain that API and AFPM have 
been in on a range of issues, but when those requests come in, 
they get delegated. You know, I don't even see them because of 
my recusals.
    Ms. DeGette. So, you have not met with them. Is that your 
testimony today?
    Mr. Wehrum. I don't recall having met with API or AFPM 
since I have been at EPA.
    Ms. DeGette. And can you please provide me with a list of 
the meetings and participants of the meetings those two 
organizations have had with your staff?
    Mr. Wehrum. I would be happy to take that back, that 
request back to our congressional office, yes.
    Ms. DeGette. So will you provide me with a list, yes or no?
    Mr. Wehrum. Well, as I said, I would be happy to take that 
back to the congressional office.
    Ms. DeGette. So you are not committing that you will tell 
me who your Agency is meeting with from the American Petroleum 
Institute or the American Fuel and Petrochemical Manufacturers. 
Is that correct?
    Mr. Wehrum. What I will tell you is that my calendar, and I 
believe the calendar of my political staff, are a matter of 
public record.
    Ms. DeGette. So, therefore, you should be happy to provide 
me with a list of those meetings, right, since it is a public 
record?
    Mr. Wehrum. Well, as I said, my congressional office 
manages relations and manages requests. So I would be happy----
    Ms. DeGette. So you are not committing. Would that be a 
fair statement?
    Mr. Wehrum. I am committing to taking it back to my----
    Ms. DeGette. You can say yes or no to that.
    Mr. Wehrum. I am committing to take it back to my 
congressional office.
    Ms. DeGette. Right. So I just want to say this is the 
problem we are having with your agency every day, is a lack of 
cooperation, a lack of documents, a lack of disclosure, and 
this will not be allowed to continue. I just want to tell you 
that right now, and you can take that back to your 
congressional office also.
    Now, I want to ask you, given what these bipartisan 
Administrators said, and given what you have just told me 
today, refusing to even tell me whether your staff has met with 
the American Petroleum Institute or the American Fuel and 
Petrochemical Manufacturers, why the American people should 
have any confidence in your leadership at the EPA.
    Mr. Wehrum. Oh, I think the American people should have 
great confidence in what we are doing. The American people 
elected President Trump. President Trump appointed me to this 
position, and the Senate confirmed me to this position. And 
every single day I come to work, I work as hard as I possibly 
can to meet the laws that have been assigned to us to implement 
by the U.S. Congress and to do it in the most robust, fairest, 
fullest, and public way.
    And, in response to the questions that I got from 
Congressman Shimkus, I explained that virtually everything we 
do is through a very open process of rulemaking and----
    Ms. DeGette. Apparently no so open that you have to work 
with Congress.
    And I yield back the balance of my time.
    Mr. Wehrum. And I would just recommend on your----
    Ms. Schakowsky. No. I now recognize Mr. Walden for 5 
minutes for his questions.
    Mr. Walden. Thank you, Madam Chair. I hope we can get to--
yes, I know. You got that extra set there. I just have the 
panel ones.
    So we do appreciate your being here, and I hope we can get 
back on the issue of the rule and the topic at hand.
    And Administrator King, could you explain the process the 
administration is undertaking for the SAFE Vehicles Rule? Let's 
get to that. There are many inflammatory allegations made in 
some of the submitted testimony. So I would like to hear from 
you directly and give you a chance to actually respond.
    Are you following the law?
    Ms. King. Absolutely.
    Mr. Walden. Are you accepting comments from all 
stakeholders?
    Ms. King. Absolutely.
    Mr. Walden. Can you confirm that the proposed rule included 
many options, and the Democrats' and media portrayal of a 
freeze and rollback of standards is not accurate, given that we 
do not know what is in the final rule?
    Ms. King. That is correct.
    Mr. Walden. Assistant Administrator Wehrum, do you believe 
the previous administration's rule was outside the bounds of 
the Clean Air Act's authority?
    Mr. Wehrum. I believe the prior rule was not well justified 
in that regard. I do believe it was beyond their authority.
    Mr. Walden. And if so, can you explain why?
    Mr. Wehrum. Yes, I would be happy to. And in brief, as Ms. 
King stated earlier, certain assumptions had to be made to 
justify the prior rule, and those assumptions, like an ever-
increasing cost of gasoline, ever-increasing penetration of 
advanced technologies, like electric technologies, consumer 
choice, where it was assumed that consumers would want to buy 
the fuel-efficient cars that would be mandated under this rule, 
all of those assumptions proved to be false.
    The purpose of the midterm review was to do a reality 
check, recognizing this program reached well over a decade, and 
it is difficult to predict over a decade in an area like this 
that is constantly evolving.
    So I believe an honest look, as I believe we did in our 
midterm evaluation, of these evolving issues should have caused 
the prior administration to conclude that things are different 
enough than what they predicted that they should have made 
changes, as we are making changes here.
    Mr. Walden. And to each of you, could you highlight the 
critical differences between the two programs run by your 
agencies? Ms. King.
    Ms. King. Thank you. And by the way, I apologize if I 
answered questions that were directed to my colleague. It is a 
sign, I suppose, that we work well together.
    So the programs harmonize better than one might expect. In 
particular, the Clean Air Act assigns the responsibility to 
consider safety to my colleagues at EPA. And of course, NHTSA 
is a safety agency, traffic safety, specifically.
    One of the differences that must be considered is that the 
law that is implemented by NHTSA has requirements that we 
cannot consider, I am quoting statute now, ``may not consider, 
when prescribing a fuel economy standard, the trading, 
transferring, or availability of credits under these 
sections.'' So we cannot consider credit. We can't set a 
stringent standard that is infeasible and then use credits to 
get us out of the bind. We have to actually set a real 
standard.
    Mr. Walden. All right.
    Ms. King. We also have a requirement which is----
    Mr. Walden. And these are statutory requirements you are 
referencing?
    Ms. King. This is from Congress. This is EPCA, yes, the 
Energy Policy and Conservation Act. We have a very important 
area of law that we implement at NHTSA which says, this is 
preemption clause, ``when an average fuel economy standard 
prescribed under this chapter is in effect, a State or 
political subdivision of a State may not adopt or enforce a law 
or regulation related to fuel economy standards or average fuel 
economy standards for automobiles covered by an average fuel 
economy standard under this chapter.''
    Now, this is very important because, as many of you know, 
fuel economy and greenhouse gas emissions are so closely 
related that they are measured in exactly the same way for 
compliance purposes, and that is at the tailpipe. So the law 
that is the responsibility of NHTSA to execute, as directed by 
Congress, would prohibit State standards, whereas, I believe 
the Clean Air Act has some opportunity to offer a waiver, which 
my colleague can describe.
    Mr. Walden. All right. Do you want to speak to that, the 
differences?
    Mr. Wehrum. Yes, I will just go back to the original 
question. We have very different missions. NHTSA, my 
understanding of their mission is primarily highway safety. In 
this case, you know, Corporate Average Fuel Economy, for 
purposes of energy security, our mission is to manage air 
pollution.
    Now, when it comes to cars and trucks, those missions 
overlap substantially, and that is what makes it hard for us to 
do the rule, because NHTSA comes at it from a particular 
perspective. Congress said, you know, regulate fuel economy, 
upon consideration of relevant factors for purposes of making 
sure we have energy security and enough fuel economy that it 
supports that outcome. And our mission is to regulate cars and 
trucks to reduce emissions upon consideration of a lot of 
factors like cost and safety so that we strike the right 
balance between emissions reduction and other important things 
like highway safety.
    Mr. Walden. All right. My time has expired. Thank you very 
much. We thank you both for your public service.
    And I yield back.
    Ms. Schakowsky. Now I yield 5 minutes to the chairman of 
the full committee, Mr. Pallone.
    Mr. Pallone. Thank you, Madam Chair.
    In my opinion, the only ones that support the proposal that 
the EPA has put forth are oil companies poised to make money 
from the increased use of fossil fuels. And yesterday, I wrote 
a letter to oil interests asking for details regarding their 
lobbying efforts. A month ago, I sent the EPA Administrator a 
letter highlighting how the Agency rejected its own experts' 
conclusions that the CAFE rollback will result in increased gas 
pollution and job losses.
    Mr. Wehrum, a few questions, yes or no. If you can't answer 
yes or no, I am just going to move on.
    Were you briefed on the memo written by the Office of 
Transportation and Air Quality detailing the problems with the 
proposed rule?
    Mr. Wehrum. Yes.
    Mr. Pallone. And was Administrator Wheeler briefed as well, 
to your knowledge?
    Mr. Wehrum. Yes.
    Mr. Pallone. OK. Has Ms. King or anyone else at NHTSA told 
you that NHTSA will correct any of the problems identified by 
the Office of Transportation and Air Quality?
    Mr. Wehrum. That is not susceptible to a yes-or-no answer. 
So I am happy to give you an answer or move on.
    Mr. Pallone. Well, I mean, I am just asking you if they 
said they would correct them.
    Mr. Wehrum. I am sorry, the crowd noise.
    Mr. Pallone. I am just trying to find out if anyone at 
NHTSA told you that NHTSA would correct the problems?
    Mr. Wehrum. Well, so I am sorry, it is not a yes or no, but 
that assumes everything my office said is correct. And as I 
said earlier, these are very, very complex issues----
    Mr. Pallone. All right, let's move on. Let me go to Ms. 
King.
    Mr. Wehrum [continuing]. And we are working----
    Mr. Pallone. Let me just ask her directly.
    Will you correct the problems identified by the EPA office?
    Ms. King. Where we find errors in math or where we find 
opportunities to improve the modeling, and those are 
opportunities that we can, in the given time and with given 
resources, improve, absolutely. We want the best possible 
information----
    Mr. Pallone. All right. All right. I appreciate it.
    Ms. King [continuing]. To improve, to inform the rule.
    Thank you, Chairman.
    Mr. Pallone. Now, I requested a variety of brief--this goes 
back to Ms. DeGette and the problems with us getting access to 
documents. I requested a variety of briefing materials in my 
May 23rd letter, much of which is in your possession, Mr. 
Wehrum. Will you commit to providing those materials requested, 
yes or no, by the end of next week?
    Mr. Wehrum. As I responded earlier, those kind of requests 
I have to take to my congressional office, and I would be happy 
to do that.
    Mr. Pallone. All right. I just want to say I am deeply 
troubled by EPA's lack of transparency and its disregard for 
science and the expertise of its career staff. EPA and NHTSA 
should promptly comply with this committee's oversight requests 
moving forward, again, along the lines of Ms. DeGette's 
request.
    Now I wanted to ask about UARG. Mr. Wehrum, I can't let you 
leave here without asking you just a few clarifying questions 
about your former association with Utility Air Regulatory 
Group, or UARG, and I want to make sure I get my facts 
straight.
    So first, just to confirm, you represented UARG when you 
were at Hunton. Is that correct, yes or no?
    Mr. Wehrum. That is correct. UARG was a client.
    Mr. Pallone. And correct me if I am wrong, but that means 
you represented each individual member of UARG. Is that 
correct?
    Mr. Wehrum. That is not my understanding.
    Mr. Pallone. All right. So was each individual member of 
UARG also a client of Hunton as individual members?
    Mr. Wehrum. That is not my understanding.
    Mr. Pallone. And then finally, you told Politico in 
February, and I quote, ``UARG is an entity. It is a legal 
entity.'' End of quote.
    Just explain to me what you meant by that, if you can. When 
you said that it was an entity, a legal entity, what did you 
mean?
    Mr. Wehrum. I don't recall that conversation, so I am not 
going to speculate as to what that was about.
    Mr. Pallone. OK. You know, I am just trying to confirm 
statements that you made to the press. So, you know, I don't 
know why it is so difficult to answer, but whatever. I guess if 
you are not willing to answer some of these things, we can find 
another time to summon you back to answer them.
    But the reason I am asking these questions is because, in 
April of this year, this committee opened an investigation into 
the Utility Air Regulatory Group, and that is the secretive 
litigation group formerly run by Mr. Wehrum and his former 
colleagues at the law firm then known as Hunton and Williams. 
And I was very pleased that 1 month later, in response to the 
investigation, the group announced it would dissolve. And so we 
are closely monitoring their progress.
    I just want to reiterate again, because my time is almost 
gone here, it is very important, wherever possible, to give us 
documents, whether it is the request from Ms. DeGette, who is 
our Oversights and Investigations chair, or my own in these 
letters. To be honest, we have had a certain level of 
cooperation from the EPA on other issues, and I just would like 
to see more cooperation from your office, if at all possible.
    Thank you. I yield back.
    Ms. Schakowsky. The Chair now recognizes the ranking member 
of the full committee, Mr. Upton.
    Mr. Upton. Well, I don't have that spot anymore.
    Ms. Schakowsky. Oh. Oh, I am sorry.
    Mr. Upton. Walden is leaving the room angry.
    Ms. Schakowsky. What was I thinking? Fred, I am sorry.
    Mr. Upton. There has been a coup. There has been a coup.
    Thank you, Madam Chair.
    Ms. Schakowsky. I recognize you anyway.
    Mr. Upton. Thank you. Good to have you here and Ms. King, 
particularly, your role before. You know, for me, particularly 
not only from Michigan but as an American, and one that knows 
the importance of the industry and also clean air, it is 
important that we have the right standards. I have supported 
better safety standards, better fuel standards for everyone.
    And I was part of the group, I guess, a long time ago, that 
looked at this long fuel economy standard issue. And it was 
important, and we had an agreement by both Republicans and 
Democrats that we were going to have another look at this and 
that we would, in fact, we insisted on a midterm review so that 
years out we would see where the assumptions were, and where 
things were, and we would be able to recalibrate, if we had to. 
And as one that supports a one standard, knowing that we can't 
really have 50 standards, or 10 standards, or whatever, it was 
important that we have our act together and see if we can't 
accommodate all the many different interests there that protect 
not only the industry and the jobs, but also the consumers, as 
well as the environment.
    And you said something early on in your testimony that, 
literally within a day or 2 of your becoming Administrator, you 
met with folks in California and indicated that EPA had done 
the same thing. I just know that, as we are in this crux as to 
where we are going to go as it relates to the midterm review, 
has California--so you have met with them. You know who they 
are. Have they made a proposal, an offer back to you in the 
time that you have been there, in terms of where we should go, 
knowing that we had to relook at these standards?
    Ms. King. I am----
    Mr. Upton. In essence, have they had a counteroffer? Have 
they put anything on the table that they might be able to 
accept, other than the path that leads us to 54 miles per 
gallon?
    Ms. King. At the end of the year of conversations, there 
was--well, first of all, we had a gentlemen's agreement--or 
gentlewomen, given that both my colleague from CARB, Mary 
Nichols and I, we are both Californians; I, a former California 
State park ranger, and she leading the California Air Resources 
Board--we had a gentlemen's agreement to maintain the 
confidentiality of our conversations in order to assure the 
maximum probability that we could find a common point.
    That being said, it was not until the very end of the 
conversation when something was floated that had not yet been 
vetted either by the outgoing or incoming Governor or the 
attorney general of California. So we very much appreciated 
that there was the suggestion that there might be a path 
forward, but I don't know whether or not the full authorities 
of the State of California would have been there to support it 
as an offer.
    Mr. Upton. So there has not been--you are really not 
prepared to say where they are and there is no--there is 
nothing out there in the public realm for us to look at in 
terms of a counteroffer, other than the original standard.
    Ms. King. No, I am afraid not. Because the auto 
manufacturers, as most in this room know, need to actually 
design and build cars, they need to have some advance notice--
--
    Mr. Upton. Right.
    Ms. King [continuing]. We need to make decisions and get to 
the final rule. So, at some point, after a year of meetings, 
after a year of traveling, both California colleagues coming to 
Washington, us traveling to California, at some point we need 
to say it has been a year, we are not making progress. We need 
to just work from the public docket, from the public comments, 
from the best possible science, engineering, and data, make 
decisions, and move on. And that is the stage we are at now.
    Mr. Upton. And Mr. Wehrum, at EPA is it the same story? Is 
there anything different?
    Mr. Wehrum. No difference, sir.
    Mr. Upton. You know, let me just ask a quick question, 
knowing my time is expiring.
    You indicated, Ms. King, that early on you saw that there 
was a real spike in fatalities, when you came on. And I am 
just--was your conclusion that it was just smaller vehicles? Is 
that why? I mean, I am just looking at all the safety 
standards.
    And, you know, I had to rent a car this weekend because my 
flights were canceled. And it has a lot more safety stuff than 
my car and comes with a little design in the mirror so you know 
that there is a car there in your blind spot. You know this 
committee pushed forward on tire standards. I mean we have done 
a lot of things over the recent years, but why--what was the 
basic conclusion as to why fatalities really spiked?
    Ms. King. The truth is we don't know. It is complex, and it 
is likely a number of factors. Economic growth means that 
people are driving more. That means there is more exposure to 
roadway hazards.
    The increase in people choosing to walk and bicycle, that 
is a cultural change we see in our cities, certainly here in 
Washington.
    Mr. Upton. Scooters.
    Ms. King. We have seen a growth in the use of drugs among 
drivers. So our roadside survey shows more and more people are 
driving with marijuana, opioids, or impairing pharmaceuticals 
in their blood.
    So the individual vehicles are safer than they have ever 
been. Newer cars are safer than older cars, but complex factors 
come to our roadways. It is something that we--because we don't 
collect the data on things we don't know about, we don't have 
the data to fully explain the increase in fatalities, but we 
have launched programs to do everything we can on all fronts to 
reduce those fatalities.
    Mr. Upton. If I can just have 10 more seconds, and I won't 
ask a question for a response, and I hope that I have got a 
colleague down on the other side here that might ask about, as 
you look at alcohol and opioids, some devices that might be 
added to vehicles.
    But I will yield back.
    Ms. Schakowsky. I now recognize Congresswoman Matsui for 5 
minutes of questioning.
    Ms. Matsui. Thank you very much, Madam Chair.
    I want to bring up an issue that I believe no one has 
brought up yet, and that is the California waiver. And it is 
the authority for the State of California, under the Clean Air 
Act, and 13 other States to set its own standards for vehicle 
emissions through a waiver.
    Now, since 1968, California has requested and been granted 
waivers more than 100 times, and the legislative history of the 
Clean Air Act clearly states that Congress intended California 
to have the broadest possible discretion in selecting the best 
means to protect the health of its citizens. Our State's 
leadership has led to cleaner air, improved public health, and 
has driven technological innovation in the automotive industry.
    Ms. King, and quickly here, when did NHTSA decide to 
conclude that the Energy Policy and Conservation Act preempts 
the Clean Air Act's special grant of authority to California?
    Ms. King. So the language that I read is the language from 
EPCA. It is not a decision of NHTSA. And that language is 
described and discussed in the proposed rule. There is no final 
rule yet.
    Ms. Matsui. OK, moving on here. Mr. Wehrum, when did EPA 
decide to revoke California's waiver?
    Mr. Wehrum. No decisions have been made yet, Congresswoman.
    Ms. Matsui. OK. Well, the Clean Air Act was carefully 
crafted with the obvious intention to grant California this 
authority. Two Federal courts have already rejected the 
preemption argument and the Clean Air Act does not provide EPA 
with authority to revoke a waiver. This deeply flawed legal 
argument is an enormous mistake that will throw the entire 
American automobile industry into chaos for years.
    Now, in April of this year, Administrator Wheeler appeared 
before this committee and testified that the final rule had not 
been completed at that time but the EPA was moving forward to 
revoke the waiver. Administrator Wheeler also testified that 
the EPA is bound by administrative law to consider all evidence 
and comments submitted before making a final decision.
    Mr. Wehrum, isn't it true that a California waiver has 
never been revoked. Yes or no?
    Mr. Wehrum. No.
    Ms. Matsui. OK.
    Mr. Wehrum. Well----
    Ms. Matsui. What?
    Mr. Wehrum. And I am sorry. We denied a waiver request at 
the end of the Bush administration. So that wasn't strictly a 
revocation, but it wasn't----
    Ms. Matsui. It has never been revoked. You say it has been 
revoked?
    Mr. Wehrum. I was just clarifying my statement, 
Congresswoman. I wanted to be clear. At the end of the Bush 
administration, when I was previously at EPA, we denied a 
waiver request from the State of California for greenhouse--you 
know a waiver request that would allow them to regulate 
greenhouse gas emissions. That denial was in litigation at the 
change of administration, and the Obama administration reversed 
it.
    Ms. Matsui. Right. So we can move on.
    So let me just say this. Obviously, if this was rejected at 
this time, we know there would be disastrous outcome should the 
administration move forward.
    Now--and it could be avoided. Let me tell you this is a 
back and forth here with good faith negotiations with 
California. In fact, and I really wish that Chair Nichols could 
be with you because we can answer the question right there, but 
Chair Nichols actually states that California was open to 
accommodation, such as adjustments to compliance, timing, and 
flexibility. So it wasn't California's fault. They were open 
with the--if you actually had just the same situation always, 
you wouldn't move at all.
    Now, Mr. Wehrum, given the evidence that California clearly 
put forth a compromise, why won't you engage? Why did you walk 
away from the table, given you had these options?
    Mr. Wehrum. Administrator Wheeler sent a letter to members 
of the committee, and I think it was made available to all 
members of the committee this morning.
    Ms. Matsui. And what did he say?
    Mr. Wehrum. And he is addressing the testimony provided by 
Ms. Nichols that----
    Ms. Matsui. Well, let me----
    Mr. Wehrum [continuing]. In essence, that we were not 
negotiating in good faith. So I would recommend each----
    Ms. Matsui. Well, I will ask Chair Nichols about that.
    Now I would like to discuss another issue that most 
certainly will arise should your Agency move forward with its 
unlawful decision to revoke California's Clean Air Act waiver. 
Under the Clean Air Act, federally funded transportation 
projects must demonstrate that they meet air quality goals set 
forth in the State's Clean Air Act Implementation Plan. In 
other words, those projects can't adversely impact a State's 
ability to meet air quality requirements. If they do so, 
Federal transportation funding can either be delayed or lost 
entirely.
    The proposed rule concedes that California and other States 
that incorporate California standards into these implementation 
plans would be compromised in their ability to meet Federal air 
quality standards for criteria pollutants like ozone, which 
means planned transportation projects in those States will not 
be able to show, as required by Federal law, that they will not 
worsen air quality or delay attainment of air quality goals.
    Mr. Wehrum, California is projected to receive tens of 
billions of dollars of Federal transportation funding in the 
coming years. Wouldn't revocation of California's waiver and 
implementation of the proposed rule jeopardize these billions 
of dollars of Federal transportation funding for needed 
projects?
    Quickly, I am running out of time.
    Mr. Wehrum. CARB submitted supplemental comments to the 
record of this rulemaking yesterday or the day before. And I 
think their supplemental comments answer your question that the 
tone of the comments is that this is going to create a great 
problem.
    Ms. Matsui. Yes.
    Mr. Wehrum. But if you read their letter carefully, they 
don't conclude that it does. They said it might, it may, and--
--
    Ms. Matsui. Well, I think that there was that question 
and----
    Mr. Wehrum [continuing]. When you look at the analysis that 
we did in support of the proposed rule----
    Ms. Matsui [continuing]. I think Chair Nichols will--OK. I 
think I have run out of time. So, I yield back.
    Thank you.
    Ms. Schakowsky. Thank you.
    I know recognize for 5 minutes of questions Mr. Latta.
    Mr. Latta. Well, thank you very much, Madam Chair, and 
thanks for today's hearing. And thanks to our witnesses for 
being with us today.
    If I could start my questions with you, Administrator King, 
if I could. Back in 2012, under the Obama administration, when 
it first finalized that rule, quite a few assumptions were 
made. And again, as had been pointed out a little earlier, that 
it was thought that gas prices would be over $4 a gallon and 
that most Americans would say they would rather have a much 
smaller vehicle than a larger vehicle, and being in the 
midsized range, and going with electric and hybrid vehicles. 
And pretty much what we have heard today is that these 
assumptions have been pretty much proved wrong over time.
    As my friend from Oregon mentioned, when he was in 
California, he almost paid $4 for gasoline. Over the weekend, 
when I was in my district, I paid $2.34. I just checked, and in 
one of the parts of my district you can buy gas for $2.25.
    So also in the State of Ohio, just last year, that hybrid 
and electric vehicles amounted to less than 2.5 percent of the 
new vehicle purchases. And as I said, where the gas prices have 
gone down in the $2.30-$2.40 range in a lot of areas and down 
to $2.25 in some areas in the district right now. And when you 
look at it, 65 percent of all the new vehicle purchases in 2018 
in Ohio were crossovers, SUVs, and trucks.
    So let me ask, did you take these assumption failures into 
account when you decided to revise the SAFE Vehicle Rule?
    Ms. King. The updated information was inserted into any 
analysis performed at the proposed rule stage.
    I want to describe briefly--this may also help address some 
of Chairman Tonko's questions--the two agencies' career staffs 
have worked very closely together, as directed by President 
Obama, for 10 years. We are now at the 10-year anniversary of 
the two agencies working closely together. That means sharing 
information, sharing analysis, sharing input files, some of 
which is provided from Department of Energy or other sources.
    The modeling takes inputs from EPA to go into the model. We 
share modeling. We help improve, through criticism and through 
debate, one another's modeling. And the two agencies have done 
so as recently as in the midterm evaluation technical analysis 
that was performed at the end of the last administration before 
the EPA acted independently in issuing the determination alone 
in January 2017.
    So the agencies have always and will continue to consider 
updated fuel prices, vehicle fleet information, technologies 
that are used to improve fuel economy, the prices that are 
described to us, you characterize them----
    Mr. Latta. So it is actually important that, when you are 
doing this, that you are looking at accurate current 
information----
    Ms. King. That is right.
    Mr. Latta [continuing]. To make sure that, when you are 
working those rules and the regs out there, that they are 
current----
    Ms. King. Yes.
    Mr. Latta [continuing]. That they have current information.
    Ms. King. Absolutely.
    Mr. Latta. Thank you.
    Would you speak in more detail about how the standards set 
in the SAFE Vehicle Rule would still push for cleaner, safer 
vehicles, while still providing for more consumer choice?
    Ms. King. Because the statute requires that we set a 
maximum and not choose the individual types of vehicles that 
are available, the maximum means that there can be very low or 
minimum vehicles that are within that bound. Highly fuel-
efficient vehicles can and will continue to be manufactured for 
consumers who would like them, but some consumers need a 
vehicle that maybe has more power or other attributes. And 
setting maximum feasible allows the opportunity, at a fleetwide 
average, for there to be diverse vehicle----
    Mr. Latta. Well, if I can interrupt for a second because, 
again, when you are looking at these numbers and these averages 
that we are hearing from different States, like in Ohio, you 
know where you are looking at over 60-plus percent of the 
people wanting an SUV----
    Ms. King. Correct.
    Mr. Latta [continuing]. Or they want a crossover, or they 
want a pickup-type truck, type vehicle. So again, you are 
saying that when you are looking at these numbers, now are you 
taking those percentages in, or how did you say you are going 
to do that, again? Because, again, if one area's percentages 
are going up----
    Ms. King. Right. Over time----
    Mr. Latta [continuing]. Do you factor that in there?
    Ms. King. Over time, we are seeing fewer and fewer 
consumers who are choosing passenger vehicles. Instead, people 
are moving to trucks, or SUVs, or other types of vehicles. 
Because the fuel economy standards are calculated as a 
fleetwide average, when consumers choose larger or less fuel-
efficient vehicles, that means that our prior forecasts of what 
would be achieved will be wrong.
    Mr. Latta. OK, and that goes back to the earlier question. 
You have to make sure that, when you are working on these 
regulations, that you have got to constantly be revising your 
information that you have received.
    Ms. King. Yes, the direction given to NHTSA by Congress is 
that we are not allowed to set standards for more than 5 years 
at a time. Congress explicitly says the Secretary shall issue 
regulations prescribing fuel economy standards for at least 1 
but not more than 5 years, because Congress recognized that 
technology changes.
    Mr. Latta. Thank you very much.
    Madam Chair, my time has expired and I yield back.
    Ms. Schakowsky. Thank you.
    And now I recognize Congresswoman Castor for 5 minutes of 
questioning.
    Ms. Castor. Thank you, Madam Chair.
    The Trump administration's rollback of our fuel economy and 
Clean Car Standards is poor public policy. It is not just poor 
public policy, it is downright harmful to our ability to tackle 
the climate crisis and to keeping America's competitive edge.
    Mr. Wehrum, EPA's mission is to protect the public health 
and environment, and clean air is critical to that mission, but 
in 2017 and 2018 the U.S. has more polluted-air days than the 
average from 2013 to 2016. And in 2018, carbon pollution 
increased after 3 years of decline.
    The EPA has found that carbon pollution endangers the 
health and welfare of Americans. And the Fourth National 
Climate Assessment, that EPA was part of, found last fall that 
impacts from climate change on extreme weather and climate-
related events, air quality, and the transmission of diseases 
through insects, pests, food, and water increasingly threaten 
the health and well-being of the American people, particularly 
populations that are already vulnerable. And American families 
and businesses are now dealing with the escalating cost of the 
climate crisis.
    But now EPA is making it worse. Yesterday, EPA finalized a 
rule that will achieve less than 1 percent emissions reduction 
from the power sector. But it is transportation that is now the 
largest source of carbon pollution. But today, you are here 
defending a proposal that provides for a massive increase in 
carbon pollution, the tailpipe standards for the cars that we 
drive.
    With carbon pollution increasing and more polluted-air days 
happening, EPA freezing tailpipe standards at 2020 levels 
through 2026 is clearly at odds with the Clean Air Act 
requirement of protecting the public health and welfare, isn't 
it?
    Mr. Wehrum. No, Congresswoman.
    Ms. Castor. But Mr. Wehrum, last August you admitted, as 
reported in the L.A. Times, that rolling back the standards 
would hurt public health and the environment. You said, quote, 
``If we lock in the 2020 standards, we're not getting as much 
emissions reductions as we otherwise would, and that translates 
into incrementally less protection of health and the 
environment.''
    The Trump administration's rollback of fuel economy 
standards is harming American families and businesses in other 
ways as well. Fuel economy standards drive investment and 
innovation. Every time we have encouraged automakers to do 
better, they have met the challenge. They have made parts 
lighter and stronger, transmissions and engines more efficient, 
and vehicles more aerodynamic. But by freezing the CAFE 
standards, the administration seems to want to aid foreign 
automakers instead. Because this is a global and very 
competitive market for the cars we drive and the trucks we 
drive.
    And you seem to say America can retreat. We are not going 
to be the best anymore in building cars. America is last. 
America last in innovation, last in fuel efficiency, last in 
air quality. We are not going to stand for it.
    Deputy Administrator King, given that automakers have 
written President Trump raising concerns about the effect of 
the rollback on innovation and investment, how can you claim 
that the American automobile industry would continue to be a 
leader in clean-car innovations under the administration's 
proposal, which freezes Clean Car Standards?
    Ms. King. I would be delighted to answer that question. Of 
course, when we set a very stringent regulatory standard that 
requires advanced engineering, all the engineers need to work 
on that standard. Whereas, if we set a maximum standard that is 
feasible, as required by law, as Congress has directed us to 
do, that allows engineers to innovate on safety as well.
    Ms. Castor. No, you are letting them off the hook in doing 
that. That just flies in the face of experience over the last 
decades.
    Ms. King. Advanced safety technology----
    Ms. Castor. Every time we have set better standards, they 
have met them----
    Ms. King. Advanced----
    Ms. Castor. [continuing]. Because this is the United States 
of America, and we will not retreat----
    Ms. King. Not in 2017.
    Ms. Castor [continuing]. And it is not time to retreat.
    Ms. King. Not in 2017.
    Ms. Castor. Canada is increasing their clean-car standards 
to 55.2 miles per gallon for cars and 40.6 miles per gallon for 
light-duty trucks. And the European Union has proposed to 
increase their clean-car standards to 64.3 miles per gallon for 
cars, 45.7 miles per gallon for light-duty trucks. China, 
Japan, and South Korea continue to meet aggressive fuel economy 
targets.
    Why wouldn't Europe, Asia, or Canada become the epicenters 
of clean-car investment and innovation under your proposal?
    Ms. King. It is important to look at how those numbers are 
calculated. And remember, in 2017 most automakers could not 
meet the standard in the United States. So I don't know where 
the information is suggesting that folks were able to meet 
that.
    Ms. Castor. It is plain as day, and thank you.
    I yield back my time.
    Ms. Schakowsky. Mr. McKinley, you are recognized for 5 
minutes.
    Mr. McKinley. Thank you, Madam Chairman.
    I want to acknowledge, first, Administrator King and 
Administrator Wehrum for your service, and thank you. I know 
when you and I, we served together here on the Committee on 
Energy, and I was with you yesterday at a special celebration 
about the ACE Rule. Despite what some people were whining about 
that, I think it is going to be a very effective rule over the 
long term.
    Let me just quickly get into it. One thing that I have 
learned, Madam Chairman, to change direction here a little bit, 
is that in my 9 years here on the committee following the 
Constitution, one of the things I have found out, the executive 
branch, pardon the pun here, but the executive branch trumps 
the legislative branch.
    We are seeing time and time again that, as House Members 
and Members of Congress, that we have given up a lot of our 
authority to the agencies. Now, we are having this hearing 
today. Why? Because once again, the administration is 
unilaterally changing a regulation and someone is disapproving 
of it. That is the way this system has worked. I don't like it.
    So my question goes back to more fundamentals, Madam Chair. 
If we don't like something, why don't we change the law? If we 
have a problem with 1975 CAFE standard, change the law, not 
whine and complain about it. They have been doing it for 
decades. When the GOP had the majority, we complained about 
what Clinton and Obama did. And when the Democrats are not 
whining about what happened under Trump, they did the same 
thing under Bush.
    But let me understand--let me point out, if we continue to 
give up this authority to control how these agencies operate 
that are passing the rules and regulations, we are going to see 
more of this.
    As an example, this is something we prepared. Our office 
prepared something about 4 or 5 years ago. These are--just let 
it roll out. These are the rules and regulations that were 
passed against the fossil fuel industry under the Obama 
administration--1,500 rules and regulations.
    We need to regain control, I believe, of this process, 
instead of whining about what the agencies are doing because 
every 4 years, potentially, we change administrations and they 
change direction. We don't have certainty. When we had the 
Clean Air Act, it was passed and it gave certainty. We need to 
get that back again, instead of complaining about what the 
rules are. Then let's tighten up what the CAFE standards are, 
or whatever those might be.
    We had back under the Obama administration, there was an 
interesting book written by Professor Howe, and it said--the 
title was ``Power Without Persuasion,'' and it was using the 
rulemaking to influence what we should be doing here in 
Congress. And he talked about Obama, the State waivers under 
Federal mandates, if they agreed to education overhauls, if 
they increased the greenhouse standards through environmental 
regulations, I could go on. We have all got some lesson of what 
the administrations have done. I don't care whether we are 
Republican or Democrat, we just have given up that power on it.
    So Madam Chairman, I would say what is our authority in 
Congress? Is it every 4 years, we are going to sit there, we 
are going to have people come before us as these two folks, and 
we are just going to criticize them and rip them apart? Why 
don't we tighten up how our agencies should be operating, so 
that we have a role, instead of whining about them when they 
come in, or the next administration?
    So I would ask just, and quickly, Heidi--Administrator 
King, what problems would be presented to your group in 
transportation if Congress had a voice in the regulations 
before they go final? Would that crush you?
    Ms. King. Representative McKinley, first, let me assure you 
for myself, on behalf of the entire Department of 
Transportation, that we are seeking to comply with all of the 
direction and laws given to us by Congress. We are not seeking 
to trump Congress. In fact, I believe that the difficulties and 
the challenges we are having here and the purpose of this 
hearing is because we are trying to restore regular order.
    The Administrative Procedure Act requires that we complete 
analysis, that we put it out for public comment, and that the 
public be allowed to replicate the modeling on our website and 
submit comment, and then we inform a final decision, not 
backroom deal-making where you take manufacturers and have a 
meeting at the White House and pick a number, and not violating 
statutory direction.
    Mr. McKinley. I respect that, but you saw the list, 86,000 
mine jobs, coal mining-related jobs were lost because of those 
1,500 regulations that were passed without congressional 
approval.
    So it is not you, it is the process. We need to perfect the 
process instead of criticizing you.
    Thank you. I yield back my time.
    Ms. King. I don't feel criticized. I am very pleased to 
comply with the direction of Congress in this very----
    Ms. Schakowsky. The gentleman has yielded back.
    And now I recognize Mr. McNerney for 5 minutes.
    Mr. McNerney. I thank the Chair, and I will resist the 
temptation to respond to Mr. McKinley's comments there.
    Mr. Wehrum, do you support the role and expertise that the 
EPA Science Advisory Board can provide to assess underlying 
science backing regulatory actions?
    Mr. Wehrum. The SAB gives us important advice on a lot of 
important issues, absolutely.
    Mr. McNerney. Thank you. I think the same thing.
    Four former EPA Administrators testified before this 
committee last week. All supported upholding the science in 
deciding Agency action.
    Now, the SAB has recently decided to review the rule that 
is being proposed. Will you commit to cooperating with the 
SAB's review of the proposed rule?
    Mr. Wehrum. Congressman, the Administrator has already 
responded to that request in a letter back to SAB a few days 
ago. I don't have the exact date here.
    Mr. McNerney. Well, I am asking you. Will you commit to 
working with the Science Advisory Board?
    Mr. Wehrum. I guess what I am telling you is my boss made a 
decision, so I have got to do what my boss decided to do.
    Mr. McNerney. What was the decision of your boss?
    Mr. Wehrum. He said, and I am reading from his letter, and 
this is on the topic of, you know, SAB recommended that this 
rule, the SAFE proposal, be submitted for further review. So I 
am just reading from the letter.
    And the last sentence of the Administrator's response on 
this particular topic says, ``The EPA believes that the Clean 
Air Act Advisory Committee, which is one of my standing FACA 
committees, and its Mobile Source Technical Review 
Subcommittee, which is a mobile source-oriented subcommittee of 
the Clean Air Act''----
    Mr. McNerney. But those aren't science boards. Those are 
committees of some kind.
    Mr. Wehrum. Well, they are full of folks who are 
interested--with expertise. And particularly, the Subcommittee 
of Mobile Sources Technical Review is full of folks from car 
companies, and environmental groups, and outside experts.
    Mr. McNerney. So will you commit to not finalizing the 
proposed rule until the Science Advisory Board has had time to 
complete its review?
    Mr. Wehrum. The proposed rule was finalized a good while 
ago. I think you meant the final rule.
    And again, the Administrator has responded to the SAB, and 
he said that we will get advice that we need from these other 
advisory committees.
    Mr. McNerney. That is not acceptable.
    Do you think it is OK to continue business as usual with 
carbon dioxide emissions?
    Mr. Wehrum. Well, business as usual includes our efforts to 
regulate carbon dioxide through a wide variety of regulatory 
mechanisms. Yesterday, we finalized the ACE Rule, which 
regulates greenhouse gas emissions. We are working hard on 
finalizing the SAFE Rule that will regulate greenhouse gas 
emissions. I administer a major source permitting program that 
regulates greenhouse gas emissions.
    And I think my job here with regard to greenhouse gas 
emissions is to faithfully and fully execute my 
responsibilities in the Clean Air Act, and that is exactly what 
we are trying to do.
    Mr. McNerney. Well, I mean, do you agree that the climate 
is changing largely due to carbon dioxide emissions, that the 
change is accelerating, that the impacts of climate changes are 
likely to be very damaging to catastrophic well before the end 
of this century? Do you agree with that?
    Mr. Wehrum. Well, Congressman, what is most important is 
what I do in my job. And the EPA, prior to my arrival, made an 
endangerment finding and a contribution finding that authorized 
and actually obligated regulation of the Clean Air Act and a 
wide variety of provisions.
    I think it is noteworthy we have not sought to reverse that 
endangerment or those contribution findings. What we have done 
is continued the regulatory program and process, in the way 
that I described earlier.
    Mr. McNerney. And weaken the carbon dioxide emission 
standards, despite the evidence that we are seeing about the 
climate.
    Mr. Wehrum. No, the Obama administration was trying----
    Mr. McNerney. So do you believe that human-caused climate 
change is happening and that it is a danger?
    Mr. Wehrum. The Obama administration tried to use the Clean 
Air Act----
    Mr. McNerney. I am not asking about the Obama 
administration. Do you believe that climate change is a danger 
to this country?
    Mr. Wehrum. I am regulating greenhouse gases every day of 
the week.
    Mr. McNerney. So you are not going to answer that question 
directly.
    Mr. Wehrum. Like I said, what is most important is how I 
administer my authority. My authority and obligation is to 
regulate greenhouse gas emissions, and that is exactly what we 
are doing.
    Mr. McNerney. Well, your office told the SAB that the EPA 
and NHTSA jointly proposed the standards that public records 
shows career experts at the EPA Office of Transportation and 
Air Quality disagreed with NHTSA's work on that rule.
    Your office also claimed that, quote, ``the EPA believes 
the Clean Air Act Advisory Committee and its Mobile Source 
Technical Review Subcommittee would be more appropriate venues 
for any necessary advice on these actions.''
    It does appear that your office has been dismissive of the 
SAB at the time of its rulemaking to avoid input from the SAB 
on this action. Nothing you have said today has changed that 
conclusion.
    I yield back.
    Ms. Schakowsky. I now recognize Mr. Johnson for 5 minutes 
for questions.
    Mr. Johnson. Thank you, Madam Chairman.
    I was sitting here observing what my colleague Mr. McKinley 
did. I wish I had thought of that. That was pretty neat, 
rolling out all of those thousands and thousands of pages of 
regulations that you know many of them, many of them under the 
previous administration that had very little to do with 
protecting the environment and solving the problems that my 
colleagues on the left want to talk about. They were about 
shutting down fossil fuel industries, particularly the coal 
industry.
    And I applaud what the administration is doing and what the 
EPA is doing to reverse that course. And you can count me in as 
a champion to help you do that every chance I get.
    You know, like other Members on this committee, I come from 
a State that has a history of manufacturing and producing 
automobiles. I know firsthand that these manufacturing plants 
are typically steady and reliable sources of good-paying jobs, 
but with the recent closure of the GM Lordstown Plant, I have 
unfortunately also witnessed the kind of devastating impact 
that plant closures can have on local economies and communities 
when they do shut down.
    Now, there were a lot of factors that went into that 
plant's closure, but the Federal Government--we know this, I 
believe this--the Federal Government should not be issuing 
overly burdensome rules that make it too costly to manufacture 
or for consumers to purchase American-made new automobiles, 
especially as the market trends further towards trucks and 
SUVs.
    If another company decides to buy the Lordstown facility, I 
want to ensure that that company has a clear set of 
transparent, cost-conscious Federal rules to follow. The 
Federal Government should be a partner in American auto 
manufacturing and production, not a barrier.
    So Administrator King, in your testimony, you highlight the 
effect the SAFE Vehicles Rule will have on the types of 
vehicles that will be available for consumers. Can you please 
explain how the proposed rule will help improve consumer 
choice?
    Ms. King. The proposed rule is considering the factors that 
Congress has required we consider to set a standard that is 
maximum feasible. Now within maximum feasible, there can be all 
kinds of cars that on average meet the maximum feasible fleet 
standard.
    What we are reconsidering is a standard that is infeasible 
because the forecasts and the projections that were made in 
2012 turned out to be wrong, one of those being that consumers 
don't want to drive only passenger cars, they increasingly want 
larger trucks. So we are trying to make sure that, following 
congressional direction, we set a standard that is in fact 
maximum feasible, considering all of the statutory factors that 
allows for the consumers to have access to vehicles they need.
    Mr. Johnson. OK. Well, how can fuel economy standards drive 
up the price of cars?
    Ms. King. When a very, very stringent or infeasible 
standard is set, the investment that goes into meeting that 
standard could be very, very expensive. So for example----
    Mr. Johnson. And they just pass that on to consumers, 
right?
    Ms. King. That is right.
    So, for instance, moving cars into all electrified power 
trains, because----
    Mr. Johnson. Sure.
    Ms. King [continuing]. That is a very expensive technology. 
Not every consumer wants it, but that might be the only one 
that fleetwide average could meet the standard.
    Mr. Johnson. OK, well, thank you. Let me move on to Mr. 
Wehrum.
    Mr. Wehrum, vehicle choice is important. And as 
Administrator King's testimony states, the SAFE Vehicles Rule 
contains no language that would prevent any auto manufacturer 
from designing and building different types of vehicles. 
Natural gas vehicles are an important part of that mix, and I 
hope that any final rule can help ensure regulatory parity 
between vehicles like NGVs and EVs.
    As EPA and NHTSA continue to move through this rulemaking 
process, will you work with my staff and colleagues to ensure 
greater parity is achieved for NGVs?
    Mr. Wehrum. Yes, Congressman. We have heard from many folks 
in the natural gas vehicle industry about these issues, and I 
think we have a good appreciation of what the concerns are, and 
that is one of many things that we continue to deliberate as we 
put the final----
    Mr. Johnson. Well, I appreciate that, because I think that 
is an area where, you know, if we are smart, we can find 
bipartisan agreement on. Everybody agrees that natural gas is 
much cleaner than many other forms of energy, and it makes 
perfect sense that we move in that direction and bring about 
that parity.
    So thank you both for your testimony. I, too, appreciate 
the service that you are providing to our country.
    I yield back.
    Ms. Schakowsky. The Chair recognizes Congresswoman Clarke 
for 5 minutes.
    Ms. Clarke. Thank you very much, Madam Chair. I thank our 
chairs and our ranking members for this very important hearing 
on the Trump administration's proposed rollback of the fuel 
economy and Clean Car Standards. And I thank our panelists for 
bringing your expertise to bear today.
    Since 1975, the Corporate Average Fuel Economy standards, 
otherwise known as the CAFE standards, have played a critical 
role in improving vehicle fuel efficiency, increasing vehicle 
safety, spurring American innovation and investment, and 
significantly decreasing tailpipe emissions. As a direct result 
of these standards, families in my home State of New York have 
already saved nearly $2 billion today, not to mention the 
invaluable public health benefits that have accrued, thanks to 
cleaner vehicles, especially in low-income communities and 
communities of color.
    Unfortunately, even with these standards in place, 
greenhouse gas emissions from the transportation sector 
officially surpassed those from the electricity sector in 2017, 
making transportation the single largest source of climate-
warming emissions in the United States. In fact, the amount of 
greenhouse gas emissions from our transportation sector alone 
is greater than almost every other single nation's total 
emissions. Now, at a time when we should be strengthening 
vehicle emission standards to protect our most vulnerable 
communities from the worst effects of climate change and air 
pollution, the Trump administration's EPA is once again 
abdicating its responsibility to protect public health and the 
environment. Instead, they are proposing a rule change that 
benefits no one except for the oil and gas industries.
    So having said that, according to American Lung 
Association's most recent State of the Air Report, nearly 4 in 
10 Americans live in areas with dangerous air pollution. My 
district might not be home to major auto manufacturers or 
suppliers, but it is home to over 700,000 Brooklynites, whose 
health is threatened by this proposal.
    Mr. Wehrum and Ms. King, with a simple yes or no, would you 
agree with the medical community's determination that tailpipe 
pollution is linked to numerous health problems, such as 
aggravated asthma and other respiratory and cardiovascular 
conditions?
    Ms. King. Congresswoman, from the proposed rule, if we 
finalized a flat standard, there is no noticeable impact to net 
emissions of smog-forming or other criteria air pollutants. 
There is no impact.
    Ms. Clarke. But would you agree that it would be a health 
concern----
    Ms. King. In this rulemaking, no.
    Ms. Clarke [continuing]. Such as for those with aggravated 
asthma and other respiratory and cardiac-cardiovascular 
conditions?
    Ms. King. The impacts of this rulemaking, no, I do not 
agree, as the modeling and science show us.
    Ms. Clarke. Currently. So you are saying that with this 
rule, we are going to be decreasing the emissions, we are going 
to be decreasing the number of individuals who will be impacted 
by tailpipe emissions?
    Ms. King. I am glad you asked. It is about the same, and 
the reason for that is, if cars are----
    Ms. Clarke. So then you have answered my question.
    Ms. King. [continuing]. More expensive, people can't afford 
to buy a new car.
    Ms. Clarke. You have answered my question. It is not going 
to abate it.
    Mr. Wehrum, yes or no?
    Mr. Wehrum. Excuse me, I didn't have my mic on.
    You are asking simple questions about complex issues.
    Ms. Clarke. OK.
    Mr. Wehrum. No, we are balancing----
    Ms. Clarke. All right, if we can't----
    Mr. Wehrum. We are balancing highway safety against 
environmental----
    Ms. Clarke. If we can't even talk about health concerns----
    Mr. Wehrum. No, we are not going to put blinders on.
    Ms. Clarke. Yes.
    Mr. Wehrum. We are not going to put blinders on and seek 
additional emission reductions to the exclusion of what our 
analysis predicts to be substantial----
    Ms. Clarke. OK, let me----
    Mr. Wehrum [continuing]. Impacts on highway safety, 
fatalities, and----
    Ms. Clarke [continuing]. Move on. Let me move on. You are 
not going to filibuster here today. You are not going to 
filibuster. I am going to reclaim my time.
    Are you both aware of how premature death rates among white 
children with asthma compare to those among black and Latinx 
children with asthma, yes or no?
    Mr. Wehrum. I haven't seen the latest data.
    Ms. Clarke. OK. Well, it turns out that Latinx children are 
twice as likely to suffer from asthma than their white peers. 
African American children are 10 times more likely.
    These stark public health consequences are the primary 
reason that my home State of New York adopted California's 
Clean Car Standards in 1993, 26 years ago, to improve air 
quality, clean up our communities, and protect our children.
    I only have 13 seconds left, but I think that you know this 
is a very critical issue for our communities. And as cities 
continue to grow and to expand, you have an obligation to know 
these stats. You have an obligation to know this information, 
because at the end of the day, the rulemaking that is taking 
place here will have an impact on human life.
    Ms. King. Your constituents won't be able to----
    Ms. Clarke. Madam Chair, I yield back.
    Ms. King [continuing]. Afford a clean, new, safe car. We 
want to----
    Ms. Schakowsky. She has yielded back.
    And now I recognize Congressman Long for 5 minutes.
    Mr. Long. Thank you.
    Ms. King, I drive a midsized SUV. It is 13 years old, and 
that puts me right along with most of my constituents. And the 
average age of a registered vehicle in my district is almost 14 
years old. So I guess when the 2020s come out, mine will be 14 
years old.
    When people are deciding to purchase new vehicles, a lot of 
them are buying trucks and crossovers. Three out of every 1,000 
vehicles purchased are electric. With a rural district like 
mine, a person's car is not just a means of getting around, it 
is oftentimes their business and their livelihood.
    When I was a real estate broker and auctioneer for 30-some 
years before I came to Congress, on average I put 35,000 miles 
a year on my car, and I very rarely got out of what is now my 
congressional district. It is about 100 miles across and 100 
miles deep. And so I know what it is like to make your living 
out of your car and driving 35,000 miles a year in a pretty 
limited area.
    In your opinion, how did the previous administration's CAFE 
standards impact people like those in my district, and me in my 
life before Congress, who are looking to purchase a new car?
    Ms. King. Certainly, a regulation was estimated and seemed 
to have added to the price of the car somewhat. But it is 
important to recognize and distinguish between the standards 
that have been executed to date and the future standards.
    The standards that were issued by the prior administration 
had a slow ramp-up in fuel economy, and we are now at the point 
where it would dogleg up, and shoot up, and become very costly. 
So, whereas the historically implementing fuel economy 
standards did not appear to take new cars--new cars are more 
expensive than they have ever been, but we are about to see 
where the standards are completely infeasible.
    So my hope is that we have at least assured both safety and 
fuel economy improvements in recent years, but we have to be 
mindful before going up that dogleg to a very steep fuel 
economy improvement that would raise the price of a newer, 
safer, cleaner car, make it out of the reach of an American 
family.
    Mr. Long. OK. Staying with you, Ms. King, in my estimation, 
the Safer Affordable Fuel Efficient, SAFE, Vehicle Rule sets a 
more realistic goal for automakers to achieve, considering less 
than a quarter of major automakers met the performance targets 
for the model year 2017 under the CAFE standards. However, 
should more automakers reach the new goals, does it say 
anywhere in the new SAFE Vehicle Rule that once an automaker 
achieves the model year 2020 standards for miles per gallon, 
they can no longer continue to innovate further and increase 
the average mile per gallon of their fleet?
    Ms. King. Automakers can, and should, and I believe will 
continue to innovate to meet consumer demand and safety 
improvement requirements.
    Mr. Long. Aren't car companies incentivized to make safer 
and better cars, based on consumer demand instead of Government 
mandates?
    Ms. King. We, as consumers, depend upon it.
    Mr. Long. There is a lot of----
    Ms. King. Yes.
    Mr. Long [continuing]. Competition out there in the auto 
world, as you know, and I think that they all want to innovate 
and improve their miles per gallon as much as possible.
    So thank you, and I yield back.
    Ms. Schakowsky. I am happy to yield now, for 5 minutes, to 
Congresswoman Dingell.
    Mrs. Dingell. Thank you, Madam Chair. Thank you for 
organizing this hearing today.
    Before I begin my questions, just in case you didn't know 
it, I want to make one thing perfectly clear. One National 
Program for fuel economy with strong reasonable standards that 
increase year over year and balance between goals of 
environmental protection and affordability are critical. Strong 
fuel economy standards have kept our environment clean, reduced 
our dependence on foreign oil, and have saved consumers money 
at the pump.
    The administration's proposed rule has listed several 
options, the most unacceptable being the flatlining of fuel 
economy standards. Flatlining is harmful to American leadership 
and innovation, as well as the environment.
    Additionally, the administration needs to respect, it just 
needs to respect California's role in the process. I am saying 
this as a Michigander who has had real--you know, it has been a 
history. And you have got to treat them as an equal partner in 
negotiations, rather than revoking their waiver under the Clean 
Air Act, which would result in years of litigation and 
uncertainty for an industry and their employees across the 
country that simply can't take this uncertainty.
    I am really not interested in a pissing contest between 
California and this administration, to be perfectly blunt. And 
I take offense at this letter because I care about this and, 
just like I have nagged you two and everybody else in the 
administration, I have talked to Mary Nichols regularly, and I 
know she has wanted to come back to this table. And you all, 
quite frankly, have not put this table together, and it really 
bothers me.
    I understand that you don't believe California has got a 
right to regulate in this space, but we do know that cutting a 
deal with them can save the industry money, give them more 
certainty, and reduce emissions as well. That is why they have 
written you a letter, and that is why they have written 
California a letter, and said we need one standard.
    Mr. Wehrum and Administrator King, what is more important 
to this administration, scratching your ideological itch by 
picking a fight with California or solving a problem by cutting 
a deal that maximizes environmental benefits and affordability?
    Ms. King. Executing the laws given by Congress that we 
execute in the executive branch.
    Mrs. Dingell. Mr. Wehrum, and your law is clear.
    Mr. Wehrum. Yes, ma'am. The President gave us two 
overarching instructions with regard to this rule: one, he 
instructed us to go try to make a deal with California. Last 
year, he said, ``Go try.''
    Mrs. Dingell. Yes, I know he did.
    Mr. Wehrum. And he said, ``Get this rule done.''
    So, from my perspective, we made an honest and a good-faith 
effort to find----
    Mrs. Dingell. Even the industry doesn't believe that, Mr. 
Wehrum. I talk to everybody every single week, and that is why 
I am coming at all of you. American people are tired of 
conflict. They are tired of partisan bickering. They want us to 
get something done. They want us to come up with practical 
solutions to practical problems. It is not rocket science.
    The Obama administration put 5 percent increases. You are 
proposing a flat line. There is not a way to compromise 
someplace in here? Would you two commit if we hear Mary Nichols 
on the next panel say she is willing to go to the table, will 
you commit to resume discussions immediately on a compromise, 
yes or no?
    Mr. Wehrum. My answer is we will keep doing what the 
President said. So----
    Mrs. Dingell. So I have to call the President and ask him 
to ask you to go back to the table?
    Mr. Wehrum. No, no, no, no. He said make a good-faith 
effort. So I am willing to go----
    Mrs. Dingell. Well, I don't think your effort has been in 
good faith.
    Mr. Wehrum. Well, I disagree, but I am willing to continue 
making a good-faith effort, but I am also going to get this 
rule done as soon as I can.
    Mrs. Dingell. So if she says she will come to the table, 
can we get that--and the autos want you to go. What is it going 
to take?
    Ms. King, would you go back to the table?
    Ms. King. I don't know whether that would actually achieve 
the goal. I think it would be--first of all, of course, we did 
meet for more than a year, or did meet for about a year. I----
    Mrs. Dingell. And then you stopped.
    Ms. King. I would be concerned about the uncertainty for 
automakers, should this rulemaking be dragged out for several 
more years.
    Mrs. Dingell. But they are worried about the uncertainty. 
If it is going to be dragged out, this is going to the courts. 
You and I both know that this is going to end up in the courts, 
and that is an uncertainty they don't want, and they have 
written you and written the President and told people that that 
is not what they want.
    Ms. King. In my experience, these rules tend to go to the 
courts, regardless of whether or not----
    Mrs. Dingell. This rule is going to the courts.
    I am just going to make--you know, the auto industry is 
really fragile right now, and that is a message I want 
everybody here to take too. And we can't take its health for 
granted.
    President Trump came to my State. He promised we would 
improve manufacturing in this country, yet everything you do 
creates chaos. Trade is creating chaos. The lack of clarity in 
the rule for autonomous vehicles, which this committee and the 
House did pass, and now your two agencies are seeking to throw 
another wrench into this mix with misguided proposal on fuel 
economy, revoking California's waiver, flatlining the standards 
will take years to litigate and will cost this industry a 
significant amount in regulatory uncertainty and the inability 
to move ahead.
    I urge you to go back to the table, please.
    Thank you, Madam Chair.
    Ms. Schakowsky. Thank you, and I now recognize Mr. Bucshon 
for 5 minutes.
    Mr. Bucshon. Thank you. I mean, based on what my friend 
just said, it sounds like if we would just give into 
California, as a country, then we wouldn't have a problem. 
Unfortunately, the Constitution doesn't say that.
    I also want to talk about what Mr. McKinley said about 
Congress and usurping our authority. I totally agree with him. 
We have passed, over the last few Congresses, through the House 
what is called the REINS Act, which would give Congress the 
ability to approve rules and regulations that have more than 
$100 million impact on our economy, and Democrats haven't 
supported it. So maybe they want to reconsider. I think it had 
something to do with the fact that it was the Obama 
administration that didn't want it. Now we have Trump 
administration, and here we have conflict again.
    As a Congressman in the 8th District of Indiana, this 
hearing is important, and it directly impacts the Hoosiers 
across all 19 counties. In my district, the auto and auto 
supplier manufacturers provide 191,495 jobs, and that changes, 
obviously, to Hoosiers, who contribute more than $15 billion to 
Indiana's gross domestic product each year, the second highest 
in the Nation.
    It is imperative that the CAFE standard creates certainty 
and uniformity. I do, I agree with that. And while we must take 
steps to curb emissions, we want to make certain that standards 
are feasible for the industry and address technological 
constraints in the current market realities within the 
industry, which have been described by both of you.
    I wanted to directly bring up some concerns, though, about 
some statements in the NPRM on the statement of rationale that 
suggested that lightweighting vehicles is unsafe. This is in 
contradiction to two NHTSA studies from 2012 and 2017, where 
researchers concluded that lightweight materials meet or exceed 
Federal safety performance requirements. Furthermore, the 
statement puts at risk many high-skilled jobs, potentially, in 
Indiana in my congressional district.
    I would request that you would consider removing this 
language from the NPRM, since it is contradicted by studies 
from NHTSA. Can you comment on that, Ms. King, and then Mr. 
Wehrum?
    Ms. King. Lightweighting is very important. It is not 
unsafe. Lightweighting is one of the most, and I believe it is 
the most cost-effective way to achieve increased fuel economy. 
So lightweighting is not unsafe. However, the laws of physics 
do apply. If I have one cup here of paper and an identical cup 
of lead and the two met, the lead cup, physics tell us, may 
endure better. So weight does matter because, when two objects 
collide on a street, the lighter weight object is likely to 
suffer more----
    Mr. Bucshon. I would agree, but if you crash a '57 Chevy 
into a new automobile today, which one is more likely to cause 
injury to the passenger?
    Ms. King. The newer cars are safer than older cars, and 
over time, because of the innovations and engineering, the 
relationship between safety and lightweighting has been broken, 
basically. So engineering techniques, safety technology, cars 
have never been so safe.
    Mr. Bucshon. Agreed.
    Ms. King. I go back to lightweighting is not unsafe. 
Physics still apply, but lightweighting is not unsafe.
    Mr. Bucshon. OK, Mr. Wehrum.
    Mr. Wehrum. I agree with Ms. King.
    Mr. Bucshon. OK, great.
    Mr. Wehrum. She is the safety expert.
    Mr. Bucshon. Thank you for that. I just want to--you know, 
like I said, you crash a '57 Chevy into an automobile today, 
which has a lot of plastic, aluminum, other lightweight 
products in it, it is more likely, for a multitude of reasons, 
why the lighter vehicle actually results in more safety for the 
passenger than the heavier, all-steel vehicle that we have had 
in the past.
    So this is for Mr. Wehrum. On January 12, 2017, 8 days 
prior to President Trump's inauguration, the Obama 
administration implemented the final determination of the 
midterm evaluation, as we have talked about, providing only 30 
days for public comment and 13 days for the administration to 
review those comments--13 days.
    Mr. Wehrum, can you discuss how--is it feasible on 
something this complex for the EPA to review and address all 
the comments in 13 days, in your view?
    Mr. Wehrum. In my view, it is virtually impossible to do a 
good job in 13 days.
    Mr. Bucshon. And so did this play a role in the reasoning 
for reopening the midterm evaluation, the expediency of this 
proposal?
    Mr. Wehrum. The decision was made before I joined the EPA, 
but from discussing the issue with Administrator Pruitt, it is 
very clear he was concerned that there was a rush to judgment, 
and it is very clear he was concerned, as I said earlier in 
this hearing, that fundamental things had changed and that 
those changes had not been adequately considered. So, we 
believe there was a firm, firm basis for reconsideration.
    Mr. Bucshon. OK, I yield back. Thank you.
    Ms. Schakowsky. And now I recognize Mr. Soto for 5 minutes.
    Mr. Soto. Thank you, Madam Chairwoman.
    A bleeding-heart liberal chairman, Bill Ford, stated his 
company, the Ford Motor Company, didn't want to roll back and 
supported increasing Clean Car Standards through 2025. The cost 
of not believing in climate change, quote, ``is just too 
high.'' So it kind of makes me curious why we are here today. 
Why are we rolling back standards when even major industry 
leaders aren't asking for it? And we would be lowering people's 
gas bills at the pump.
    And I think a little back to the fact that, from the 
enactment of the Clean Air Act in 1963, under Johnson, through 
Obama we have had this progress made. So why are we pulling 
back? I mean, it is an aberration, I think, in history. We are 
going to look back on this period and say, ``Why?'' And I 
empathize because you all have to do what President Trump tells 
you to do. So I get the position you are in today. But, 
nonetheless, we have to talk about these things.
    So we saw the rollout of the Affordable Clean Energy Rule, 
potentially a misnomer, that will lead to higher emissions than 
the EPA initially anticipated in the proposal. The increased 
carbon pollution resulting from this rollback would be equal to 
the annual emissions to 82 percent of the counties on Earth. 
That is a lot.
    Ms. King, NHTSA used a new model to calculate fleet 
turnover. Why would you use a new model, and was this method 
ever peer-reviewed before you used it?
    Ms. King. Over the many years of issuing fuel economy 
standards, since NHTSA was first directed by Congress to do so, 
we used modeling econometrics and statistical analysis to 
inform the statutory factors. So the model we used is one that 
has been--the primary model--has been used in prior 
rulemakings. And each time we use that model, we take public 
comment, we hear from experts how we can improve it, and we 
continue to improve it.
    Two of the improvements this time are accounting for 
vehicle turnover and accounting for consumers responding to 
price changes. And that is because we know that consumers are 
less likely to replace their older, less safe car with a newer, 
cleaner, safer car if that newer, cleaner, safer car is 20 
percent more expensive.
    Mr. Soto. Why did NHTSA exclude several pieces of valuable 
modeling data, notably the fleet turnover model, from the 
public docket?
    Ms. King. I don't know what you are referring to, but we do 
take very seriously scrutinizing all public comments. And 
everything that can improve the model that is backed in facts, 
and science, and rigorous methodology, and can be done with 
available resources, we will incorporate.
    Mr. Soto. So you have the world-class OMEGA model that is 
being used by the EPA. Why wasn't that used for the modeling?
    Ms. King. So Congress directed fuel economy standards to be 
established by the National Highway Traffic Safety 
Administration, or NHTSA, and the CAFE model was developed 
exclusively for that purpose. We work with EPA. We work with 
Department of Energy. It has been peer-reviewed. It has been, 
for many years, publicly available. It performs--I understand 
from career staff comments, given identical inputs it would 
provide similar outputs to the OMEGA model.
    But we did decide to use one model for this rulemaking 
because the public found it confusing to be navigating multiple 
models in prior rulemakings, and essentially we are 
representing that newer cars are safer than older cars, that if 
you increase prices, consumers are less likely to afford a new 
car, and fundamentally, more expensive, rigorous technologies 
to meet stringent standards would increase the price of a car.
    Mr. Soto. Thank you, Ms. King. My time is limited.
    I guess the concern is that adding in these new economic 
factors is really--can fudge the numbers, can cook the books, 
could get to a desired result.
    Mr. Wehrum, do you believe that NHTSA's unproven modeling 
was ready for prime time, or would EPA's OMEGA model have done 
the trick, as it has in the past?
    Mr. Wehrum. Well, as Ms. King just said, we decided early 
on we would use one model and not two models. It doesn't make 
any sense to keep two sets of books here.
    And we have been working hard----
    Mr. Soto. OK, thank you. Thank you, Mr. Wehrum. Forgive me, 
my time is limited.
    The last thing I just want to comment about is, we saw that 
long list of fossil fuel regulations rolled out, and I worry, 
you know, this rhetoric about a rural and urban divide in 
vehicles--big vehicles in the rural areas, smaller vehicles in 
urban areas--but these hurricanes don't discriminate. The 
floods in the upper Midwest don't discriminate. The tornadoes 
in the lower Midwest--you know there is going to be a longer 
list of disaster victims, of climate change victims, than that 
fossil fuel regulation list ever was, if we don't come 
together. It is not whining to combat climate change. It is our 
job.
    And I yield back.
    Ms. Schakowsky. Thank you.
    I recognize Mr. Duncan for 5 minutes.
    Mr. Duncan. Thank you, Madam Chair. And I want to thank 
both of you for being here. It has been an interesting hearing 
to listen to.
    I think there are a lot of misconceptions perpetuated by 
some of the media and the other side related to the SAFE Act. 
This was not so much a rollback of regulations but an effort to 
maybe correct the course, regulatory assumptions that swung and 
missed on the realities of the market and what consumers want 
to drive.
    Look, I am from South Carolina. I am in a rural district. 
Billy Long was in the auction business and was a broker. I was 
in the auction business and a broker. He drove 35,000 miles. I 
drove about 65,000 miles chasing business. I drive a Chevy 
Duramax diesel truck now to this day because of it.
    In my district, according to Auto Alliance, almost 50 
percent of my constituents that own a vehicle either drive an 
SUV, a pickup truck, or a minivan; 99 percent of the vehicles 
in my district are gasoline or diesel; 0.02 percent are 
electric vehicles.
    This breakdown is emblematic of several of the Obama 
administration misconceptions that they based their 
aggressively high standards on. People in rural America do not 
want electric vehicles because they don't fit their lifestyle, 
their pocketbook, their needs, and they don't have the charging 
availability. People in rural America don't own small vehicles. 
Many of the jobs that my constituents have, they require pickup 
trucks or bigger vehicles.
    The median household income in my district is just over 
$47,000, but the price of a new vehicle continues to increase 
and they are now above $37,000. Go price a new pickup truck, a 
Chevy Duramax diesel right now, and tell me what that cost is 
going to be, if you need that in your job. Maintaining the 
Obama-level standards will price the middle class of America 
out of the new vehicle market.
    Now, I was thinking about an analogy, and I will try this 
one. South Carolina is a right-to-work State. So we don't allow 
the union security agreements, OK? What if the Department of 
Labor was given a tremendous rulemaking and regulatory 
promulgation ability under a broad act like the Clean Air Act 
that gave the EPA these broad rulemaking abilities, and the 
Department of Labor said, ``You know what, we are going to 
reach out and we are going to grab South Carolina's right-to-
work standard, and we are going to make that the standard for 
all the other States''? Because that is what is happening now, 
is this California standard is becoming the standard for all 
the other States, who are sovereign.
    We are a republic. There is federalism. We, the Congress, 
has given a law so that we don't have one State dictating what 
other States have to do.
    But what if the Department of Labor said, ``We are going to 
make all the States adhere to right-to-work laws of South 
Carolina''? I don't think the other States would like that.
    And so I am sitting here listening to a lot of the argument 
on the other side that takes market forces out of the equation 
of what the consumers want, because I believe the vehicle 
manufacturers, they are trying to see what the consumers want, 
and they are building the vehicles that they can sell.
    But we are from the Government. We know best. We are going 
to tell you what you have to build, and we are going to force 
that on the American people. Because that is what is happening, 
is that Government is telling the automobile manufacturers what 
you have to build, regardless of what the consumer market 
wants, what you have to build and what you have to offer.
    We don't want the vehicles that they are selling in Europe. 
Small, tiny roads require small, tiny vehicles, and that is not 
appealing to the American consumer.
    We got to talking about federalism a while ago. And I am 
going to ask Administrator Wehrum, How does cooperative 
federalism factor into the Clean Air Act?
    Mr. Wehrum. Well, there are certain parts of the Act where 
Congress said that is how we should implement it, split 
responsibility between us and the States and local governments. 
And importantly, there are certain parts of the Act where the 
Congress said don't do that.
    And the motor vehicle emission standards are one of those 
places. There are general Federal preemption in place. There is 
opportunity for a waiver for California, but that is under 
particular circumstances. And if those circumstances aren't 
met, then general Federal preemption is in place.
    Mr. Duncan. Administrator King, real quickly, can you 
elaborate on how the California requirements create perverse 
disincentives on the national auto market, things I talked 
about, and not just for choice and affordability, but for 
safety as well? Real quick, you have got 20 seconds.
    Ms. King. We want to make sure that the innovators are 
focusing not only on fuel economy but on safety and other 
attributes that consumers value, and not only on that one 
dimension of fuel economy.
    Mr. Duncan. Thank you both for being here.
    And, Madam Chair, I yield back.
    Ms. Schakowsky. Thank you.
    And now I recognize Mr. Veasey for 5 minutes.
    Mr. Veasey. Thank you, Madam Chair.
    As we will hear today, the standards implemented by the 
Obama administration are driving innovation, creating jobs, and 
saving consumers thousands of dollars at the pump over the 
lifetime of the ownership of their vehicle, and not to mention 
it is a major victory for the things that we are trying to 
accomplish for the environment. Despite these benefits, the 
Trump administration seems intent on rolling these standards 
back.
    Mr. Wehrum--am I pronouncing that right, Mr. Wehrum?--and 
Ms. King, I assume that you have both seen the letter from the 
automakers to President Trump opposing the administration's 
actions. You both have seen the letter?
    Ms. King. I have not seen the letter from consumers or the 
public to the President, only from the automakers.
    Mr. Veasey. You have seen it from the automakers. The 
letter states that the automakers support a unified standard 
that both achieves year-over-year improvements in fuel economy 
and facilitates the adoption of vehicles with alternative power 
trains.
    Do you agree with the automakers on the value of these 
goals? If not, why?
    Ms. King. We must comply with the direction that Congress 
gave us, which is to include economic factors and which is to--
--
    Mr. Veasey. So do you disagree with the automakers?
    Ms. King. I agree in some parts and not in other parts. But 
again, I want to be very clear about the mission of NHTSA is to 
serve the public, 327 million Americans, and not one specific 
private-sector entity.
    Mr. Veasey. Mr. Wehrum, do you agree with the automakers?
    Mr. Wehrum. We have tried real hard to get to a deal.
    Mr. Veasey. Do you agree with the automakers?
    Mr. Wehrum. Well, their letter says keep trying. And I said 
earlier in the committee that the President said that we should 
try, and I am willing to do that. The President also said get 
the rule done, and I am working on doing that.
    Mr. Veasey. The letter goes on to say that, ``for our 
companies, a broadly supported final rule will provide 
regulatory certainty and enhance our ability to invest and 
innovate by avoiding an extended period of litigation and 
instability, which could prove as untenable as the current 
program.''
    Do you agree with the industry that the litigation, that is 
certain to occur as a result of these new proposed rules, will 
be extremely costly, create uncertainty, and make investments 
more difficult? Either.
    Mr. Wehrum. Well, I will start. I can't control whether 
anybody challenges a final rule that I issue, and, frankly, 
virtually every final rule I issue gets challenged by somebody. 
So the fact of litigation doesn't change my thinking.
    Mr. Veasey. So you don't think the litigation is going to 
stifle that?
    Mr. Wehrum. Well, I was just going to say the fact of the 
litigation doesn't influence the decisions. We have to decide 
under the law, based on specified factors, and that is what is 
most important. And if we can avoid litigation, that is great, 
but it is awfully hard to do in my business.
    Mr. Veasey. In a regulatory filing in 2018, Shell Oil 
Company said improving fuel economy is an important lever for 
reducing DHG from vehicles while emerging technologies continue 
to develop. To date, efficiency standards have demonstrated the 
greatest impact on CO<INF>2</INF> abatement in transport 
relative to other policies.
    Do you agree with Shell that the fuel economy standards are 
one of the strongest tools we have in the fight against climate 
change, Ms. King?
    Ms. King. Forgive me. Do I agree with Shell that fuel 
economy standards are one of the most important----
    Mr. Veasey. Do you agree with Shell that fuel economy 
standards are one of the strongest tools we have in the fight 
against climate change?
    Ms. King. Based solely upon the analysis completed by NHTSA 
and EPA together, I would have to disagree only because, if you 
will see in the proposed rule analysis, there is almost no 
impact whatsoever on climate change between the proposed 
standard and the preferred alternative because of the impact of 
price that many families cannot afford a cleaner, safer, newer 
car with a strict price increase. So that means that we have 
the choice of either keeping families in older, dirtier cars or 
helping them get into newer, cleaner cars. That is where the 
impact comes.
    So there is very, very little climate impact associated 
with this rulemaking.
    I believe they may be referring to transportation more 
broadly, which I believe is responsible for between 25 and 30 
percent of anthropogenic carbon emissions in the U.S.
    Mr. Veasey. And I understand that bringing more of these 
cars to scale makes them more affordable for a lot of the 
families, as you just mentioned.
    Ms. King. It depends.
    Mr. Veasey. Madam Chair, I wanted to also state for the 
record that myself and Congressman Ron Wright, a Republican 
from Texas, we both share General Motors' most profitable plant 
in their entire division. We make the SUVs in Arlington, Texas, 
the Tahoes, the Denalis, the Suburbans, and I will do anything 
that I can to make sure that that plant stays open and that it 
stays operating. It has been a plant that has been a very 
stable employer, particularly for many people in the black and 
Hispanic community. And I don't think that these standards that 
we are trying to put into place and keep in place that will 
keep our environment clean is going to harm the workforce at 
that facility in Arlington, Texas.
    Thank you, Madam Chair. I yield back.
    Ms. Schakowsky. Thank you.
    Now I recognize for 5 minutes Mr. Carter.
    Mr. Carter. Thank you, Madam Chair.
    And thank both of you for being here. Obviously, it is a 
very important subject.
    Ms. King, I was struck earlier in your testimony by your 
concern of safety and some of the figures that you cited about 
the number of fatalities having gone up, and I couldn't help 
but think to myself about what has changed. And one of the 
things that I know--and full disclosure, I am adamantly opposed 
to the recreational use of marijuana and particularly those 
States that allow that. And impaired driving is something that 
is of concern to me. And being on the Health Subcommittee and 
being currently the only pharmacist serving in Congress, the 
opioid epidemic is something that I have worked diligently on.
    And I am wondering, what role does NHTSA have in any of 
this? Is there anything that the Agency can do to help in this 
fight?
    Ms. King. Very much so, and we have been very active since 
I took office at the National Highway Traffic Safety 
Administration. First, we launched a campaign demonstrating 
Federal leadership in educating the public that driving 
impaired by any substance, whether it be marijuana, opioids, 
pharmaceuticals, or illicit drugs, is dangerous.
    We have also increased our support for local State 
programs, Offices of Traffic Safety grant monies, support for 
law enforcement, whose activities to identify impaired drivers 
and remove them from the roads. We support prosecutors who help 
make sure that, if there is a repeat offender, an impaired 
driver, that they have the tools, they are educated and have 
the tools to make sure that driver is directed appropriately in 
court.
    So we have been supporting not only public education, but 
the system at the State and local level that can remove those 
dangerous drivers from our roads. I believe it starts with 
public education, because the market research has shown us 
again and again that marijuana users, in particular, think they 
drive better when they are high and yet, when they are in a 
test simulator, the evidence shows they are impaired. They are 
not driving better. They are slower to decide. They make bad 
decisions and their reaction time is slowed.
    Mr. Carter. Absolutely. I can't believe anyone would assert 
anything to the contrary.
    Nevertheless, is there any technology? You know, you get to 
alcohol and you have got the breathalyzers and you have got, 
you know, we can lock the steering wheels and everything. Is 
there anything technologywise that can help us with something 
like that----
    Ms. King. There are numerous technologies----
    Mr. Carter [continuing]. Specifically the marijuana, and 
opioid use, and impaired driving?
    Ms. King. Of course, blood tests can show the evidence of--
--
    Mr. Carter. But you can't take a blood test before you 
crank a vehicle every time.
    Ms. King. Oh, I understand. So there is not something that 
is related to actually stopping operation of a vehicle. There 
are roadside tools being developed. There is something, oral 
fluid testing, where something like a swab can test for active 
THC or other marijuana constituents. And we should be issuing a 
report soon that discusses some of those technologies.
    Mr. Carter. But no kind of technology on the car itself 
that NHTSA might be able to say, you are going to have do this 
or do that?
    Ms. King. Not yet. We have for alcohol. We have supported 
innovations that can detect alcohol on the presence of breath 
and that can be related to whether or not the vehicle can be 
operated, but that has not been developed for marijuana. Not 
yet.
    Mr. Carter. Well, and I do thank you for your efforts on 
that, because it is something that is very important, and 
should be very important to all of us, and certainly something 
that is very important to me.
    Mr. Wehrum, I would like to ask you very quickly, it looks 
like, from what I understand, the proposed SAFE Rule that 
should be finalized sometime soon freezes targets at the model 
year 2020 levels. And I understand that, but yet we are still 
going to, from what I have gathered hearing here that, by 2026 
because of certain elements, if you will, certain changes, that 
we are still going to be able achieve the decrease in emissions 
that was proposed by the previous administration. How is that? 
How can we possibly do that?
    Mr. Wehrum. Well, part of what we are trying to do with the 
rule is make it cleaner and simpler. And I will give you an 
example of something that effects the standards on paper versus 
what they do in real life, which is for every electric vehicle 
sold, it counts as more than one vehicle for compliance 
purposes. And that doesn't produce any additional emissions 
reduction. That is purely an accounting exercise for purposes 
of trying to promote the development of electric vehicles.
    So that is one example of where you look at the paper and 
it looks like, you know, that the current standards are 
considerably more stringent than the alternatives we have 
proposed, but when you take into account the practical reality, 
it is not so much.
    Mr. Carter. Well, good. Again, I want to thank both of you 
for doing this.
    I am one who believes that this is what we should be doing 
when we come to policies and, particularly, legislation. I have 
never seen a perfect piece of legislation. It has to be 
tweaked. It has to be massaged over time, and I think that is 
exactly what we are doing here, and I applaud your efforts and 
thank you.
    And I yield back.
    Ms. Schakowsky. I now recognize Congresswoman Blunt 
Rochester for 5 minutes.
    Ms. Blunt Rochester. Thank you Madam Chairwoman. And thank 
you to the panelists.
    I wanted to first start my questions to Deputy 
Administrator King. Also, I wanted to thank Congressman Tonko 
as well for this joint hearing.
    I wanted to first direct my questions to you. And there 
were more surrounding NHTSA's rulemaking and setting of 
standards. And it is my understanding, and you can just confirm 
or deny, that NHTSA was to set a standard on side impact 
requirements for child restraints systems by October 1, 2014. 
Are you familiar with that?
    Ms. King. I am familiar with the rulemaking but not the 
date, and I am familiar with the work. As you know, these very 
important safety rules that rely on engineering, we have to get 
them right if we are going to save lives. And so research is 
involved in developing the rules.
    Ms. Blunt Rochester. OK. And then the rear seatbelt 
reminder rulemaking was due October 1, 2015. Are you familiar 
with that one?
    Ms. King. I am familiar. And similarly, we want to make 
sure we are making decisions from the best possible 
information.
    Ms. Blunt Rochester. And then the rulemaking ensuring that 
consumers are notified of safety recalls via email, in addition 
to the mandate requiring consumer information about crash 
avoidance technologies to put on vehicle labels.
    I guess the line of questioning is really to ask, how do 
you prioritize? What is the process that made NHTSA really 
focus less on these congressional mandates that are in the 
pipeline and change the CAFE standards? How did you come to 
that determination of the prioritization?
    Ms. King. First, I am pleased to find a fan of our safety 
rulemakings. They are very important to us, and our teams work 
very, very hard. I can't say that it is--we issue the 
rulemakings when we are ready.
    With vehicle technology, vehicles are more complicated than 
they have ever been before. They now are among the most complex 
digital products that each of us own--not our computers, but 
our cars. So when we are responding to congressional direction 
to issue a new rulemaking, we have to make sure that the 
researchers design and do research to inform that rulemaking so 
we don't accidentally issue a standard that could have 
unintended consequences, including unintended safety 
consequences.
    So we have research in progress. Oftentimes, the 
rulemakings on our regulatory agenda that are not meeting 
timelines, that is because the engineers at NHTSA and the 
academic universities are finishing the research that will 
inform the rulemaking.
    Ms. Blunt Rochester. So basically, you are saying these 5-
year-old missed deadlines are because you are waiting for 
external forces to influence and that the change in the CAFE 
standards, which seems to be complicated as well----
    Ms. King. Yes, and a different team. We have a dedicated 
team on the fuel economy standards. Now these, the folks 
working on this, the engineers, rulemaking, they have an 
expertise in fuel economy engineering. We have a team of 
vehicle safety research engineers that work on the other 
research to inform rulemakings.
    I am happy to sit with you or have my team sit with your 
staff and walk through all of our rulemakings. But I will say 
we will always be science- and data-driven to make sure we do 
the right thing for safety.
    Ms. Blunt Rochester. Well, one of the concerns I have is 
that, when it is 5 years out and they are congressional 
mandates, that is a concern, and 40,000 deaths on the roads 
really, in our country, is a priority, particularly when we are 
trying to decrease the standards of something that have, I 
think, been for the betterment of our country.
    And I want to turn now to Mr. Wehrum, because I wanted to 
follow up on Ms. Clarke's line of questioning. In the State 
where I am from, Delaware, we are one of the lowest-lying 
States in the country, and so we are the lowest, and it is--the 
whole issue of air pollution is a priority for us, especially 
emissions of nitrogen and sulfur oxides from other States that 
travel across State lines and settle over Delaware. Twenty-five 
percent of children in the city of Wilmington have been 
diagnosed with asthma. The rate is nearly 30 percent for 
African American children in my State.
    And my first question is really just a yes-or-no question, 
which is: Is the EPA mandated to consider public health when 
developing environmental regulations? Is the EPA mandated?
    Mr. Wehrum. Of course.
    Ms. Blunt Rochester. Yes. And then, will this proposed 
rule--this is also yes or no. Will this proposed rule, if 
promulgated, result in the increase of emissions of more 
localized air pollutants?
    Mr. Wehrum. As Ms. King pointed out, it is a mixed bag. Our 
projection says some pollution would go down and a couple of 
pollutants would go up. And when you put it all together, it is 
kind of a wash.
    Ms. Blunt Rochester. So, Mr. Wehrum, please, in the Federal 
Register, you actually stated that it ``will increase emissions 
of more localized air pollutants (or their chemical 
precursors).'' That was in the Federal Register, Volume 83, 
Number 165, page 4,367.
    Chairman Schakowsky, I ask unanimous consent to submit a 
copy of the Federal Register that I am quoting from.
    Ms. Schakowsky. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Ms. Blunt Rochester. Thank you.
    I just want to end up, because I know my time has run out, 
by saying we, as a country, want to be improving, not just 
maintaining or going backwards. And so I hope that this hearing 
will impress upon you the importance of it, not just for my 
State, not just for our country, but for the world.
    Thank you and I yield back.
    Ms. Schakowsky. Thank you.
    And now, Mr. Gianforte, you have 5 minutes for your 
questions.
    Mr. Gianforte. Thank you, Madam Chair. Thank you for our 
panelists being here today.
    Administrator King, could you explain how costly 
regulations for fuel economy standards are forcing Americans to 
stay in older cars longer?
    Ms. King. I am happy to. Today, vehicles are more expensive 
than they have been in memory, certainly, more than $37,000 is 
the average price of a new car.
    Now, because vehicles have been developed to last for a 
while, the average age of our cars is also older. It is almost 
12 years now. So one could say nobody needs a new car. There 
are more cars licensed to operate on our roads than there are 
adults, about 270 million cars licensed to operate on our 
roads, about 240 million drivers with driver's licenses.
    So the question is, How do you get folks into newer, safer, 
cleaner cars to have the environmental safety and fuel economy 
benefits? Raising the price is not going to get people into 
newer cars. We know that consumers are price-sensitive because 
they have fixed budgets. So increasing the price of a new car 
will reduce safety and not help with the other goals either.
    Mr. Gianforte. Could you explain a little more about how 
people staying in older cars longer impacts safety?
    Ms. King. Newer cars include technologies, whether it be 
lightweighting or whether it be crash avoidance. There are new 
designs for vehicles that help protect the passenger 
compartment. Airbags, that has been a fantastic innovation to 
improve safety. So we want to make sure that folks have the 
opportunity to buy a newer, safer car and take advantage of 
those technological advances, not only crash protections now, 
but also crash avoidance. Occupant protection and crash 
avoidance can save a lot of lives on our roads.
    Mr. Gianforte. OK, a follow on the same question, except 
related to air quality.
    Ms. King. Yes.
    Mr. Gianforte. What impact does keeping people in older 
cars longer have on air quality?
    Ms. King. Older vehicles are not as fuel efficient. Older 
vehicles, on average, emit more. So the decision or the policy 
that helps get folks into newer, safer, cleaner cars, while of 
course those newer, safer, cleaner cars, if they are a very 
stringent standard, folks may not go into--not as many people 
will buy the newer car. If it is a less expensive standard, 
more people can get into the newer, safer, cleaner cars.
    And the effect on emissions is somewhat of a wash. So for 
the criteria pollutants that are associated with asthma or 
other health problems, particulate matter, ozone, NOx, those 
pollutants, it is all a wash because you get more people into 
cleaner cars when the standard is realistic.
    Mr. Gianforte. OK. Just to put a point on it, you stated in 
your testimony that newer cars are safer, and cleaner, and you 
repeated that here. Is one of the objectives of the SAFE 
Vehicle Rule to get more Americans into the newer cars? And if 
we do that, instead of the negative side, talk about the 
positive side of that. What would the outcome be if we got more 
people in newer, safer, cleaner cars?
    Ms. King. Now of course the standard is set, as it needs to 
be. Congress directed us to make it maximum feasible, which 
takes into account economic practicability.
    So the positive effect of getting folks into newer, 
cleaner, safer cars is not only safety and reduced emission at 
the family level, improved fuel economy at the family level. So 
at the individual family level, there are tremendous benefits. 
And in aggregate, it is a very good option as well.
    Mr. Gianforte. So everybody benefits?
    Ms. King. We believe so, but we have not made a decision 
yet. We are modeling. We are reading the public comments, and 
we are considering all public comments we receive before make 
decisions in the final rulemaking.
    Mr. Gianforte. OK. And then Administrator King, I have a 
real problem with Government dictating consumer choice and 
repetitive, inconsistent bureaucracy increasing cost on 
consumers. Can you explain how the proposed rule is taking 
those concerns into consideration?
    Ms. King. Yes, this is a maximum feasible standard, which 
allows for innovation that suits people who do want highly 
fuel-efficient, battery electric alternative power train 
vehicles, as well as someone who might need a vehicle which is 
large, and powerful, and can help meet their needs in rural 
America, perhaps working in a setting where they don't have 
capability to plug in, charge.
    So we are trying to set a standard that is maximum feasible 
across the entire fleet, taking into account market realities 
and consumer needs, safety, and prices.
    Mr. Gianforte. Our needs in Montana are different than L.A. 
We need four-wheel drive in the winter. We need bigger vehicles 
just for road safety and other things. So I appreciate you 
taking that into account. We shouldn't be telling consumers 
what they can and can't buy. So I appreciate your testimony 
today.
    With that, Madam Chair, I yield back.
    Ms. Schakowsky. Thank you.
    And now, Mr. O'Halleran, you have 5 minutes for 
questioning.
    Mr. O'Halleran. Thank you, Madam Chair.
    First, a little brief statement. I think on your modeling, 
and your safety issues, and stuff like that, I would like to 
know a little bit more. And are you going to allow those to be 
transparent to others within the public of how that modeling 
process works and what information went into the modeling 
process?
    Ms. King. Yes, in fact, it is on our website. It has been 
public for quite some time. It even has videos. You can 
download the model. You can run it. You can watch a video on 
how.
    Mr. O'Halleran. Great. And also I am aware that health 
experts from around this country, hundreds and hundreds of 
them, have clearly indicated that health would be affected by 
this change. And as a grandfather, as a parent, folks, I just 
don't understand how we are going to balance this concern about 
healthcare and then, obviously, experts around the country are 
also concerned about the carbon emissions, and the impact we 
have seen on both our climate, our weather, and the long-term 
viability of some of the systems that we have in our country 
and our health.
    So first of all, Deputy Administrator King, your agency 
received comments from the National Tribal Air Association, 
which has 136 principle member Tribes as participants, opposing 
the proposal to roll back carbon pollution standards and fuel 
efficiency standards. The association urged EPA and NHTSA to 
uphold the current standards.
    Are you aware of this comment?
    Ms. King. I am aware of commenters who have that concern, 
yes.
    Mr. O'Halleran. But this comment here, are you aware of it?
    Ms. King. We had received about 650,000 comments----
    Mr. O'Halleran. OK, thank you.
    Ms. King [continuing]. And I don't remember them all. I am 
sorry.
    Mr. O'Halleran. Thank you. Did your agencies consider the 
impact of this proposal on Tribal sovereignty?
    Ms. King. I am sorry?
    Mr. O'Halleran. Did your consider the impact of your 
proposal on Tribal sovereignty?
    Ms. King. We are required by law to consider so, and so I 
believe that we must have. I don't recall the specific language 
here yet, but there are certain executive orders that apply to 
all regulations which we address rigorously in all rulemakings.
    Mr. O'Halleran. OK, thank you.
    To both witnesses: Is it your intention to finalize a rule 
that will weaken Tribal authority to improve air quality and 
reduce carbon pollution on Tribal lands?
    Ms. King. It is not our intention, no. And I am not 
familiar with the issues that may be raised there. So I would 
be happy to learn more.
    Mr. O'Halleran. Is it because you didn't reach out to the 
Tribal Nations?
    Ms. King. No, that is not so. It is because we have 650,000 
comments.
    Mr. O'Halleran. Well, I will get to that in a second.
    Is it your intention to finalize a rule that will prevent 
Tribes from reducing air pollution and its accompanying health 
problems in their communities?
    Ms. King. That is not an intention, no. Our intention is to 
execute the direction of Congress to the agency to set a 
maximum feasible fuel economy standard.
    Mr. O'Halleran. And Mr. Wehrum, what about you?
    Mr. Wehrum. That is not our intention, Congressman.
    Mr. O'Halleran. Thank you.
    Considering these severe impacts on Tribes, did your 
agencies reach out to Tribes for consultation? Specifically, 
did your agency comply with Executive Order 13175, which 
requires consultation and coordination with Tribal Governments?
    Ms. King. I will check back with my agency and reply to 
you, to make sure I provide the most accurate information.
    Mr. O'Halleran. I am disappointed by the lack of 
consultation. It appears, at least from my perspective, from 
the start, EPA and NHTSA have shut Tribal Governments and 
communities out of discussions about this rule. This is my 
input from--I represent 12 Tribal Nations and the largest 
number of population of any district in the country of Tribal 
members.
    Will your agencies commit to engaging in a Government-to-
Government consultation on this in future actions related to 
carbon pollution and emissions, and air pollution, especially 
considering the unique and disproportionate vulnerabilities to 
climate change experienced by Tribes?
    Ms. King. Our engagement with all partners is very, very 
important to us because safety is where the rubber hits the 
road in our communities, whether they be Tribal, city, county, 
State. So we will continue in all of our programs, whether they 
be regulatory or safety programs, to be very eager to partner 
and hear from our very important partners.
    Mr. O'Halleran. And what about the EPA?
    Mr. Wehrum. I agree with Ms. King.
    Mr. O'Halleran. Thank you.
    And so I just guess that I hope we all agree, eventually, 
on the concerns about healthcare, and climate change, and all 
those other elements, and how they factor into your decisions, 
and how they factor, if at all, into your modeling processes 
into the future.
    So thank you very much, and I yield.
    Ms. Schakowsky. Thank you.
    And now welcome to the subcommittees, Mr. Loebsack, who is 
waiving on, and you are recognized now for 5 minutes.
    Mr. Loebsack. Thank you, Madam Chair. And I want to thank 
Chairman Tonko and the Ranking Members McMorris Rodgers and 
Shimkus for allowing me to waive on today.
    I am doing this for an important reason. I am from Iowa. 
That is corn country, and as you might imagine, Mr. Wehrum, we 
are going to be talking about some things that have to do with 
the RFS.
    And I do want to thank you, first, you and the folks at the 
EPA and the President, who worked to finalize the rule for 
year-round E15. That is something I have been working on since 
I got to Congress, quite honestly. I took the previous 
administration to task on that. I have taken this 
administration to task on that. I am fully bipartisan in my 
concerns because I am from Iowa, and as you might imagine, it 
is very important for us.
    And, unfortunately, the rule cannot possibly undo the 
damage that is being done to the biofuels industry by the 
literal explosion of small refinery waivers that the EPA has 
issued under this administration. We have seen those numbers 
skyrocket in recent years.
    I understand you were with Administrator Wheeler and the 
President in Iowa recently. Is that correct? Did you accompany 
them?
    Mr. Wehrum. Last week, yes.
    Mr. Loebsack. Yes, thank you. Thank you for being there.
    I understand, during that visit, that Kevin Ross from the 
Iowa and National Corn Growers Associations made another appeal 
to the President to listen to farmers and to stop the abuse of 
the RFS small refinery waiver program. I know Kevin very well. 
I know all those corn growers, as you might imagine, very well.
    EPA recently has not denied a single waiver request for 
these small refinery waivers in the last 2 years, and in doing 
so, many have argued that essentially they have destroyed over 
2 billion gallons of biofuel demand, directly hurting farmers 
who grow the corn and soybeans for ethanol and biodiesel, 
respectively.
    EPA has cited the court decision in the Sinclair case as 
justification for granting these additional waivers, but a May 
16th Reuters article--you may have seen that--calls that 
justification into question and indicates that the decision to 
stop denying the waivers was made at least 4 months before the 
Sinclair decision. If EPA's justification was valid, then EPA 
must have adjusted the criteria for evaluating waiver 
applications in response to the court's decision.
    If this is the case, Mr. Wehrum, what are the new criteria 
for evaluating waiver applications, and why didn't EPA provide 
public notice of the change in criteria and obtain public 
comments?
    Mr. Wehrum. Well, Congressman, to my knowledge, the 
criteria we consider are the same as they have ever been, that 
we are ultimately obligated to look at whether there is 
significant economic hardship on the small refineries imposed 
by the RFS program. And we rely a lot on the analysis done for 
us by DOE, as I am sure you know, and they do a very detailed 
review of the applications we receive for economic viability, 
and market position, and other structural issues.
    Mr. Loebsack. Yes, I have to say I don't think that is 
consistent with the changes we have seen. So I think we are 
going to have to agree to disagree on that because, prior to 
that decision, the criteria were different. Now, how they get 
operationalized by you folks, that is another question, and I 
do want to explore that more after this hearing, if we can do 
that.
    And also you mentioned DOE. We have had DOE here before, 
and I have waved on to talk to folks from DOE. And I think that 
process is not very transparent, and I think that is a big part 
of the problem we have here, is a lack of transparency, quite 
honestly, both in DOE and how they do this, and how EPA does 
this as well.
    So, you know, I guess the question really comes to just 
sort of what EPA is doing with respect to these waivers. I 
really want to have a lot more clarity on that. I would like to 
have a lot more transparency in this process, both EPA and the 
Department of Energy.
    And I just think this really begs--what this begs is the 
question of sort of how close to bankruptcy, if you will, do 
these small refineries have to be really to be granted the 
waiver? And I think we are going to see some discussion of that 
coming up.
    I just saw an article. I think the President has called for 
a review of this process. And so I am sure that you folks are 
going to be part of that review. We are going to continue to 
monitor that on a bipartisan basis, those of us who are from 
corn country and soybean country.
    But I do want to just say that, unfortunately, EPA has 
continued to fail to acknowledge the likelihood of waived 
gallons for the RVO as well. Because if we are going to see 
waivers going down, coming from the EPA, I think when we talk 
about RVOs for the upcoming year, we have to take into account 
some anticipation that some of that is not going to be 
fulfilled because of those waivers, and we haven't seen that.
    I just think that the EPA is egregiously undermining the 
biofuels industry, and has been the last couple of years, and 
its actions really are causing irreparable harm to a lot of 
folks in corn country, as you might imagine. Combine that with 
the trade issues that we are seeing as well, and it is a real 
problem for biofuels producers in the Midwest and for people 
who work in those factories, as well.
    So I am looking forward to the President's review of the 
process. And I will continue to come back and, hopefully, be 
waived on and ask some more questions in the future.
    Thank you.
    Mr. Wehrum. Thank you.
    Mr. Loebsack. Thank you, Madam Chair, I yield back.
    Ms. Schakowsky. Thank you.
    Let me end by thanking our witnesses for being here. And so 
Panel 1, we thank you.
    And we are going to take a 5-minute break, during which 
time if the Panel 2 can gather, we will be right back.
    [Recess.]
    Ms. Schakowsky. So we will now hear from our second panel, 
and the witnesses are Mary Nichols, who is chair of the 
California Air Resources Board.
    Nick Loris, deputy director of the Thomas A. Roe Institute 
for Economic Policy Studies and Herbert & Joyce Morgan Fellow 
in Energy and Environmental Policy at the Heritage Foundation.
    We have Ramzi Hermiz, who is president and chief executive 
officer of Shiloh Industries, Inc.
    We have David Schwietert, interior chief executive officer 
of the Alliance of Automobile Manufacturers.
    We have Josh Nassar, legislative director of the 
International Union, United Automobile and Aerospace Workers 
and Agricultural and Implement Workers of America.
    We have Jeff Landry, attorney general of the State of 
Louisiana. Welcome. OK. All right. Former member.
    Shoshana Lew, executive director of the Colorado Department 
of Transportation.
    And David Friedman, vice president of advocacy for Consumer 
Reports.
    We want to thank our wonderful, diverse panel of witnesses 
for joining us today. We look forward to your testimony.
    At this time, the Chair will begin by recognizing Ms. 
Nichols for 5 minutes to provide her opening statement.

  STATEMENTS OF MARY NICHOLS, CHAIR, CALIFORNIA AIR RESOURCES 
   BOARD; NICOLAS LORIS, DEPUTY DIRECTOR AND HERBERT & JOYCE 
 MORGAN FELLOW, ROE INSTITUTE FOR ECONOMIC POLICY STUDIES, THE 
    HERITAGE FOUNDATION; RAMZI HERMIZ, PRESIDENT AND CHIEF 
 EXECUTIVE OFFICER, SHILOH INDUSTRIES, INC.; DAVID SCHWIETERT, 
  INTERIM PRESIDENT AND CHIEF EXECUTIVE OFFICER, ALLIANCE OF 
 AUTOMOBILE MANUFACTURERS; JOSH NASSAR, LEGISLATIVE DIRECTOR, 
UNITED AUTO WORKERS; JEFFERY LANDRY, ATTORNEY GENERAL, STATE OF 
   LOUISIANA; SHOSHANA M. LEW, EXECUTIVE DIRECTOR, COLORADO 
   DEPARTMENT OF TRANSPORTATION; AND DAVID J. FRIEDMAN, VICE 
             PRESIDENT, ADVOCACY, CONSUMER REPORTS

                   STATEMENT OF MARY NICHOLS

    Ms. Nichols. Thank you very much. It helps to turn the 
button on.
    I, with your permission, am not going to read my prepared 
testimony, which has been submitted for the record, except for 
one paragraph, because it goes to something that was said 
earlier this morning and to a rather shocking letter actually 
that was released just today that I heard about from the press, 
accusing me in advance of saying untrue things about the status 
of the discussions between California and the administration. 
So I am just going to read this piece of it:
    ``California has worked hard to address the challenge with 
the spirit of innovation we bring to all we do. We have met 
more than a dozen times with members of this administration, 
including at the White House on multiple occasions, to try to 
come to resolution. We have been open to accommodations that 
would adjust compliance timing and flexibility, that would 
create new paths to promote innovative technologies and zero-
emission vehicles, and that would benefit the public. Each 
time, the Trump administration has been unwilling to find a way 
that works. Their claim that California offered no 
counterproposal is false. They unilaterally decided to cut off 
conversations--an action which the automakers have asked them 
to reverse.''
    I stand by every single word in that paragraph, Madam 
Chairman, and some of them are of particular significance, I 
think, because we have not talked publicly about precisely what 
was discussed in those meetings.
    I was under the belief that the meetings themselves were 
confidential, being conducted under Chatham House Rules, and we 
never released specifics of what we talked about in those 
meetings.
    But I would state categorically that we proposed areas in 
which we would be willing to come to a compromise with the 
administration, and we never were told precisely what was wrong 
with any of those proposals. We were simply told that they were 
inadequate and that we had somehow failed to do our job by not 
bringing a proposal that the administration found to be 
acceptable.
    We were told in December that the administration had 
decided to cut off any further attempts to talk with us, and so 
that was the last conversation that we had.
    Now, I want to talk a little bit about where we find 
ourselves at the moment. First of all, California is not here 
because we are seeking to defy the Federal Government.
    We are in the business of setting emissions standards for 
vehicles based on a provision of the Clean Air Act that, in 
turn, has been part of the Clean Air Act ever since there was a 
national Clean Air Act going back to 1970, which recognizes the 
unfortunate fact that California is both very big and a very 
important market for vehicles, and also has some of the worst 
air quality in the United States in any given year, both in the 
Los Angeles region and in the Central Valley.
    So it is not only the city or urban areas. We also have 
severe air quality problems in our more rural areas, and these 
areas, in turn, are particularly affected by the transport from 
large commercial vehicles that go up and down the freeways and 
bring goods from our ports and to our ports to locations 
throughout the United States but also have a very serious 
impact on the health of the residents of those areas.
    So we have been working in these areas for a long time, and 
I was personally proud to be part of the negotiations that led 
to the standards that EPA and NHTSA are now proposing to roll 
back.
    I want to just address a couple of things that I think were 
said or implied that I think are important for the committee to 
understand.
    On several occasions when asked a question by members of 
the committee, one or the other of the administration witnesses 
said these were really complicated issues and therefore they 
couldn't really address them directly.
    The issues actually are not all that complicated. What 
happened was that we adopted a set of standards that aligned 
the CAFE standards with the emissions standards that EPA 
administers.
    California, which derives its power from the Clean Air Act, 
came to the table, was part of the discussions, and we then 
agreed that these Federal standards would serve as an 
alternative to the California standards.
    So we deemed the Federal standards to be in compliance with 
California, thereby automatically accepting any car or light 
truck that meets the Federal standards as meeting California 
standards, and we have been in that position together with the 
Federal Government for quite some time now, and we have wanted 
to be part of any discussions that happened about changes.
    We have participated in the technical review of the 
standards. We have also agreed that there were issues that were 
not entirely contemplated at the time that we adopted those 
standards, although I think it is stretching it to say that the 
companies have not been able to comply because, in fact, we 
have had no companies that were in violation either of the 
Clean Air Act standards or CAFE standards ever, and up through 
this year.
    Sometimes they have complied using credits that they had 
banked because of previous overcompliance with the rule. But 
that's how the rule was structured.
    I know I am using my time. So if you would like me to stop 
at this point----
    Mr. Tonko [presiding]. Yes. We will have a ton of 
questions----
    Ms. Nichols. Yes.
    Mr. Tonko [continuing]. And I agree with your sentiments 
that some of these questions earlier were straightforward. But, 
Chair Nichols, we thank you for participating.
    [The prepared statement of Ms. Nichols follows:]
    [GRAPHIC] [TIFF OMITTED] T0609.134
    
    [GRAPHIC] [TIFF OMITTED] T0609.135
    
    [GRAPHIC] [TIFF OMITTED] T0609.136
    
    Mr. Tonko Now we move to Mr. Loris for 5 minutes, please.

                   STATEMENT OF NICOLAS LORIS

    Mr. Loris. Thank you.
    Chairman Tonko, Ranking Member McMorris Rodgers, Ranking 
Member Shimkus, and distinguished members of the subcommittee, 
thank you for this opportunity to testify today.
    The views I express in this testimony are my own and should 
not be construed as representing any official position of the 
Heritage Foundation.
    Fuel economy mandates harm American consumers by 
constraining choice and driving up prices for new and used 
vehicles. These costs have negative economic effects that 
ripple throughout our economy.
    In this regard, I would like to make four brief 
observations.
    First, consumers should control what type of cars they buy 
and drive. Consumers like saving money. They don't need the 
Federal Government to tell them that, nor do they need the 
Federal Government to tell them how to do it.
    If car buyers value fuel economy over other vehicle traits, 
they will choose to purchase a more fuel-efficient car without 
any mandate in place.
    In fact, a 2016 Journal of Public Economics study examined 
consumers' willingness to pay for fuel efficiency based on 
changes in gas prices and found that consumers do in fact fully 
value fuel economy in the way that they should.
    However, consumers value other vehicle attributes such as 
weight, engine size, power, and safety. When the Federal 
Government imposes more stringent fuel economy mandates, 
regulators override these preferences and skew investment 
decisions that automakers must make in order to comply with 
CAFE.
    Second, forcing automakers to install various fuel-saving 
technologies is costly. Mandates that drive up the sticker 
price by thousands of dollars per vehicle will price buyers out 
of the market.
    Several teams of economists and engineers accurately 
predicted that the model year 2016 standards hurt consumers by 
at least $3,800 per car.
    My colleagues estimate that eliminating the more stringent 
standards will save 2025 car buyers thousands of dollars per 
vehicle more.
    Moreover, higher prices for new cars increase demand for 
used ones, causing the price of used vehicles to increase as 
well. Even after accounting for reasonable gas savings, 
economists find that fuel economy mandates impose net costs to 
consumers with low-income households being among the hardest 
hit.
    Higher prices reverberate throughout the market, which 
affects fleet turnover and consequently reduces fuel savings 
and emission reduction estimates.
    My third observation is that fuel saving estimates from 
CAFE regulations are not only difficult to project but are also 
likely too generous.
    When promulgating CAFE rules, the Federal Government 
projects gas prices several decades into the future. While 
those price scenarios are plausible, increases in oil supply 
and changes in consumer behavior could drive prices down even 
further, and consumers would save much less money than 
projected.
    Simply put, when gas prices are low, there is less value to 
higher fuel economy. Either way, the reality is it is difficult 
to project gas prices 30 weeks into the future, let alone for 
the next 30 years.
    Importantly, many economic analyses of CAFE standards 
disregard the fact that households purchase more than one car. 
Three-quarters of American families are multicar households, 
and the purchase of their second or third vehicle may have less 
to do with fuel economy and more to do with size, storage, 
power, and other attributes that consumers desire.
    According to a joint paper from economists at Cal Berkeley, 
MIT, and the University of Chicago, this substitution effect 
erodes a substantial portion of the estimated gas savings.
    Furthermore, the well-known rebound effect and the lesser-
known scrapping effect negates some of the estimated fuel 
savings. The rebound effect occurs when people drive more 
because their vehicles are more fuel efficient, and over time 
incentivizing more driving changes where people live and has 
perverse effects of creating more congestion.
    The scrapping effect occurs because CAFE mandates affect 
prices in both the new- and used-car markets. Changes in used-
car prices influence when owners decide to scrap their 
vehicles.
    In a 2015 American Economic Review study, the authors note 
that the cascading price effects on used cars because of CAFE 
means consumers disproportionately hold on to their used gas 
guzzlers longer, resulting in additional fuel usage.
    As more stringent fuel economy standards increase new- and 
used-car prices, the authors estimate that 13 to 16 percent of 
the expected fuel savings will leak away through the used-
vehicle market.
    My fourth observation is that no matter where one stands on 
the urgency to combat climate change, CAFE mandates are an 
ineffective policy instrument.
    By the Obama administration's own account, the 2012 to 2025 
standards would abate less then 200th of a degree Celsius 
warming by the year 2100.
    In conclusion, fuel economy mandates do far more harm to 
American families than good. Consumers should have the freedom 
to buy the vehicle of their choice.
    Neither Washington nor Sacramento should exclusively 
dictate those decisions. Rather than relying on regulations, 
pricing signals and consumers preferences should inform car 
buyers' choices.
    The Federal Government implemented CAFE standards under the 
false premise of imminent resource exhaustion. They are a relic 
of the past.
    These mandates were not good policy in the 1970s, and they 
make even less sense today in an era of oil abundance. 
Americans will be best served when consumers are fully in the 
driver's seat.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Loris follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Tonko. Thank you, Mr. Loris.
    Next, we will go to Mr. Hermiz for 5 minutes. You are 
recognized now. Thank you.

                   STATEMENT OF RAMZI HERMIZ

    Mr. Hermiz. Good afternoon, Chairman Tonko, Ranking Member 
Shimkus, and Ranking Member McMorris Rodgers. Thank you for 
inviting me for the opportunity to discuss the EPA and NHTSA's 
proposal for greenhouse gas emission standards, CAFE for light-
duty vehicles, and One National Program.
    My name is Ramzi Hermiz. I am the president and CEO of 
Shiloh Industries, and I am also the chairman of the board of 
the Original Equipment Suppliers Association, which is a 
division of MEMA.
    Shiloh is a U.S.-based company headquartered in Ohio 
focused on developing and manufacturing technologies that 
provide improved performance, environmental, and safety 
benefits to the mobility market.
    Shiloh has over 3,800 employees, with operations in North 
America, Europe, and Asia. Twenty-one hundred of those 
employees are located in Indiana, Michigan, Kentucky, Ohio, 
Tennessee, and Wisconsin.
    MEMA represents more than 1,000 companies that supply 
components to the automotive industry. The supply base is the 
Nation's largest sectors of manufacturing jobs, directly 
employing 871,000 workers and creating more than 4.2 million 
indirect jobs.
    Every day, companies like Shiloh work to provide job 
opportunities in the United States. We push ourselves to be 
world leaders in the development of innovative and safe 
technologies.
    As leaders, we challenge ourselves and our teams every 
single day. Shiloh and MEMA support the challenge of meeting 
continued improvement to fuel economy and emission standards 
under One National Program.
    We believe that this committee, through its leadership, has 
a unique opportunity to enable U.S. job growth, promote the 
U.S. automotive industry, and support U.S. technology 
leadership while benefiting the consumer and the environment.
    Of the alternatives proposed, it is our view that the U.S. 
can most effectively seize these opportunities through 
alternative 6 and 8, which call for annual improvements to the 
standards.
    My comments today will focus on three points: jobs, 
investment, and technology.
    First, IHS market recently found that demand for technology 
created by alternative 8 would result in the auto industry 
growing an additional 250,000 jobs by 2025 in comparison to a 
zero percent improvement path that would result in the loss of 
500,000 jobs over the same period.
    Second, a zero percent improvement path would strand 
billions of dollars in its supplier investments made in the 
U.S. already that have transformed the industry's fuel economy 
and emissions performance.
    Further, a continued improvement objective coupled with One 
National Program will provide certainty in economies of scale 
necessary for additional investment in R&D, manufacturing, 
jobs, and training, which will create a competitive advantage 
for the U.S. automotive industry and lead to continued 
innovation, reduce compliance costs, and provide more choices 
and value for consumers.
    Third, continuous improvement to the standards will provide 
the U.S. industry with the structure and incentive to innovate 
here at home in the U.S. as we pursue global leadership in 
safe, fuel-efficient, and emissions-reducing technologies.
    Finally, we urge you to set the objectives without 
specifying a specific solution, as we believe that our industry 
will use its experience, ingenuity, and grit to succeed while 
providing the automakers and consumers and with a wide array of 
options.
    Overall, our strategy for fuel economies and fuel 
efficiencies can be achieved through many different 
alternatives, lightweighting being one of those opportunities.
    In conclusion, in order to preserve and grow jobs in 
investments in the U.S. and support U.S. technology leadership, 
Shiloh and MEMA urge you to support continuous improvement to 
the fuel efficiency and emissions standards and One National 
Program.
    Thank you.
    [The prepared statement of Mr. Hermiz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                 STATEMENT OF DAVID SCHWIETERT

    Mr. Schwietert. Good afternoon, Chairwoman Schakowsky, 
Ranking Member McMorris Rodgers, Chairman Tonko, and Ranking 
Member Shimkus.
    I would ask that my formal written statement be submitted 
for the record along with the attachments that I submitted to 
the committee earlier. But I will give an abbreviated oral 
statement.
    Ms. Schakowsky. Let me make sure that everybody knows who 
we are talking to. Mr. Schwietert--is that right?
    Mr. Schwietert. That's correct.
    Ms. Schakowsky. OK. I am sorry. Go ahead.
    Mr. Schwietert. Wonderful. I am David Schwietert----
    Ms. Schakowsky. Let me--one other thing. I wanted you to 
know that in the anteroom here I was watching everything. So I 
saw the testimony. I don't want you to think that I left the 
room on you. I was just in the side room.
    Thank you. OK.
    Mr. Schwietert. Thank you, Madam Chairwoman. I am David 
Schwietert, and I am the interim president and CEO of the 
Alliance of Automobile Manufacturers, and we represent 12 
leading automakers who hail from three countries who 
manufacture over 70 percent of new passenger vehicles sold in 
the United States.
    By creating jobs, fueling innovation, building exports, and 
advancing mobility, automakers are driving the American economy 
forward. No other single industry is linked so much to U.S. 
manufacturing or generates so much retail business and 
employment.
    Nationwide, nearly 10 million workers and their families 
depend on the auto industry. Automakers are committed to a 
cleaner future, and the auto industry has invested billions of 
dollars on power train development, and that investment is 
paying off.
    Automakers are providing customers with record-breaking 
choices in fuel-efficient vehicles. Today, more than 490 models 
are available on sale that achieve at least 30 miles per 
gallon, an increase of nearly 70 percent from the 2012 model 
year, and more alternative power trains are on sale, including 
45 models of hybrids, 34 plug-in hybrids, 24 full battery 
electric models, and 3 fuel cell models.
    These investments are making a difference both for 
consumers and the environment. Since 2005, real-world fuel 
economy has increased by over 27 percent.
    These record gains are also important, but they're not the 
only success story. Today, per-mile carbon emissions from new 
passenger vehicles have dropped 22 percent in just 15 years, 
which approaches the goals of the Paris Climate Accord for the 
U.S. to reduce economywide greenhouse gas emissions by 26 to 28 
percent over 20 years.
    Alliance members have committed to a roadmap for fuel 
economy and clean-car progress. According to consumer research, 
our customers want it all, which is why automakers are 
committed to offering more fuel-efficient autos with fewer 
emissions and the latest safety technologies.
    Automakers seek to accomplish this while working to keep 
automobiles affordable. Simply put, automakers support year-
over-year increases in fuel economy that align with market 
demand, and we support a data-driven final rule in One National 
Program.
    One National Program is important for many reasons because 
in the last decade automakers have been subject to three 
different regulators--NHTSA, EPA, and the California Air 
Resources Board--pursuing similar objectives in different ways.
    Redundant government programs drive compliance costs, and 
that ultimately comes out of the wallets of our customers. 
Automakers worked with the three regulators to more closely 
align standards in two rulemakings covering model years 2012 to 
'16 and 2017 to 2025.
    The result was what is now called One National Program. 
Unfortunately, to this day we still have three separate 
programs. However, One National Program is still good policy to 
keep new vehicles affordable so more Americans can buy new 
vehicles, replacing older, less efficient models.
    Automakers also support a data-driven final rule. When the 
2012 to 2025 standards were developed, the midterm evaluation 
was planned to be completed by April of 2018, halfway through 
the 14-year rulemaking.
    This evaluation was intended to compare assumptions made in 
2012 or earlier with what was actually happening to evaluate 
whether future standards should be maintained or adjusted up or 
down, depending on a wide range of factors.
    This was an agreement by all parties--automakers, the 
Department of Transportation, EPA, and CARB. One market reality 
is clear: No factor is more relevant than gas prices, which 
remain significantly lower than projected in 2012, when fuel 
standards were last set.
    As a result, consumers are buying more SUVs, pickups, 
larger engines and fewer automotive power trains like hybrids 
and electric vehicles than regulators expected.
    The clear challenge facing automakers is that consumer 
preferences do not align with market targets originally 
envisioned back in 2012.
    Under current Federal regulations, automakers are judged by 
what consumers buy, not what they offer for sale in showrooms. 
Consumers have many different preferences, goals, or priorities 
when purchasing a new vehicle.
    The market demonstrates that these many factors--notably, 
affordability, safety, reliability--rank much higher than fuel 
economy. Despite record numbers of models of alternative power 
trains and fuel-efficient vehicles being offered in dealer 
showrooms, sales of these vehicles remain low--less than 4 
percent of all new vehicle sales last year.
    If you remove hybrid vehicles, plug-in electric vehicles 
account for less than 2 percent of all sales nationwide. To put 
it concisely, at present consumer preference and market 
realities do not align with policy aspirations outlined in 
2012.
    The previous '22 to '25 standards do not reflect market 
realities and therefore warrant adjustments. In conclusion, 
this requires compromise, understanding, and a willingness to 
find a path forward that serves all interests, and this is why 
automakers remain steadfast in our support for an agreement 
that balances environmental goals, consumer preference, and 
market realities.
    When it comes to fuel economy, the auto industry is 
committed to ongoing progress and a journey that has no end. 
After all, automakers have invested substantially in energy-
efficient technologies that we would like to see consumers 
embrace. We expect that fuel economy will keep rising. The only 
issue is at what speed.
    Thank you.
    [The prepared statement of Mr. Schwietert follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Ms. Schakowsky. Thank you, Mr. Schwietert.
    Let me now recognize Mr. Nassar for 5 minutes.

                    STATEMENT OF JOSH NASSAR

    Mr. Nassar. Thank you, Chairwoman Schakowsky, Ranking 
Member McMorris, Chairman Tonko, and Ranking Member Shimkus and 
members of the committee for the opportunity to testify today.
    I am testifying here on behalf of, and it is a real honor, 
of the 1 million members and retirees of the United Auto 
Workers, our president, Gary Jones, and the International 
Executive Board, and I want to just talk about why we care so 
much about this.
    Obviously, a lot of our members work in the industry and 
their very livelihoods are on the line here with the decisions 
that are made.
    It is not just that. It is also the wellbeing of our 
retirees is greatly dependent on the success of the auto 
industry. So, simply put, we look out for what is best for our 
members and what is going to create the most good jobs. That's 
our priority here.
    Now, as far as this proposal, we--after real careful 
consideration--we do not support the preferred alternative 
because we are really concerned that it is going to actually 
stifle companies from innovating and also from, you know, 
competing in a global economy as far as being export markets.
    And I do want to say that, you know, many of the new 
technologies you see in cars and more efficient cars are built 
here in the United States, and we want to keep it that way.
    Now, for us another reason why we oppose this is because 
protracted legal chaos and just uncertainty of what's going on 
really does damage investment decisions. It absolutely does.
    So our concern is how policies being made today impact 
workers today and tomorrow. And so, in other words, for us this 
is not an abstract exercise, and I could point to new 
technologies that our members make that probably would not have 
been made without the existing standards.
    So, for us, you know, we really see this as something that 
can be a win-win. I mean, we are proud of the role we played in 
helping set previous standards, where there was compromise, 
where people did work together, and we think that should happen 
again.
    We also do believe that, you know, very much that climate 
change is real and that we really have to do something about 
it. We all have an obligation.
    So good CAFE and GHG policy is good for our membership. It 
is good for the auto industry, if it is done right--and it has 
to be done right--and the only way that's going to happen is if 
all the parties are around the table working on a compromise. 
That's what we want to do. That's what we did last time.
    Now, there are a lot of headwinds facing autoworkers. Over 
the past 15 years, when adjusted for inflation, wages have 
dropped over 20 percent for autoworkers in parts and final 
assembly--over 20 percent, adjusted for inflation. And those 
are official stats.
    So for us, we are looking at, you know, why is that the 
case, and there's a few--there's many, many reasons. One has to 
do with, you know, frankly, we have trade agreements which have 
really encouraged offshoring, and we are hoping that these 
adjustments made to trade agreements will deal with that 
situation.
    You know, we also--there are perverse incentives in our tax 
code that really reward companies investing overseas rather 
than in the U.S.
    We also lack an industrial policy as far as worker training 
and really encouraging workers--you know, an alternate career 
path to college. We really don't do enough to encourage that at 
all.
    And, you know, at the end of the day, we also have very 
weak labor laws, and we have a lack of enforcement of our labor 
laws, which has really led to a really hostile environment many 
workers face.
    These are the reasons why wages are dropping. It is not 
because of CAFE standards. So CAFE standards are not the main 
problem facing autoworkers, is what I am here to say.
    And finally, I want to talk for a minute about EVs. There's 
been a lot of talk about EVs.
    We agree there's a low acceptance. It is just--the question 
is the world's moving forward with EVs. What are we going to do 
to make sure they're made here in the United States?
    We are really concerned that more and more EVs are made 
overseas, if you look at a lot of investments from the 
companies, and we are falling behind as far as, you know, 
building a lot of the technologies here in the U.S. and we are 
worried that trend is going to continue.
    The CAFE standards help encourage some of that. But we need 
other policies, too. We need to really improve the 
infrastructure for charging stations. We also think that 
companies who receive Federal subsidies through the tax code or 
otherwise do have an obligation to build more in America and to 
treat their workers right. That is not the case today.
    So for us, this is a situation where we can have a win-win. 
We have had a win-win. But that's going to take a different 
approach, and I just want to say we are ready to work with 
everyone and this should not be a partisan issue. This is about 
what's best for the U.S. and what's best for workers.
    Thanks for your time. Look forward to answering your 
questions.
    [The prepared statement of Mr. Nassar follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Ms. Schakowsky. Thank you, Mr. Nassar. You hit it right on 
the button, too.
    Now, Mr. Landry, you're recognized for 5 minutes.

                  STATEMENT OF JEFFERY LANDRY

    Mr. Landry. Thank you, Chairwoman Schakowsky, Ranking 
Member Rodgers, Chairman Tonko, Ranking Member Shimkus, and 
members of the committee. Thank you for the opportunity to 
testify today.
    As stated, I am Attorney General Jeff Landry from the great 
State of Louisiana. Before I begin, I would like to acknowledge 
my former colleagues in the 112th Congress who are here on the 
committee.
    It is great to see so many of my friends before me. I was 
honored to serve in this body on behalf of Louisiana's 3rd 
Congressional District, and I am grateful for the opportunity 
to testify before the people's representatives.
    I am here today to support the administration's proposed 
Safer Affordable Fuel Efficient vehicles rule, which will 
safeguard lower-income Americans from unnecessary costs, 
increases on newer safer vehicles. I support the proposal for 
the following reasons.
    One, a national standard should apply. Congress has made it 
clear that a single policy should apply, and no compelling air 
quality concern exists that is unique to one State.
    California should not be able to effectively dictate fuel 
economy standards, tailpipe emission requirements, and mandates 
for zero-emission vehicles for Louisiana and the rest of the 
Nation.
    When a State is allowed to usurp congressional intent for 
their own design, all other States in our republic suffer, and 
by enacting its own regulations California is circumventing 
Congress and using its size to create a de facto national fuel 
efficiency framework affecting the national economy.
    Recognizing this abuse of authority, I joined a coalition 
of other State attorneys general in requesting the 
administration revoke California's waiver for emissions 
regulation.
    Number two, the rule of law should be--it must be upheld. I 
am a firm believer in the separation of powers and the rule of 
law.
    I am committed to these principles even when it may not be 
politically prudent to do so, and I recognize that maintaining 
consistency in these arenas is critical for our republic and 
our economy to thrive.
    I also concur with the assertion in a proposed rule that 
State-based greenhouse gas tailpipe standards mandates are 
preempted under the Energy Policy Conservation Act of 1975.
    That legislation was enacted to address the United States' 
dependency on OPEC by establishing uniform motor vehicle fuel 
economy standards across the Nation.
    Unfortunately, it is impossible to achieve those uniform 
standards under current Federal policy. Instead, the voters of 
States that prefer more stringent standards are allowed the 
latitude to legislate as they see fit while voters in States 
that prefer less stringent standards find themselves subjected 
to the more stringent State standards.
    When we allow one State's authority to increase Federal 
standards for the entire Nation while preempting any State that 
seeks to decrease them, we are acting inconsistent with bedrock 
principles of federalism.
    The current policy originated with the purported waiver 
issued under the Clean Air Act. I agree that this ostensible 
waiver was likewise preempted by the terms of the Energy Policy 
Conservation Act.
    Contrary to the Environmental Agency's prior interpretation 
of the correlation of these statutes, State standards preempted 
under the Energy Policy Conservation Act cannot rationally be 
afforded a valid waiver of preemption under the Clean Air Act.
    Number three, California's GHG waiver is inconsistent with 
the Clean Air Act. Finally, I believe that the administration 
improperly approved the California GHG waiver, as it is 
inconsistent with Section 209 of the Clean Air Act.
    After the Bush administration rejected California's 
application in 2007, the Obama administration granted it in 
2009. In doing so, EPA completely disregarded its own 
administrative duty and refused to consider opponents' waivers 
argument.
    California was then allowed to enact its own emissions 
regulations. There is no sound basis on which to conclude that 
California standards address compelling and extraordinary air 
quality concerns unique to California.
    Finally, manufacturing costs associated with a moving 
target standard create a great burden on our citizens. 
Accepting this approach will increase costs that are borne by 
consumers.
    We should not be in the business of letting one State drive 
the policy of the Nation. This is inherently undemocratic and, 
in this case, inefficient to accomplish national goals.
    I support the implementation of President Trump's safe-
vehicle rule and urge a revocation of the EPA's previous waiver 
to California. After all, CAFE does not stand for California 
Assumed Federal Empowerment.
    Thank you very much for your time. I look forward to 
answering your questions.
    [The prepared statement of Mr. Landry follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Ms. Schakowsky. And now I recognize Ms. Lew for 5 minutes.

                  STATEMENT OF SHOSHANA M. LEW

    Ms. Lew. Thank you, Chairwoman Schakowsky, Ranking Member 
McMorris Rodgers, Chairman Tonko, Ranking Member Shimkus, 
members of the committee.
    My name is Shoshana Lew, and I am the executive director of 
the Colorado Department of Transportation. Thank you for 
inviting me here to address the State's opposition to the 
proposed rule which would freeze fuel efficiency standards that 
require year-over-year improvements to cars and light trucks.
    With the transportation sector on track to become the 
leading source of emissions in Colorado, it is of the utmost 
importance that we act boldly and aggressively to reduce 
congestion in the air and on the road.
    Achieving a cleaner fleet is a key component of Governor 
Polis' roadmap to achieving 100 percent renewable energy by 
2040.
    At the State level, we are making tremendous progress. 
Colorado electric vehicle sales in 2018 were over 2\1/2\ times 
what they were in 2016. We are cutting ribbons at charging 
facilities.
    We are building fast-charging stations along five major 
routes, and our legislature and Governor enacted a range of 
bills to accelerate electric vehicle updates, including 
extending tax credits in 2025.
    We are encouraged to see bipartisan collaboration in our 
legislature and cooperation between States and local partners. 
We are also encouraged by the commitment that automakers and 
dealers are showing to expanding ZEV sales in Colorado.
    This is an important moment with great promise for cleaner 
cars if we move together to move the ball forward. 
Unfortunately, the Trump administration's proposal and the 
contentious tone that it has perpetuated nationwide threatens 
just the opposite.
    If finalized, this proposal would unravel an effective 
consensus-based program that has brought together Federal 
agencies, States, automakers, and environmental and labor 
partners.
    The proposal would also seek to undermine States' rights to 
retain strong standards. Improving the fuel efficiency in cars 
and trucks has historically transcended Federal administrations 
and party lines.
    Both the Bush and Obama administrations increased fuel 
standards, and fuel economy has improved by over a quarter 
since 2004.
    Predictable standards help industry to focus on 
improvements that benefit the environment, create jobs, and 
keep the American auto industry competitive.
    By contrast, if Federal agencies finalize their current 
proposal, it will be rightly challenged, creating needless 
uncertainty for an industry that employees over 7 million 
Americans, including over 3 percent of Colorado's workforce.
    In sharp contrast to the administration's proposal, calls 
to compromise on a continued program of strong national 
standards have been widespread from States, carmakers, 
suppliers, and utilities.
    The Alliance of Automobile Manufacturers has repeatedly 
encouraged collaboration to retain a program of strong 
standards that continue increasing fuel economy year after year 
because, quote, ``climate change is real and we have a 
responsibility to reduce greenhouse gases.''
    This month 17 automakers reiterated that call in letters to 
President Trump and Governor Newsom, asking for a, quote, 
``unified standard'' with consensus that includes States at the 
negotiating table.
    Even President Trump at one point directed his team to make 
a deal with California, but that directive was followed by the 
current flat-line proposal which is based on deeply flawed 
modeling conclusions that defy common sense.
    Let me give you just a few examples. First, while 
conserving energy is the premise of NHTSA's statute, they argue 
that cutting oil consumption is now a lesser priority.
    Their proposal would increase U.S. fuel consumption by 
about half a million barrels per day. It is no surprise that 
much of the oil industry supports that pathway, though recently 
several oil companies have called for consensus as well.
    Second, new modeling of consumer behavior doesn't make 
sense, though it is a good idea to analyze this topic further 
in the future.
    For example, modeling predicts that stronger standards by 
virtue of increasing retail costs would depress new car sales, 
keep many more old cars on the road with the new cars they 
displace, and result in 692 billion extra miles driven because 
of higher standards.
    In the real world, why would you defer one new car 
purchase, hold on to multiple old ones, and then drive farther 
to the grocery store than you would have in a shiny new 
crossover?
    Third, the model shows that freezing standards would reduce 
roadway fatalities by 12,700, breaking from a long literature 
on the relationship between safety and fuel economy.
    The model is driven by problematic and internally 
conflicting assumptions about how stronger fuel standards would 
increase driving and crashes. Vehicle weight, the best research 
area in the safety literature on fuel economy, accounts for 
just 1.2 percent of assumed total fatalities.
    These are just a few examples of the many problems with 
this proposed rule. There's a lot here that needs to be fixed, 
and serious and substantive dialogue between all parties could 
still yield a thoughtful resolution if the administration were 
willing to come to the table rather than force to conclusion a 
deeply flawed and ideologically driven proposal that lacks the 
backing of stakeholders across the country.
    Thank you. I look forward to your questions, and I would 
ask that my full statement be submitted to the record.
    Thank you.
    [The prepared statement of Ms. Lew follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Ms. Schakowsky. Let's see. Thank you.
    And Mr. Friedman, you are now recognized for 5 minutes.

                 STATEMENT OF DAVID J. FRIEDMAN

    Mr. Friedman. Thank you, Chairwoman Schakowsky, Ranking 
Member Rodgers, and Ranking Member Shimkus and committee 
members. Thank you for inviting Consumer Reports to testify 
today.
    Now, we are here because the current administration, at the 
request of automakers and oil companies, has proposed to take 
money out of consumers' pockets to harm auto sales and to 
reduce our Nation's energy security, all while failing to 
address a public health epidemic on our Nation's roads.
    Consumer Reports is a data-driven nonprofit, so let's start 
with some facts. First, newer cars are safer and more 
efficient, thanks primarily to NHTSA's safety and fuel economy 
standards.
    The former saved more than 600,000 lives through 2012, and 
the latter will save Americans over $660 billion going forward.
    Second, Consumer Reports survey after survey show that 
consumers want safer, more fuel-efficient vehicles, and yet 
they face very limited choices on both counts when automakers 
don't have to meet strong efficiency and safety requirements. 
Just look at the rollover-prone, gas-guzzling SUVs of the '90s 
as Exhibit A.
    Finally, Americans like to spend money when they can afford 
it. So when consumers save money, thanks to strong fuel economy 
standards, they spend it on things like going out to dinner, 
getting cool new tech, and buying new cars with more safety 
features.
    As we've seen over the last decade very clearly, this 
creates jobs, boosts auto sales, and insulates our economy from 
future price shocks.
    Despite these clear facts, the current administration 
released a plan to roll back fuel efficiency and emissions 
standards based on a fundamentally flawed proposal filled with 
errors, untested modeling, faulty logic, and unsupported 
conclusions.
    I have to say, before, during, and after my time at NHTSA, 
I had never seen anything like this come out of the joint NHTSA 
and EPA efforts. Quite the opposite.
    In the end, it appears this administration was so 
determined to roll back the standards that no fact, no data, 
and not even basic economic theory would stand in their way.
    Making matters so much worse, they actually claimed and 
continue to falsely claim they're doing it for safety.
    Members of the committee, over the last 2\1/2\ years more 
than 7.5 million Americans were injured and more than 90,000 
were killed in traffic crashes. And yet Department of 
Transportation leadership has failed to finalize or even 
propose a single significant life-saving vehicle safety 
standard. That is not putting safety first.
    No wonder people aren't taking their claims seriously. So 
let me end instead where I started, with the facts.
    One, time and again, consumers, leading academics, and 
researchers and the agencies themselves have made clear that 
strong fuel economy and emissions standards are in the best 
interests of consumers and our Nation.
    Two, the data show there is no such thing as an 
affordability crisis in today's car market. In fact, sales rose 
steadily since 2009 and have been at or near record highs since 
2015.
    Consumers with more money in their pockets are simply 
spending more on bigger vehicles with more luxury features. If 
you take those away, inflation-adjusted prices for new cars 
have not changed, even while cars got more efficient and safer, 
and the price of used cars has actually dropped.
    Third, when it comes to highway safety, at worst the 
standards will have absolutely no effect. At best, raising the 
standards will provide a small but positive effect by taking 
dangerous weight out of the heaviest vehicles and helping 
consumers afford newer safer vehicles.
    At the end of the day, Americans are more likely to upgrade 
to newer, cleaner cars if they're actually on the market and if 
consumers have more money in their pockets to buy them because 
they're spending less on gas.
    And when it comes to safety, the only way to guarantee that 
those newer, cleaner cars will be safer is if DOT leadership 
allows staff to propose and finalize strong new safety 
requirements for technologies like automatic emergency braking 
with pedestrian detection and vehicle-to-vehicle safety 
communications tech.
    That is the future we can all look forward to if existing 
fuel economy and emission standards are kept in place and DOT 
leadership lets NHTSA get back to its safety mission.
    Thank you again, and I look forward to your questions.
    [The prepared statement of Mr. Friedman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Ms. Schakowsky. I thank all of you for your testimony, and 
I now want to begin the section where we ask questions of the 
witnesses. Each Member will have 5 minutes, and I will begin.
    Let me just start with a statement that clean-car 
technologies do not develop in a vacuum. Automakers produce 
vehicles that are more fuel efficient and less polluting 
because of fuel efficiency standards.
    That's why Congress gave NHTSA the mandate to set the, 
quote, ``maximum feasible,'' unquote, fuel economy standards.
    So Mr. Friedman, will automakers, given your experience 
with NHTSA and being a regulator yourself--will automakers 
voluntarily produce vehicles with the maximum feasible fuel 
efficiency, or are Federal standards absolutely necessary?
    Mr. Friedman. History makes clear that, unless fuel economy 
standards are increasing, automakers leave technology after 
technology on the shelf--technology that could be saving 
consumers millions of dollars they don't put to work without 
standards.
    Ms. Schakowsky. And we haven't seen a scenario where the 
kind of innovation--I think you mentioned that, Ms. Lew--that 
develops from these standards has then hurt the auto industry. 
Is that true?
    Mr. Friedman. Quite the opposite. I mean, A, it is basic 
economics. If people are saving money on gas, they're going to 
spend it in this country and they're going to spend it on a 
whole host of different things, including buying new cars. The 
last 10 years have shown this very clearly. Auto sales are up. 
Fuel economy is up. Safety is up.
    Consumers can have their cake and eat it, too, as long as 
they've got a government watching out for their backs.
    Ms. Schakowsky. Thank you.
    With standards setting a target for the automobile 
industry, there is no certainty for companies developing clean-
car technologies in this country.
    Billions of dollars of investment and thousands of jobs 
will go overseas to countries that prioritize clean air and oil 
independence.
    So, Mr. Nassar, I want to ask you, would auto manufacturers 
continue to invest in American clean-car development, 
engineering, and manufacturing should the clean-car rollback go 
into effect?
    Or would this investment go overseas? Are we losing the 
opportunity to export clean-car technology and set the standard 
for the global market?
    Mr. Nassar. Thank you for the question.
    Absolutely, standards encourage the development of new 
technologies in vehicles here, and there is a real danger that 
if you have--you know, if you don't have standards or if you 
have standards that don't push at all, that'll be done 
elsewhere.
    A big lesson is here, too. We need to have diverse fleets, 
OK, because oil prices, yes, they are low now, but that can 
change, and we've lived--this has already happened. We don't 
need to repeat history here.
    So it is really going to be important that we have 
standards and I think to be sensible, but we have got to have 
standards that really do encourage, you know, new technologies 
here.
    I just want to point out that the vast majority of lithium 
ion battery production is projected by 2021 to be in China, and 
so as a country we really have a lot to do to get those new 
technologies here.
    Thank you for your question.
    Ms. Schakowsky. Thank you.
    Let me ask another one, Mr. Nassar. How would weakening our 
Nation's fuel economy standards impact the UAW members and the 
auto industry, and how has the uncertainty impacted the 
workforce, and why should all members of this committee be 
concerned about the potential economic impact of the proposal?
    Mr. Nassar. Yes. Well, the reality is that, you know, 
investments for--in plants and new vehicles have to be made 
many years out--many years out--and you really do need to know 
where we are heading.
    And the fact that we don't know where we are heading is 
creating some real problems because companies are--they're 
global and they look around the world and at places where there 
is more certainty, where they do know where they're heading, 
that's where they are inclined to make more of the investments.
    As I said before, you know, we have other policies--tax and 
trade--that hurt as well. But absolutely it is going to be 
important to have strong standards here.
    Ms. Schakowsky. Thank you.
    And, Mr. Friedman, again, if clean-car technology and 
production moved overseas, what actions would American 
consumers have if they want to buy Next Generation clean 
vehicles?
    Mr. Friedman. Well, it looks like they'd be out of luck. 
Maybe they could spend some extra money and fly overseas. But 
if the technology isn't available here, they can't get it. It 
would, basically, leave it off limits to the average American, 
and that's just not good for consumers or our Nation.
    Ms. Schakowsky. Thank you.
    Mr. Nassar, how can Congress and the administration best 
protect these jobs?
    Mr. Nassar. A whole host of policies. We really need to 
have a pro-labor law, like, pass the PRO Act is going to help--
would help a lot. You need tax policy. You need to have 
sensible standards that last for a long time and investments in 
new technologies here. Make sure they're made here and with 
good worker standards. That would help a lot.
    Ms. Schakowsky. Thank you very much.
    I yield back, and the Chair will now recognize Mrs. 
Rodgers, subcommittee ranking member, for 5 minutes to ask 
questions.
    Mrs. Rodgers. Thank you, Madam Chair. Thank you all for 
being here today. I am always amazed with American ingenuity 
and the entrepreneurial spirit, and we time and time again lead 
the world in new innovation and thinking of the better ways to 
solve our problems, and I think this is an important discussion 
today.
    America also leads the world in environmental standards and 
setting--really, leading the world in combatting--in bringing 
down carbon emissions. I do think it is noteworthy that the 
average car today costs $37,000. For most hard-working 
Americans, that is out of reach for them, and from 2016 to--
when you look at fatalities in America, 2016 to 2017, 2017 to 
2018, we had the largest increase in fatalities in 50 years.
    Thirty-six thousand people died. So there's a lot of 
considerations that go into making these decisions that are 
before this Congress in this discussion today.
    It is great to have former colleague and the attorney 
general of Louisiana here. Mr. Landry, I wanted to ask you just 
why do you support the SAFE vehicles rule?
    Mr. Landry. Well, again, there's this--still a clause in 
the Constitution called the Commerce Clause, which is supposed 
to allow the Federal Government in certain circumstances to 
allow for national standards, and so to allow for California to 
dictate its policy on the rest of the country would be 
problematic and, again, would be in violation of the Commerce 
Clause.
    Mrs. Rodgers. OK. Thank you.
    Mr. Schwietert, in a letter sent by several of your member 
companies on June 6th, it stated that, quote, ``market 
conditions have changed materially since 2011,'' and then it 
went on to say that the administration's decision to review and 
update future auto standards was the proper choice.
    And you described the current program as untenable. Why is 
the current regulatory structure untenable for automakers? What 
are we leaving on the table in jobs and R&D investment with 
fines if the current program is locked in place with 
litigation?
    Mr. Schwietert. Thank you for the question. I think that it 
speaks to something that auto manufacturers are committed to, 
and that's a concern about effectively breaking up One National 
Program, which could lead to a bifurcated market.
    So you're absolutely right. As it relates to the standards 
that were set back in 2012, if standards aren't right sized, 
that causes concern not only for litigation risks and 
investment risks but also what consumers can actually afford.
    So that's ultimately why automakers have been clear from 
the beginning that we support a re-evaluation of the standards 
that were envisioned back in 2012, because market conditions 
have changed.
    Mrs. Rodgers. Thank you.
    Mr. Loris, can you explain further why you have described 
the proposed SAFE vehicles rule as a welcomed, quote, ``victory 
for consumers' wallets?''
    Mr. Loris. Sure. Again, I think the fundamental aspect here 
is consumer choice, and while there are a lot of vehicles in 
the marketplace today, consumers do have choices. Every time 
the Federal Government chooses to impose more stringent 
standards, they're overriding that choice.
    They're taking opportunity costs away from manufacturers to 
invest in different technology that ultimately consumers might 
want.
    So from a consumer standpoint, I would rather see the 
automakers make cars that people want to buy. I think that's 
the first fundamental problem with CAFE standards.
    The second issue really is price. We've seen across the 
academic literature that every time fuel economy standards are 
more stringent, they impose higher prices that ripple 
throughout the new- and used-car market.
    Mrs. Rodgers. So it is my understanding right now 
nationally 4 percent of vehicles are the alternatives--1.2 
percent are electric.
    Ms. Lew, I just wanted to ask, what percentage of vehicles 
in Colorado are electric?
    Ms. Lew. This past year's sales were just in excess of 
7,000. I can get back to you on the percent of the total 
market. But that was nearly double what it had been the year 
prior and the year prior to that.
    Mrs. Rodgers. OK. I'll look up, then, what percentage. I 
was just curious if you were meeting the national standard or 
not. Anyway, I am going to yield back.
    Mr. Friedman. Just to clarify, no electric vehicles are 
required to meet the national standard, and projections, even 
by 2025, indicate even a couple of percent or two is more than 
enough, and we are already at or above that level.
    I would also just quickly say----
    Mrs. Rodgers. Excuse me. My time has expired.
    I will yield back. Thank you.
    Mr. Cardenas [presiding]. The gentlewoman yields back.
    Next, we have the congresswoman from California, 
Congresswoman Matsui, for 5 minutes.
    Ms. Matsui. Thank you very much, Mr. Chairman.
    Chair Nichols, it is nice to see you here--my constituent. 
That's great. I want to thank you for the extraordinary work 
you have done throughout your career to really clean the air 
not only for Californians but all the rest of the country.
    And for the last decade, you have been at the forefront of 
the fight against climate change and to improve public health.
    Now, I just want to make a comment here that I just found 
it kind of rich that Administrator Wheeler wasn't here to 
testify today, but I think you addressed this. He sent a letter 
supposedly refuting your testimony.
    But I am going to say, it is hardly surprising that he's 
hiding behind the letter instead of joining us here today, 
because it is kind of a pattern of behavior--refusing to 
negotiate with California in good faith.
    So enough said about that. I want to ask you a couple 
questions about the zero-emission vehicle waiver. Chair 
Nichols, the fight against climate change and the fight to 
clean our air and improve public health are intertwined.
    Decades ago, California's leadership contributed to the 
creation of the modern catalytic converter. In 1990, California 
implemented a requirement that companies sell zero-emission 
vehicles to help achieve Federal clean air goals.
    Yet the administration attempts to justify revoking 
California's ZEV waiver on the grounds that it is solely about 
carbon pollution.
    Chair Nichols, can you describe the role of ZEVs in meeting 
health-based air quality standards, reducing emissions of toxic 
pollutants as well as meeting greenhouse gas reduction targets?
    Ms. Nichols. Thank you, Ms. Matsui.
    First of all, I want to make it clear that, as Mr. Friedman 
said earlier, the CAFE law and the emissions law that we are 
talking about here today, the regulations, do not contemplate 
electric vehicles. Any kind of zero-emission vehicles are not 
covered by these regulations.
    That is actually a part of what makes this whole effort 
somewhat of a parallel universe to what's actually going on in 
the real world, where all the car companies are investing 
heavily in the transition to either hybrids or all-electric 
vehicles, and they are not doing that because of California's 
mandates, although I think we played a role in getting that 
started and we are by far the largest market--now four electric 
vehicles.
    But because it is now quite clear that the world as a whole 
is moving in the direction of electrified transportation and 
all of the companies want to be competitive, not just in 
California or in the U.S. but in the international and the 
global market as well.
    Our interest in these vehicles stems from our concerns 
about air quality, however, and it is really based on the fact 
that--and there is a connection here, of course--using--burning 
petroleum is the source of the emissions that cause health harm 
in all of our communities, both urban and rural.
    Burning of gasoline as well as the production, 
distribution, et cetera--the network, if you will--is the major 
contributor to health-harming air pollution, even now with all 
the tremendous progress that the industry has made and which we 
commend them for.
    Ms. Matsui. Right.
    Ms. Nichols. The sheer numbers of vehicles are such that we 
continue to have a serious problem.
    Ms. Matsui. Now, could I ask you--I think you may have seen 
that we had the EPA Administrator Wheeler before the committee 
in April and I asked him about the proposed rule, and he 
claimed that the carbon dioxide reductions in the SAFE vehicles 
rule would be pretty similar to what the Obama administration 
would have received under their rule.
    Chair Nichols, CARB has obviously done extensive analysis 
on this. How would you respond to this claim?
    Ms. Nichols. I, frankly, don't know to what Mr. Wheeler was 
referring. The proposed rule initially had a number of 
different alternatives that they took comment on. But the 
preferred alternative and the one that we understand is going 
to be sent for the final rule did not involve any continued 
improvement in emissions.
    And so the assumption had to be that somehow by the magic 
of the market that consumers would go out and buy these 
vehicles because they'd be cheaper and therefore we would see a 
faster fleet turnover.
    But that same analysis in the--again, in the proposal--was 
that there would also be a safer rule. We would have more 
safety because people would buy cars but they wouldn't drive 
them. So they would be leaving the cars in the garage, in 
effect.
     We've also seen some, frankly, unsupportable citations in 
the rulemaking record regarding the costs of the standards in 
any event with wild swings.
    Somehow between President Obama and President Trump, the 
cost doubled. Just happened that way without any noticeable 
change in the state of the economy.
    So I think we are skeptical. We, of course, will look very 
closely at whatever the final regulation is. But that's all I 
can say.
    Ms. Matsui. OK. Well, thank you very much for appearing 
today, and I yield back.
    Mr. Cardenas. The gentlewoman yields back.
    And next we have the gentleman from Illinois, Congressman 
Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman, and I don't want to 
tangle with my friend, Doris Matsui. She's just too nice of a 
lady, and I am glad Debbie Dingell is here because I think 
the----
    [Laughter.]
    Mr. Shimkus. Well, I will tangle with her, but she'll 
tangle back.
    You know, the elephant in the room is, are you guys talking 
or are you not, and are we going to get to some type of 
agreement? So I would like to ask unanimous consent that this 
letter that we are all talking about that I don't think has 
been appropriately asked to be submitted for the record, be 
submitted for the record.
    Mr. Cardenas. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. Thank you. And, Mary Nichols, it is great to 
have you here. Obviously, you work for the State of California. 
I have great respect. Don't take this in any adversarial role. 
We are just trying to get the answer.
    So Administrator Pruitt--I mean, Wheeler--in this letter 
said, ``When she finally offered a counterproposal maintaining 
the previous administration's standard with one extra year of 
compliance, she''--referring to you--``conveyed that outgoing 
Governor Brown and incoming Governor Newsom had not approved 
her counterproposal. She also informed me that the Attorney 
General Becerra had not approved her counterproposal, having 
already said that he planned to sue EPA. Further, she informed 
me that the members of the California Air Resources Board had 
also not approved her counterproposal.''
    Of course, now, the letter is a couple more paragraphs. I 
think you saw it. True or false, or yes or no, or----
    Ms. Nichols. How about if I say ``out of context and 
therefore false''? Because he's taking words that were stated 
on different occasions about different things and putting it 
together.
    Mr. Shimkus. So maybe--yes, reclaiming my time. You know, I 
know Debbie Dingell pretty well. I think what she and I would 
want to do is get you two in a room and see what the facts are 
and see how we can get some negotiated agreement, because I 
think everyone said we need a national standard. We don't want 
to destroy Federal--there's the interstate commerce clause.
    We don't want it perceived--I am telling you, rural 
southern Illinois, if it is perceived that California is 
driving this train, that's not positive, right. Just telling 
you. How about it, Larry, right? Same thing in southern 
Indiana.
    So we just need a national standard. We need to move 
forward. We need to get in the room and someone--it could be 
he-said/she-said. But we are not going to know that until we 
get focused, and I hope we do that sooner rather than later.
    You know, President Trump was elected to be a disruptor, 
and he has--and he disrupts about everything in agencies and in 
government. And I will tell you there's a lot of people in this 
country who like that. They feel government is too big, costs 
too much, and directs us and tells us what's best for us.
    I think that's the gut of this problem, too, is that I want 
to make my own decisions. I want the autos to build cars that I 
want to buy. I don't want big government and a nanny State 
telling me, well, it is best for kumbaya and the world and you 
can only have these type of choices. That's the uniqueness of 
this environment we are in.
    And so eventually--I tell people--they think we are very 
dysfunctional here in Washington, and we are, most of the 
time--we eventually get to compromise, and that means give and 
take on both sides.
    So I would appeal to you all and I would appeal to the EPA. 
You know, we had our--the first panel, they said they're 
willing to talk, they're willing to listen, and I am sure 
there's some of us that would--if there's any way we can offer 
assistance in getting people into the room, I think we'd be 
willing to do that.
    Ms. Nichols. May I just comment on the elephant that's in 
the room, and that is the option of California.
    Mr. Shimkus. And it is not me.
    Ms. Nichols. No, it is not you, sir.
    Mr. Shimkus. I've got my elephant tie on.
    Ms. Nichols. This is about the fact that in those 
discussions it was made very clear to us from day one that this 
administration was determined to take away California's waiver 
for the current standards that we have in effect as well as for 
any future standards, and then we were told it was up to us to 
come up with a counterproposal that the administration would 
accept, and if they somehow found it acceptable they might 
possibly--and this was really only hinted at--consider not 
moving right away to take away the waiver.
    I ask you whether you or any State official, if you were a 
State official, would have considered that to be a starting 
point for negotiations, when you're already being told that 
there's a determination to treat you as illegitimate to begin 
with.
    Mr. Shimkus. Well, I am in the minority party, so that's 
not a good person to ask right now.
    [Laughter.]
    Mr. Shimkus. So, but I appreciate it, and thank you for 
your service.
    I wish I would have had 5 minutes with all of you, but I 
wanted to make sure we addressed this issue.
    I yield back.
    Mr. Cardenas. The gentleman yields back.
    Next we'll go to the gentleman from Oregon, Congressman--
California, I am sorry--McNerney. Yikes.
    Mr. McNerney. Yikes. Yes.
    [Laughter.]
    Mr. McNerney. Well, anyway, I thank the chair and I thank 
the panel. I will say, really good testimony. I appreciate all 
of you really, and I appreciate Mr. Shimkus' willingness to be 
bipartisan and compromise. So we'll work it out.
    Chair Nichols, I would like to ask about the success story 
of the Clean Air Act, which is that the Government sets the 
industry standards and then industry figures out best how to 
meet those standards. So please answer briefly, if you would. 
What role do you think California regulations have played in 
driving innovation? What do you think their proposal rule would 
do to incentives for innovation?
    Ms. Nichols. Over the years--thank you, Mr. McNerney--the 
California standards have resulted in a number of important 
innovations, one being, of course, the catalytic converter, 
which was first adopted in response to California's emissions 
standards and then became a national standard, and another 
being on-board diagnostic equipment, which took away a lot of 
the questions and burdens for certification of vehicles, 
because there's now a computer chip that basically tells you 
what's going on with the car. So it has been very successful.
    Mr. McNerney. Well, there are plenty of examples.
    Ms. Nichols. Yes. So there are lots of examples of that. 
The current proposal, we believe--and I think this is what the 
industry has said--by taking away the year-over-year 
improvement requirement is, assuming they go forward with this 
proposal--does take away a major incentive for continuous 
improvement by the industry.
    So we think it is a step backwards.
    Mr. McNerney. Thank you. On another topic that's similarly 
related, my understanding is that there was substantial 
technical collaboration between the EPA, NHTSA, and CARB in the 
past. Is that correct, and did that happen in the development 
of this proposed rule?
    Ms. Nichols. It did not. There has been a long history of 
EPA and CARB working together, taking on different pieces of 
analyses, sharing information at the technical level, and this 
did not happen in this rule at all.
    Mr. McNerney. Thank you. Well, I urge the EPA in this to 
invite Chair Nichols back to the negotiating table and do this 
again in earnest.
    Mr. Hermiz, you had an interesting testimony. I appreciate 
your comments. At one point, you said you were--you urged 
objectives but without specific prescriptions--something in 
those words. Could you elaborate on that a little bit?
    Ms. Nichols. When I was referring to the negotiating 
process or----
    Mr. McNerney. No, I was talking to Mr. Hermiz. Mr. Hermiz.
    Ms. Nichols. Oh, excuse me. I am sorry.
    Mr. Hermiz. That's OK.
    From our perspective of Shiloh and MEMA, we are pursuing 
and feel that alternative 6 or 8 would bring both jobs as well 
as investment into the U.S. and continued growth.
    So we feel that it is important to have continuous 
improvement--year-over-year improvement in the CAFE standards. 
We did recommend alternative 6 or 8.
    Mr. McNerney. OK. But you don't want specific 
prescriptions?
    Mr. Hermiz. Well, in alternatives 6 and 8, they had 2 
percent and 3 percent objectives built in. The difference 
between 6 and 8 was just the year that they started.
    So there are specific numbers in that proposal. There are 
the different alternatives presented. There was a different 
percentage.
    Mr. McNerney. Thank you.
    Ms. Lew, you refuted the safety claims that are made by the 
administration. Could you detail that a little bit, please?
    Ms. Lew. Yes. First, I would state that safety is the 
highest priority in transportation policy, and there's a long 
history of this being considered as a factor when setting fuel 
economy standards. It has always been part of the process of 
contemplating the standards.
    The issue in the way that the matter of safety has been 
treated is that it kind of evolves based on the very faulty 
assumptions about driver behavior. There are kind of two pieces 
that go into that.
    One is much-inflated assumptions about what's called the 
rebound effect, which is the assumption that more fuel-
efficient cars make people drive more. The second is actually a 
claim that is in the opposite direction, which is that stronger 
fuel economy standards make people keep a lot of old cars and 
then those old cars drive more.
    The combination of these two factors is that the model 
projects a significant increase in vehicle miles traveled, 
which is correlated to crash rates. So it is projecting crash 
rates based on kind of inflated numbers of miles assumed about 
how people drive.
    You know, I think another piece--you know, the most tested 
component relative to safety and fuel economy is about the 
effects of mass reduction, and, you know, the administration's 
own analysis actually shows that for larger vehicles, which is 
where mass reduction is typically applied, later cars are 
safer.
    Mr. McNerney. Thank you.
    And I wanted to ask Mr. Friedman a different question. I 
know you're shaking your head in agreement.
    But then you said there's no affordability crisis. 
Inflation-adjusted prices are stable. In 7 seconds or so could 
you answer that?
    Mr. Friedman. Absolutely. That's the case. All the data 
shows that cars today are affordable. You know, before folks 
talked about how $37,000 is out of reach of most Americans. I 
mean, new cars have been out of reach for most Americans for 
decades.
    The market works because there's--two-thirds of people buy 
used cars, and when fuel economy was terrible it was the same 
case.
    So the sad reality is Americans need to be paid more to be 
able to afford new cars. I would also just say on safety the 
argument that NHTSA uses would indicate that any tax credit 
would----
    Mr. Cardenas. The gentleman's time has expired.
    Mr. Friedman [continuing]. Cost lives on our highways. It 
makes no sense.
    Mr. Cardenas. Thank you, sir. The gentleman's time has 
expired.
    Next, we have the congressman from Indiana, Congressman 
Bucshon.
    Mr. Bucshon. Thank you very much.
    Mr. Friedman, I am just curious. Is your testimony the 
official position of Consumer Reports and the publisher of 
Consumer Reports magazine?
    Mr. Friedman. My position is the official position of the 
nonprofit organization Consumer Reports. We guard our 
journalistic independence----
    Mr. Bucshon. Right. So what you're saying is--what I can 
say is that Consumer Reports magazine, publishers, and 
everyone, that your position and, really, a strong defense for 
your work at the Obama administration, is the official position 
of Consumer Reports, including the what I would call 
substantially--can't say the word--unsubstantiated claims about 
the administration ignoring safety?
    Mr. Friedman. Well, first, I would say I am not involved 
with the----
    Mr. Bucshon. I just want to make that clear to the American 
public, that Consumer Reports is----
    Mr. Friedman. Second, I would just say----
    Mr. Bucshon. I take back my time. Consumer Reports, and 
we've had others from your organization testify, are making 
unsubstantiated claims about an administration that they don't 
like.
    Ms. Lew, could you----
    Mr. Friedman. There's nothing unsubstantiated about no----
    Mr. Bucshon. This is my time.
    Mr. Cardenas. Mr. Friedman? Mr. Friedman?
    Mr. Bucshon. This is my time. So the American people should 
know that Consumer Reports magazine and the publisher and the 
organization, the nonprofit, which I read all the time--my in-
laws love--is taking your testimony as their official position 
on this issue.
    So, Ms. Lew, whose data did you use to refute the 
administration's safety assumptions?
    Ms. Lew. The comments that I made are based on having read 
the regulatory impact analysis and the----
    Mr. Bucshon. So it is your opinion?
    Ms. Lew. It is my analysis of the table----
    Mr. Bucshon. So it is your analysis. There's no one who's--
that you have read the data that they have assessed it. This is 
your personal opinion that you are refuting their safety 
assumptions yourself?
    Ms. Lew. I have read many of the documents in the--that are 
docketed as part of the legal----
    Mr. Bucshon. OK. So the answer to that is yes, it is your 
opinion. There's no--there's no solid data. You're giving your 
opinion, and you're here to testify and give your opinion.
    But just don't make it sound like that everybody in the 
world thinks that the safety assumptions that are being made 
are not necessarily correct.
    There's a reasonable--reasonable people can have 
disagreements.
    So Mr. Schwietert, it is my understanding that company 
fleets are not attaining the tailpipe standards despite 
investment in conventional technology. Can you describe how 
compliance attained through credits generated when the 
standards were less stringent?
    Mr. Schwietert. Sure. Basically, the existing program 
allows manufacturers to earn credits, which of course you might 
accumulate on the front end and burn on the back end. It is 
almost a bell curve.
    So manufacturers aren't just given credits. They're awarded 
credits as a result of certain technologies or efficiencies.
    Mr. Bucshon. Sure.
    Mr. Schwietert. Now, the most important thing here when 
everybody's talking about the 2012 rule is that the standards 
envisioned into the future today are unattainable, and I can 
point to----
    Mr. Bucshon. Yes, can I make a comment on that? Because--
and you can answer this too--the current pace of credit use, is 
it sustainable and is it expected to run out? Based on what you 
were probably getting ready to say.
    Mr. Schwietert. That is a very good point.
    By our estimates, all existing credits will be exhausted by 
2021 and in particular, even with the EPA trends report, which 
is not a political document--it is a compliance document issued 
from year '17--this is very important--that there's a 
substantial gap between government targets and what Americans 
are buying.
    In fact, only about 5 percent of 2018 model year's vehicles 
meet the 2023 greenhouse gas targets, and there aren't 
available credits into the future.
    Mr. Bucshon. So what happens when they run out?
    Mr. Schwietert. Basically, unattainable standards don't 
help anybody. They don't help autoworkers, they don't help 
manufacturers, and they price people out of vehicles.
    Remember, it is not what manufacturers produce. It is what 
consumers buy. We have a success story related to the increased 
efficiency of vehicles. But if consumers cannot afford those 
cleaner, more efficient vehicles, then we all lose.
    Mr. Bucshon. Yes, that goes into my question, you know, and 
you just discussed it. The consumers' preference, based on 
vehicle purchases and the burden of these consumer preferences, 
puts some pressure on the standards, right? That's what you 
just said, basically.
    If the consumers can't feel like--their preferences are 
different or they can't afford it, then it puts pressure on the 
standards, right?
    Mr. Schwietert. That's absolutely correct. It is not a 
question of whether automakers support increased standards. We 
do. No automaker has asked for flat standards.
    And, really quickly, Mr. Friedman made a point as it 
relates to polling. As part of my submitted testimony, I 
submitted charts that show the breakdown of what your 
consumers--not what polling shows, not what aspiration shows--
of what consumers may want to buy in the future.
    It actually shows you the vehicles that your constituents 
are buying, which is a huge success story when you look at the 
improvement that's being made.
    No automaker is asking for flat standards. We believe all 
sides can come together, find an agreement in the middle 
somewhere between flat----
    Mr. Bucshon. Yes.
    Mr. Schwietert [continuing]. Somewhere between the previous 
standards.
    Mr. Bucshon. Agreed. I want to--and finally, I just want to 
associate myself with the comments of Congressman Shimkus about 
how, you know, we need to sit down and find a resolution to 
this in a way that everyone is comfortable with.
    I yield back.
    Mr. Cardenas. The gentleman yields back.
    Mr. Friedman, you were asked a direct question and, as the 
chair, I am taking the prerogative to allow you to briefly 
respond to that question that was directed at you.
    Mr. Friedman. Thank you. I appreciate that.
    First, I just want to clarify the record. The light-duty 
vehicle fuel economy standards and greenhouse gas standards----
    Mrs. Rodgers. Can we clarify what the question was, Mr. 
Chairman?
    Mr. Cardenas. My recollection, a few minutes ago Mr. 
Bucshon did direct a question. OK, so on that can you--can you 
please clarify the response?
    Mr. Friedman. Well, sure. To clarify, as I understood the 
question, it was whether or not those are the official 
positions of Consumer Reports and tied to my past work in the 
previous administration.
    I want to be clear that I was not in the previous 
administration when the light-duty vehicle standards were 
established.
    So yes, this is a data-driven position----
    Mr. Schwietert. That's not correct.
    Mr. Friedman [continuing]. According to the Consumer--I 
believe I know when I was in the administration and the light-
duty vehicle----
    Mr. Cardenas. Mr. Schwietert--Mr. Schwietert--Mr. 
Schwietert, you do not have the floor. Mr. Friedman has the 
floor. Thank you very much.
    Mr. Friedman. I do believe I am quite aware of when I 
joined the administration, including when the auto industry 
brought many safety challenges in front of us. So I would be 
happy to discuss that further if you'd like.
    Mr. Cardenas. Thank you, Mr. Friedman.
    Mr. Friedman. But I will say again I was not there----
    Mr. Cardenas. Thank you, Mr. Friedman.
    Mr. Friedman [continuing]. When these standards were 
established.
    Mr. Cardenas. Thank you, Mr. Friedman.
    And Ms. Lew, you were also directed a statement that you 
were trying to answer, so I am going to give you an opportunity 
to respond.
    Mrs. Rodgers. Mr. Chairman, would you state what your 
statement is or what we are----
    Mr. Cardenas. The statement did not--the statement didn't--
the statement did not come from me. It came from Member 
Bucshon, and she was in the middle of answering the statement 
that was directed at her.
    Mrs. Rodgers. Can we review what that statement was? I 
think we were talking about----
    Mr. Cardenas. We can, but she'll restate it as best she 
can. Go ahead.
    Mrs. Rodgers. I believe we were talking about the----
    Mr. Bucshon. Can I--parliamentary inquiry.
    Mr. Cardenas. Sure, Mr. Bucshon. Parliamentary inquiry.
    Mr. Bucshon. Yes. I asked a question, she answered it, and 
now you're giving her out-of-order time to clarify and further 
talk about her position. She answered my question.
    So I would say that that is out of order of the committee.
    Mr. Cardenas. OK. Duly noted.
    Congressman Bucshon?
    Mr. Bucshon. Someone on your side can ask for time and then 
allow her to clarify. But taking the liberty of the chair to 
allow people to clarify answers that you disagree with----
    Mr. Cardenas. Mr. Bucshon, your----
    Mr. Bucshon [continuing]. The person asking the question is 
out of order.
    Mr. Cardenas [continuing]. Parliamentary inquiry is 
understood by the Chair. That being the case, I will recognize 
my time, as I was next on the list.
    So I will, on my time, in my 5 minutes--Ms. Lew, please 
briefly clarify your answer to the statement earlier.
    Ms. Lew. I believe that we were discussing my observations 
about the safety assertions in the rule, and I would just 
clarify that, you know, my evaluation of this comes from, you 
know, my knowledge of the topic from when I worked in the Obama 
administration very closely on the NHTSA model and have a deep 
understanding of the kind of differences between what was 
modeled before and what was modeled since and, you know, from 
kind of juxtaposing the conclusions and measuring them against 
common sense.
    Mr. Cardenas. Thank you so much for that clarification.
    On my time again, for decades California has used its 
waiver authority to increase the number of zero-emission 
vehicles on the road in order to decrease traditional tailpipe 
pollution in already polluted and overburdened regions like Los 
Angeles and its basin.
    The bottom line is that we in California have been working 
hard to reduce the air pollution so we can breathe cleaner, 
safer air.
    The safe rule proposes to revoke California's authority to 
continue mandating increased sales of zero-emission vehicles in 
the State.
    I would like to ask you, Ms. Nichols, if the Trump 
administration revokes California's waiver, what effects do you 
anticipate on the public health of California's residents, 
particularly those who live near highways--what the effects 
would be.
    Also, could California see increased hospital visits, lost 
work days, and lower life expectancies?
    Ms. Nichols. Yes, we are concerned about the direct 
relationship between petroleum consumption and emissions, and 
we have done some analysis. We've also attempted to obtain from 
the administration--I know this came up earlier in questions of 
others--but in terms of facts that are relied.
    We need to see all the studies that the administration is 
using to base their proposal on, including the claims that 
there won't be environmental effects, and we are now actually 
in court on that issue because they will not give us the 
underlying data that we are requesting.
    Mr. Cardenas. I would also like to note that long-term 
children's health studies in Los Angeles and the region have 
demonstrated a significant positive correlation between 
increasingly stringent vehicle standards and positive health 
outcomes near highway communities.
    That means that our children, our grandkids, et cetera, 
will be able to breathe cleaner air if we were to continue with 
the standards.
    I know for myself, having grown up in Los Angeles and so 
did my 10 brothers and sisters, we were not allowed to play 
outside when we had smog alerts.
    I am very proud to say that, because of the leadership of 
people like you, Ms. Nichols, and a few other folks around the 
country that agreed with California, we have improved those 
standards to the point that my children never had to deal with 
a smog alert.
    But what I am really concerned about today is, if we go 
back in the opposite direction that my two grandchildren are 
going to be facing smog alerts like my children don't have to--
however, like I had to.
    I am hoping that we can come up with a responsible 
compromise that takes public safety first, the health of all 
Americans as well as our top priority, all of us, both the 
administration and the legislature.
    In addition, I would like to say that it has also been 
documented positive health outcomes resulting from science- and 
health-based vehicle standards. Recent research also shows that 
children living near highways and communities are 
disproportionately likely to suffer cognitive impairment as 
well.
    Ms. Nichols, what role has California's vehicle regulations 
played in improving children's health, and how do you expect 
the Trump administration's rollback to affect the health and 
development of our children?
    Ms. Nichols. Thank you.
    The long-term studies that you refer to that have been 
carried out over many years now have shown really for the first 
time an actual decrease in cases of asthma and hospitalizations 
of children as a result of the improved air quality standards 
that we have in effect.
    And so we now have the positive side of the story to talk 
about, and it's one that we are very determined not to see go 
back. I think there may be an assumption that somehow people in 
California drive, you know, different kind of vehicles than 
other people do.
    We drive trucks. We drive crossovers. We drive SUVs. All of 
those vehicles are sold in California, and people love them and 
we want to see them continue to be able to drive all those 
kinds of cars and trucks.
    I think the problem that we are facing is that, as we move 
forward with the standards, there are some companies that are 
going to have to buy credits, and that's a problem.
    Mr. Cardenas. Thank you, Ms. Nichols.
    With that, my time having expired, next we'll go to 
Congresswoman Dingell.
    Mrs. Dingell. Thank you, Mr. Chairman.
    Chair Nichols, I want to thank you for flying across the 
country to be with us this afternoon.
    My first question is just a yes or no, but I will give you 
time to elaborate further on it in a minute.
    The world has changed from the last time there was a 
negotiated deal on fuel economy standards in 2012. Gas prices 
are significantly lower today than we expected back then, and 
the overall adoption rate of electric vehicles is also far 
lower than predicted, and contrary to Mr. Friedman, I do think 
they matter.
    Chair Nichols, would you agree that conditions have changed 
since 2012 and are different than what we expected, yes or no?
    Ms. Nichols. Yes.
    Mrs. Dingell. Thank you.
    It is hard to make projections far into the future, and 
it's clear there is a need to make some tweaks. But we don't 
have to throw the baby out with the bathwater. The Trump 
administration has been reckless in proposing these flat-line 
standards which would hurt jobs in my State and harm the 
environment as well.
    Chair Nichols, do you agree that cutting a deal with the 
Trump administration is the best way forward to address our 
twin goals of environmental protection and affordability? Are 
you prepared to go back to the negotiating table in good faith?
    Ms. Nichols. We have always been prepared to go to the 
negotiating table in good faith. We still are.
    Mrs. Dingell. Thank you.
    I am going to go to Mr. Nassar now for a minute because I 
want to make sure that everybody did understand you in your 
testimony, asking you the same questions that I asked. I assume 
that you don't think that flat line is correct.
    But do you agree that there is a need to go back to the 
table--that circumstances have changed? And how does the 
uncertainty of the standards impact UAW members and the 
industry?
    Mr. Nassar. Well, first of all--thank you for the 
question--first of all, the uncertainty, you know, as I said, 
these are global companies, and they're just looking at where 
the most stable investments and the growth can be, and if it's 
less attractive here, they'll go elsewhere. So that's that 
part.
    As far as flat line, we think that that is taking us 
backwards. I do want to say what we like about the current 
standards is the footprint model in general, because that 
really takes it, you know, not one size fits all, and also the 
credit system in general is a good idea.
    So the framework is already there. We do think some 
adjustments could be needed. But that's why we should all be 
talking and working together.
    Mrs. Dingell. But you do think they're needed? You don't 
think existing standards--or do you not think the existing 
standards are a problem?
    Mr. Nassar. Oh, no. The----
    Mrs. Dingell. That's what I want to be clear on.
    Mr. Nassar. Today----
    Mrs. Dingell. I don't want anybody thinking UAW thinks that 
there haven't been changes in the climate.
    Mr. Nassar. No. No. No. What I am saying is, going forward, 
when we look to 2025, we should be talking and making--we 
always looked forward to the midterm review, and we think that 
discussion is needed. It is just not happening now.
    And by the way, we played a role in getting all the parties 
together before. We want to do it again, but we need----
    Mrs. Dingell. Well, you were at the table last time. Do you 
believe you should be at the table again?
    Mr. Nassar. Yes, I think we all should be. For sure, 
everyone here.
    Mrs. Dingell. Yes. Thank you. I am going to come back to 
you in a minute, but I want to make sure I get my questions in.
    Mr. Schwietert--David, I am sorry--is it correct that fuel 
economy targets in other countries across the globe are harder 
than in the United States?
    Mr. Schwietert. That's not necessarily the case, if you 
look at the types of vehicles that are driven in the U.S. The 
U.S. is certainly an innovator as it relates to the vehicles 
that can----
    Mrs. Dingell. So we actually have higher standards?
    Mr. Schwietert. We do.
    Mrs. Dingell. Thank you.
    Are your companies investing millions of dollars today to 
meet those higher global requirements? Yes or no?
    Mr. Schwietert. Not just millions, but tens of billions.
    Mrs. Dingell. Thank you. Does the Auto Alliance have member 
companies which are investing large sums of money into R&D for 
electric vehicles?
    Mr. Schwietert. Absolutely. They're fully committed.
    Mrs. Dingell. I hope, therefore, it's clear to people here 
that the Trump administration--California is the best way to 
proceed for the environment, for jobs, and for the future of 
technology, and there are Republicans and Democrats here who 
want to help get everybody back at the table.
    I am going to go back to you, Mr. Nassar, for a minute 
because it sounds like the United States is falling behind in 
the production of electric vehicles.
    I am not sure it's in the production, but what do we need 
to do to support EVs? What will happen if the Congress does not 
support policies to support EVs?
    Mr. Nassar. Well, first of all, the investments in EVs is, 
you know, Germany, China, other places really have a more I 
would say systematic and greater investment plan.
    So what's simply going to happen is, we don't want to look 
up one day and say, hey, we are not making the vehicles that 
people are buying or needing and therefore our industry has 
really taken a hit and a lot of working people, you know, don't 
have a job.
    And I just want to say, you know, it's really important 
that, when we do these standards, we do them in a way that 
looks at the longer-term impact as well as the short term.
    Mrs. Dingell. So do we also need to be investing in 
infrastructure and tax credits?
    Mr. Nassar. Absolutely. So as far as EV, infrastructure is 
needed, also tax credits also. But I want to say it again that 
with Federal subsidies there should be requirements that it has 
to be built in the United States, that I mean that's tax 
credits as well and also, yes, we need to build out the EV 
infrastructure a lot more.
    Mrs. Dingell. Thank you, Mr. Chair.
    Mr. Cardenas. The gentlewoman yields back.
    Next we go to Congresswoman Barragan from California.
    Ms. Barragan. Thank you.
    Mr. Friedman, I want to start with you. I saw an article by 
Jeff Plungis with Consumer Reports. He writes for the magazine, 
the auto section, is that correct?
    Mr. Friedman. Yes, that's correct.
    Ms. Barragan. The article that I am looking at that I saw 
that he wrote for the magazine, it says, ``Trump administration 
fuel economy freeze would cost consumers.'' Are you familiar 
with that article?
    Mr. Friedman. I am, yes.
    Ms. Barragan. And is this something that would have been 
published in the magazine?
    Mr. Friedman. I would have to double check whether it was 
in the magazine or online. We are now a full digital publisher 
as well.
    Ms. Barragan. It says that a new Consumer Reports survey 
shows that most respondents across party lines value more 
efficient cars even if gas is cheap. Does that sound about 
right?
    Mr. Friedman. Absolutely. In fact, survey after survey 
shows that not only do consumers value it, by a factor of four 
they want more fuel economy more than they want things like 
horsepower.
    Ms. Barragan. It also goes on to say that automakers have 
shown that they can make more efficient cars that can create 
more power and speed without dramatically raising the cost to 
consumers.
    Is that also accurate?
    Mr. Friedman. It is actually amazing. I mean, we talk about 
the innovation of the American auto industry, and when you 
unleash that innovation, look out. It is amazing what they can 
do. The challenge is it often takes support from the Government 
and a push from the Government for them to truly unleash that 
innovation.
    But absolutely, they can do it. That's not the issue.
    Ms. Barragan. Thank you. We are hearing a lot today about 
the average cost of cars, and then it prompted me to say, well, 
geez, how much are these clean cars costing versus luxury 
expensive cars that maybe folks in lower-income markets may not 
even qualify to get even before Clean Car Standards went into 
effect?
    I, myself, purchased a hybrid back in '07 because I wanted 
to, A, do my part on the environment, and too I wanted to help 
the environment, and what I've seen is a dramatic savings in 
cost overall in what I'm spending.
    So maybe I pay $3,000 or $4,000 more at the outset to buy a 
cleaner car. But out in California, we got a rebate. We have 
tax credits, which made me think, why can't more people in my 
community afford to get these kind of cars so they could save 
long term?
    I represent a district that includes Compton. It is Watts. 
It is one of the most heavily polluted districts in the 
country. It's surrounded by the Port of Los Angeles. It's 
surrounded by three freeways. So when you talk about air 
pollution, you're talking about my constituents.
    And where is that coming from? The number-one source it's 
coming from, you know, diesel, fossil fuel-burning cars. And so 
I am all for the investment in clean cars and really appreciate 
what California has been doing to lead on this.
    Chair Nichols, how will California continue its efforts to 
clean up the air for constituents like mine if this proposed 
rule is finalized?
    Ms. Nichols. We will have a serious problem, of course, 
because we've counted on these emissions reductions in our 
State implementation plans that we submit that are required by 
the Clean Air Act and by EPA to show how we are going to try to 
meet the national clean air standards.
    So in addition to the environmental justice concerns, which 
you have raised and others have also, which the Agency did not 
address in their proposal, we just have a basic compliance 
question of how we will meet air quality standards.
    We will have to look at other alternatives, and frankly, 
they're none of them terribly attractive. But there would have 
to be measures taken to reduce the amount of driving of 
existing cars and to otherwise try to find ways to keep pushing 
for cleaner cars.
    We already, as a State, use funds from our greenhouse gas 
reduction fund to subsidize the purchase of new vehicles--
cleaner vehicles--to turn over the plate. This is a program 
that's had a lot of support from the auto industry.
    But there's a limit to how much of that we can do, and so 
we would have to be looking at industry, at other sources 
perhaps, to make up the gap.
    Ms. Barragan. Well, thank you, and I want to thank you for 
your leadership on this issue and in California. We hear from--
today we've heard that, you know, this is bad for consumers. 
It's costing them money.
    There has been no discussion about the cost on public 
health and the cost on the negative impacts for people who live 
in communities that are disproportionately having to take the 
burden of higher air pollution and being surrounded by 
freeways, which, by the way, you're not seeing in the high-
income communities.
    You're seeing them put into low-income communities. You're 
seeing them put into communities of color. And so we need to 
also consider the cost to public health, which I believe is a 
public health crisis.
    And with that, I yield back.
    Mr. Cardenas. The gentlewoman yields back.
    Next, we have the Congressman from California, Dr. Ruiz.
    Mr. Ruiz. Thank you. Thank you to all of you for coming 
here today. It's especially great to see Mary Nichols from 
California Air Resources Board.
    For the past four decades, California has been a leader in 
the Clean Car Standards. California's fuel economy standards 
have helped push the entire automobile industry towards 
vehicles that are safer, cheaper, and better for the 
environment.
    The Trump administration's rollback of the standards is 
misguided and unacceptable. We've heard all the numbers today. 
The rollback would add an additional 7 billion tons of carbon 
to our atmosphere by the end of the century, more than 500,000 
additional barrels of oil used per day.
    But I want to focus on the effect this regulation will have 
on the health of my constituents. Riverside County has long 
suffered from some of the worst air quality in California.
    The mountains--the beautiful mountains that surround the 
Coachella Valley--trap the smog and pollution from the millions 
of vehicles that clog the roads from L.A. through my district 
on Interstate 10.
    The Clean Air Act grants our State the authority to set its 
own motor vehicle standards because of the unique air quality 
issues that we face.
    Yet, there are still communities where exposure to harmful 
air pollutants such as particulate matter is significantly 
higher than the State average, sometimes more than twice as 
high.
    And this is an environmental justice issue because research 
shows that Latinos, African Americans, and low-income 
communities in California are exposed to more tailpipe 
pollution than any other demographic.
    Chair Nichols, could you please provide some insight into 
the health risks that minority and low-income communities in 
our home State of California disproportionately face?
    Ms. Nichols. Certainly. I think we have seen and in some 
cases have helped to sponsor some of the research that 
indicates hospitalizations and days of missed school by 
schoolchildren, the increased use of asthma inhalers on smog 
days.
    I would be happy to provide you with some additional 
statistics on that. But I think we now know for a fact that 
there's a direct correlation between poverty and living in 
areas that experience a disproportionate amount of pollution.
    Mr. Ruiz. And that pollution and poverty is also correlated 
with mortality?
    Ms. Nichols. Correct.
    Mr. Ruiz. So people that live in high-polluted areas live 
less than people who live in nonhigh-polluted areas due to air 
quality?
    Ms. Nichols. Yes. And if you will permit me, one of the 
things that has given California a lot of encouragement over 
the last few years has been that, in other parts of the world 
such as China or India where they experience air pollution 
problems that are much worse than we ever see anymore in our 
State, they are turning to California and looking to our 
standards and our experience, which we think will also lead to 
them buying better cars.
    Mr. Ruiz. Over the past 10 years, Riverside County's air 
quality has been steadily improving, but we have a long way to 
go. You mentioned in your testimony that air pollution will 
jump in areas like L.A. if these regulations are approved.
    How will the Trump administration affect air quality and 
the presence of pollutants in the areas like the Coachella 
Valley?
    Ms. Nichols. The correlation between changing the 
greenhouse gas emission standards and other pollutants is a 
direct one. Technologies that would be used to improve the 
emissions, including things like better air conditioning 
systems, also will have an effect on health.
    Mr. Ruiz. And I am an emergency physician. As a physician I 
am all too familiar with the health effects associated with 
particulate matter exposure.
    These are small particles that penetrate the lungs that can 
go straight into the alveoli blood barrier into your 
bloodstream, which can cause premature death, asthma, 
cardiovascular ailments, and a lot of other lung problems.
    In developing this proposal, the EPA and NHTSA weighted 
eight different policy options--eight different policy options. 
They picked the one with the highest particulate matter 
emissions--the highest of all these eight options, not to 
mention the highest sulfur dioxide emissions.
    NHTSA's own draft environmental impact statement admitted 
that each policy option would lead to increased adverse health 
outcomes including, quote, ``increased incidences of premature 
mortality, acute bronchitis, respiratory emergency room visits, 
and work loss days,'' end quote.
    Again, they chose the option with the highest pollution 
increase. So yes or no, is it correct to say that EPA and NHTSA 
picked the policy option that poses the greatest risk to human 
health?
    Ms. Nichols. That would be the effect, yes.
    Mr. Ruiz. Thank you. Yield back.
    Mr. Cardenas. The gentleman yields back.
    I would like to take the opportunity to clarify for the 
record. A few minutes ago, I allowed and made the mistake of 
allowing a courtesy of finishing one's thought of a witness.
    However, I should have done it on someone's time, and I 
made that mistake. So I just want to apologize to all the 
committee members and also to the witnesses and everybody else 
who's taken the time to listen to this committee.
    [Indeterminate speaker.] Thank you.
    Mr. Cardenas. So--you're welcome. I've only been the chair 
for just a few minutes, and I made a mistake. I am not going to 
do that again.
    Mr. Shimkus. It's your first one all year, I hear.
    [Laughter.]
    Mr. Cardenas. There you go. Tell my wife that.
    Anyway, next I recognize Congressman Flores from Texas.
    Mr. Flores. Thank you, Mr. Chairman.
    Mr. Schwietert, I would like to clarify a point. The 
proposed SAFE Vehicle Rule is a proposed rule, not a final 
rule, correct?
    Mr. Schwietert. That is correct, as of right now.
    Mr. Flores. OK. Thank you.
    I would like to yield the balance of my time to Republican 
Leader McMorris Rodgers.
    Mrs. Rodgers. I appreciate the gentleman yielding, and I 
appreciate the former chairman--that was in the chair, at 
least--Cardenas for just acknowledging the importance of 
keeping regular order as we are working through this discussion 
this afternoon.
    And I also think it is important to just--yes, as Mr. 
Flores just pointed out, there's eight alternatives that have 
been brought forward. There is no decision. There's no 
recommendation right now.
    We are having a hearing and a discussion today that I think 
is very important. I, too, want to just join those who have 
been urging people to come back to the table. Get the parties 
back to the table.
    We have some shared goals here. We want to reduce carbon 
emissions. We want to increase safety. We do not want to price 
hard-working Americans out of the cleaner, safer cars, and I 
think we need to acknowledge that the cars on the road today in 
America are 12 years old. Those aren't the clean, new, safe 
cars on the road.
    I wanted to go back to the--just the question around 
Consumer Reports, and we had a--we were working through 
Consumer Reports and their statements and what their positions 
are.
    I wanted to give Mr. Schwietert just the time to just give 
some more insights as to the development of the former rule in 
the former administration.
    Mr. Schwietert. Thank you much, Congresswoman McMorris 
Rodgers.
    I guess similar to Congressman Lujan, I guess, obviously, 
in relation to the quorum, certainly apologize if I interjected 
during the chair's time.
    My only point as Mr. Friedman was responding was just to 
underscore, during his time and tenure at NHTSA as both Acting 
and Deputy Administrator, obviously, there were updates that 
were made to the model that then eventually found their way 
into the draft technical assessment reports.
    I was just trying to underscore that, obviously, there was 
work that was done during his time period that then influenced 
what ultimately led to where we are today.
    Mrs. Rodgers. Thank you, and just a followup, would you 
speak to innovation in America versus what's going on in 
Europe, in China, whether it's--yes, just what's--how are we 
doing competitively?
    Mr. Schwietert. Competitively, the U.S. is a leader, and 
it's not by accident. Obviously, the policies not only from 
Congress but regulated entities spur the development of not 
only innovations, whether it's, you know, automobile fuel 
economy or alternative power trains.
    Of course, this committee knows firsthand. It has been 
referenced that--close to 40,000 fatalities on our roadways. 
That's also innovations that are being led by American 
companies and ingenuity that have profound impacts, both when 
it comes to not only the traveling public but also constituents 
of yours and customers of ours.
    So the innovation that's appearing in the U.S. is higher 
than most. But it's also something that we shouldn't take for 
granted, and I think that speaks to where Congresswoman Dingell 
in the past has noted where the U.S. auto economy is actually 
pretty fragile and, obviously, there's a lot of headwinds that 
we are facing.
    So the regulations that you're having this hearing on today 
are a core baseline as it relates to the overall health of the 
industry, which then spurs that R&D investment--those plant 
expansions, those developments that lead to jobs and the 
innovative products that I think everybody comes to expect.
     Mrs. Rodgers. Thank you. I would like to yield to the 
gentleman from Illinois, Mr. Shimkus.
    Mr. Shimkus. Thank you.
    Let mee also just in this minute and a half also highlight 
the fact that, you know, I have a copy of the Federal Register. 
So I think sometimes we get off the rails because we are saying 
this is going to be a zero-change rule, and many of you in your 
testimony--I think, Mr. Schwietert, you said, like--who said 6 
and 8? We'd like 6 and we would like 8. Mr. Hermiz.
    So I was going, what's he talking about, 6 and 8. Well, 6 
and 8 are 6 and 8 of the alternative change in stringency 
issues, right, on this.
    So we could go back now using your 6 and 8, and 6 is the 
same standards through model year 2020 and then 2 percent 
increases for passenger cars, 3 percent increases for light 
trucks in model years 2021 to 2026.
    So that was helpful to me. There is no rule. There is fear. 
I understand that. Back to our comments beforehand, it's 
important that we have a national standards constitutionally. 
The interstate commerce clause--I am a big believer in it.
    And then--and I will just yield back my time. I think we 
are going to get some more time, and then I am going to talk to 
my former colleague from Louisiana.
    Mrs. Rodgers. OK. Thank you.
    I thank the gentleman from Texas. I will yield back.
    Mr. Tonko [presiding]. The gentlelady yields back.
    I will now yield myself 5 minutes.
    Mr. Schwietert, 17 automakers, including nearly all of your 
members, recently sent the President a letter noting that the 
proposed rule lacks industry support and creates untenable 
uncertainty, and that a final rule must be supported by 
California.
    You really haven't commented on the preferred alternative 
in the proposed rule today. We know you prefer a deal with 
California, but there's no indication that the administration 
will return to the negotiating table.
    So, in a yes-or-no response, absent a negotiated solution, 
does the Alliance oppose the preferred alternative in the 
proposed rule?
    Mr. Schwietert. [Inaudible.]
    Mr. Tonko. So the answer is----
    Mr. Schwietert. Which is the preferred proposal.
    Mr. Tonko. So it's no?
    Mr. Schwietert. Correct.
    Mr. Tonko. And Mr. Hermiz, do your businesses or other 
businesses in the auto industry face global competition and 
operate in a global marketplace?
    Mr. Hermiz. Yes, we do.
    Mr. Tonko. You mentioned that the administration's proposal 
may result in Europe or Asia presenting better business 
opportunities for emerging innovative technologies.
    It takes years to develop products in this sector. Is it 
possible that the uncertainty caused by this proposal will 
either strand existing investments or discourage businesses 
from making new ones in the United States?
    Mr. Hermiz. Yes, that is our premise.
    Mr. Tonko. And what role can increasing and certain 
standards play in driving innovation from the U.S. auto 
industry?
    Mr. Hermiz. Well, as we highlighted with alternative 8, 
that that investment in technology could actually drive 
additional 250,000 jobs.
    Not doing that investment or having a flat standard puts 
the estimation of 500,000 jobs at risk. So that technology 
investment needs to be here--need to encourage it to be here.
    Mr. Tonko. I appreciate that.
    And Mr. Nassar, from the workers' perspective, do you agree 
with that assessment?
    Mr. Nassar. I think absolutely that we need to have 
continued innovation standards that really push us to continue 
to move forward. Yes.
    Mr. Tonko. And so you're concerned that this proposal might 
limit the research in manufacturing?
    Mr. Nassar. Yes. Yes, concerned, and also I want to just 
say that one thing too when we are talking about new vehicles 
is I want to separate mass production manufacturing from 
research and development.
    They're not two of the same thing. Sometimes in this 
conversation they get conflated. But the answer is yes.
    Mr. Tonko. Thank you.
    And Chair Nichols, thank you again for your participating--
in fact, all of the members of the panel.
    We all hear about how these standards are critical for 
reducing climate pollution. But I hope you can help us 
understand just how important they are.
    The New York State Legislature, you may or may not know, 
just passed am ambitious, legally mandated emissions target 
schedule. Transportation is our biggest source of emissions.
    If California and, by extension, New York State and other 
States are not able to use these tools to address greenhouse 
gas emissions from the transportation sector, what options are 
there to hit our targets, and how likely are we to succeed?
    Ms. Nichols. Well, first of all, in terms of what we are 
relying on, the vehicle emission standards which we began 
working on back in 2004, represent the single largest reduction 
opportunities that we have, and as a Nation our ability to 
comply with the Paris Agreement is also fundamentally based on 
the existence of the so-called Obama standards.
    So anything that weakens or delays those standards would 
need to be made up by other improvements. There are other 
improvements available in the area of fuels, in the area of 
construction, in the area of agriculture. There are many ways 
in which our country could be reducing greenhouse gas 
emissions.
    But in terms of technologies that we know about and have 
available to us today, this is by far the most effective.
    Mr. Tonko. All right. And the transportation sector is 
something that we are trying to focus on with climate----
    Ms. Nichols. Transportation sector, again, is the single 
largest if you take together both the driving, the light-duty 
and the heavy-duty vehicles.
    Mr. Tonko. And the added benefits of California's ZEV 
standards--the ZEV standard?
    Ms. Nichols. The ZEV standard, which is really intended to 
push the manufacturers to develop technology, was very 
effective in beginning the process of getting investments made 
by all the major manufacturers in zero-emission vehicles.
    Now the problem we face is that, while the vehicles are 
there, there are obstacles to fueling because of the lack of a 
deployment of a thorough network of charging stations.
    There's also issues about consumer awareness, because 
there's been a reluctance, I think, on the part of some to 
advertise the availability of these vehicles.
    So there are still impediments to the kind of take-off that 
we'd like to see. But when we've added those issues to the 
equation, as we have been doing in California in the last few 
years, we've seen a very quick uptake in the purchases.
    Mr. Tonko. Thank you. Thank you very much.
    We now recognize Representative Duncan for 5 minutes, 
please.
    Mr. Duncan. Thank you. Thank you, Mr. Chairman.
    You know, there's a big difference between being an elected 
official and representing a constituency and being appointed to 
a position where you're just accountable to that one person 
that appointed you, whether it was a President or what.
    I think Attorney General Landry gets that, having run for 
Congress and also running as an attorney general in the State 
of Louisiana.
    I want to bring up a letter, General Landry, that six State 
attorney generals signed, including you and attorney general 
from my State, Alan Wilson.
    In short, this letter expresses support for bringing 
national harmony to the CAFE standards, and Mr. Chairman, I 
would like submit that for the record, if I can.
    Mr. Tonko. Without objection, so granted.
    [The information appears at the conclusion of the hearing.]
    Mr. Duncan. General Landry, you state in your testimony, 
``when a State is allowed to usurp congressional intent for 
their own designs, all of the other States in our republic 
suffer.''
    In the letter it says, ``one State should not be able to 
effectively dictate fuel economy standards, tailpipe emission 
requirements, and mandates for zero-emission vehicles for the 
entire Nation where Congress has set a clear policy favoring a 
single Federal standard and no compelling air quality concern 
exists that is unique to that State.''
    It is a great letter. I appreciate you doing that. You have 
sat here patiently all day. I want to give you an opportunity 
to address these issues one more time, how they affect your 
State manufacturing and your constituents.
    Mr. Landry. Well, thank you, my good friend.
    You know, the one thing that's interesting is that the road 
that we are traveling by allowing California to do that and 
basically have a waiver, which we believe is probably 
unconstitutional and certainly improper in the way that it was 
granted, is that it's discriminatory.
    It is discriminatory against rural and smaller States by 
allowing the State of California to basically set national 
policy. National policy should be set in here.
    I would remind you all that the State of California 
controls 53 to 52 seats in the House of Representatives. That's 
12 percent of this body.
    And so, if they can't with that large number be able to 
influence national policy, we shouldn't have the State back 
home, right--the State of California back home--dictating 
national policy. That is inherently unconstitutional and a 
complete violation of the Commerce Clause.
    Also, what's interesting is that competition, right, should 
be driving technology, not the Government. The Government 
certainly has an opportunity to encourage technology.
    But I want to be able to drive a truck which I've driven my 
entire life, right. I want to be able to own an SUV. At some 
point, there becomes a point of diminishing return, and then 
all of a sudden California dictates what size vehicle I get to 
drive, right.
    What happens in Illinois or Kansas or Nebraska or Iowa, 
right? What happens to those farms or those people who want to 
use larger utility vehicles?
    Certainly, we want the automobile industry to drive the 
vehicles that we want to--we want to purchase, and certainly if 
they can create a truck that has a higher fuel efficiency, it 
is attractive to consumers, it certainly would be attractive to 
me as well.
    But I can tell you that the way that this is going is 
disruptive to our constitutional principles and the way that 
our structure of government should operate, and all we are 
asking for--and remember, attorney generals are responsible for 
protecting consumers, and this is absolutely not a protection 
of consumers because what it does is discriminatory in fact 
against consumers in Louisiana rather than, basically, placing 
the policy decisions inside the hands of State consumers or 
elected officials in California.
    Mr. Duncan. You make excellent points, and we are a 
republic. And you talk about in terms of State sovereignty, one 
State shouldn't dictate what other States do, and I think the 
letter that you and other attorney generals have put forward is 
very, very clear on that.
    And I mentioned earlier in the first panel, I drive a Chevy 
Duramax diesel. I was in the auction business, a real estate 
brokerage. I drove about 65,000 miles a year. The reason I did 
that wasn't because I necessarily needed all that towing power 
and capacity of that truck.
    I was wearing gasoline engines out. So Chevrolet had a 
product that was appealing to me. That's what 
entrepreneurialism, capitalism is all about, is that the 
manufacturers see a need in the market and they produce a 
product that the buyer wants, not a product that the Government 
tells them they have to produce and tells the buyers they have 
to buy.
    That's what happens in socialist societies, not capitalist 
societies. We are a market-driven economy and we are a republic 
of sovereign States, and I think the attorney general has made 
some great points there.
    Mr. Chairman, I thank the committee for having this panel 
and for this hearing, and with that I will yield back.
    Mr. Tonko. The gentleman yields back.
    I believe that concludes all those who were looking to 
question our panel.
    With that, I thank all of our witnesses for their 
participation in today's hearing. Very important to have your 
input. We thank you for that.
    And I remind my colleagues, the Members, that pursuant to 
committee rules they have 10 business days by which to submit 
additional questions for the record to be answered by the 
witnesses who have appeared. I ask that each witness respond 
promptly to any such questions that they may receive.
    And then I request unanimous consent to enter the following 
list of documents into the record:
    A report by Bill Becker, the former executive director of 
the National Association of Clean Air Agencies; a report from 
the BlueGreen Alliance and the Natural Resources Defense 
Council; the UAW's research paper on electric vehicles; a 
letter from 17 automakers to California Governor Gavin Newsom; 
a letter from 17 automakers to President Donald Trump; a letter 
from Ceres; a General Motors proxy memo; a Ford proxy memo; a 
letter from General Motors investors; a letter from investors; 
a letter from the Ceres BICEP Network; a letter from 10 State's 
attorneys general; a letter from John Bozzella, president and 
CEO of the Association of Global Automakers; a letter from 
Securing America's Future Energy, or SAFE; a statement from the 
American Chemistry Council; EPA's Assistant Administrator 
Wehrum's ethics disclosure report; a letter from the 
Competitive Enterprise Institute; a letter from BP CAFE to EPA 
Administrator Wheeler; a letter from EPA Administrator Andrew 
Wheeler; a fact sheet from Auto Alliance; a statement for the 
record from the Consumer Federation of America.
    And any objection?
    Hearing none, without objection, so ordered.
    [The information appears at the conclusion of the 
hearing.]\1\
---------------------------------------------------------------------------
    \1\ The Becker and BlueGreen Alliance reports, the UAW paper, the 
Competitive Enterprise Institute letter, the Auto Alliance fact sheets, 
and the Consumer Federation of America statement have been retained in 
committee files and also are available at https://docs.house.gov/
Committee/Calendar/ByEvent.aspx?EventID=109670.
---------------------------------------------------------------------------
    Mr. Tonko. And at this time, I thank my colleagues. The 
subcommittee is adjourned.
    [Whereupon, at 3:17 p.m., the subcommittees were 
adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    [Three supplemental documents submitted with Mr. Friedman's 
responses have been retained in committee files and also are 
available at https://docs.house.gov/meetings/IF/IF17/20190620/
109670/HHRG-116-IF17-Wstate-FriedmanD-20190620-SD004.pdf.]

                                 [all]
</pre></body></html>
